<html>
<title> - THE DUPONT AEROSPACE DP-2 AIRCRAFT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   THE DUPONT AEROSPACE DP-2 AIRCRAFT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2007

                               __________

                           Serial No. 110-38

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
35-856 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        TOM FEENEY, Florida
BRIAN BAIRD, Washington              MICHAEL T. MCCAUL, Texas
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
          DOUG PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             June 12, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

                                Panel I:

Hon. Duncan Hunter, a Representative in Congress from the State 
  of California; Ranking Member, Committee on Armed Services
    Oral Statement...............................................    10
    Written Statement............................................    13

Discussion.......................................................    15

                               Panel II:

Mr. John A. Eney, Former Head, Aircraft Conceptual Design Branch, 
  Naval Air Development Center and Naval Air Systems Command
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    25

Dr. William J. Scheuren, Former DARPA DP-2 Program Manager and 
  Former Harrier Test Pilot; Consulting Systems Research Engineer
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    28

Mr. Mark Deadrick, Former duPont Aerospace Employee
    Oral Statement...............................................    29
    Written Statement............................................    32

Discussion
  The Osprey Project.............................................    34
  Problems With the DP-2.........................................    35
  DP-2 Program Management........................................    35
  More on DP-2 Problems..........................................    36
  Vectored Thrust Problems.......................................    36
  Witness Backgrounds and Opinions...............................    37
  Harrier Accident Record........................................    38
  V-22 Accident Record...........................................    38
  Congressional Funding Responsibilities.........................    39
  More on Vectored Thrust........................................    41
  Practical Problems With the V-22...............................    42
  DP-2 Versus the Harrier........................................    43
  Military Needs for the DP-2....................................    44

                               Panel III:

Mr. Anthony A. duPont, President, duPont Aerospace Company, Inc.
    Oral Statement...............................................    45
    Written Statement............................................    47
    Biography....................................................    54

Discussion
  DP-2 Funding...................................................    55
  Why Fund the DP-2?.............................................    55
  Value of Vectored Thrust.......................................    56
  Vertical Take Off and Landing..................................    57
  Current State of the DP-2......................................    58
  DP-2 Thrust Problems...........................................    59

                               Panel IV:

Mr. John F. Kinzer, Program Officer, Air Warfare and Weapons, 
  Office of Naval Research
    Oral Statement...............................................    61
    Written Statement............................................    61
    Biography....................................................    63

Colonel G. Warren Hall (Ret.), NASA Ames Chief Test Pilot and 
  Chairman of the DP-2 Airworthiness Review Panel; Assistant 
  Director for Aviation, Ames Research Center
    Oral Statement...............................................    64
    Written Statement............................................    64
    Biography....................................................    73

Ms. Marie Greening, Executive Director, Aeronautical Systems 
  Division, Defense Contract Management Agency
    Oral Statement...............................................    73
    Biography....................................................    74

Lt. Col. Michael Tremper
    Oral Statement...............................................    75
    Written Statement............................................    76
    Biography....................................................    77

Discussion
  DP-2 Specifications............................................    78
  State of the DP-2 Project......................................    78
  DP-2 FAA Certification.........................................    79
  DP-2 Accident Record...........................................    79
  Management of the DP-2 Project.................................    79
  Vectored Thrust Research Funding...............................    80
  Closing........................................................    81

             Appendix 1: Answers to Post-Hearing Questions

Mr. Anthony A. duPont, President, duPont Aerospace Company, Inc..    86

Mr. John F. Kinzer, Program Officer, Air Warfare and Weapons, 
  Office of Naval Research.......................................    89

             Appendix 2: Additional Material for the Record

Exhibit 1, duPont Aerospace DP-2 Concept.........................    94

Exhibit 2, From 1990 DARPA Review of DP-2........................    95

Exhibit 3, E-mail from John Kinzer to duPont regarding general 
  concerns over DP-2 test operations.............................    96

Exhibit 4, duPont Aerospace 2003 Risk Management Program (RAMP)..    97

Exhibit 5, An Assessment of the duPont Aerospace Company Model 
  DP-2 Aircraft..................................................   109

Exhibit 6, Letter from Anthony A. duPont to John K. Reingraber 
  regarding the DP-2.............................................   115

Exhibit 7, Technology assessment DP-2 aircraft concept...........   117

Exhibit 8, Memorandum for the Secretary of Defense regarding the 
  DP-2...........................................................   122

Exhibit 9, Review of the DP-1 VTOL Aircraft Project..............   125

Exhibit 10, USAF Combat Rescue Analysis of Alternatives..........   126

Exhibit 11, 2003 NASA Analysis of the DP-2 concept...............   131

Report to Congress: A Decision By The Secretary Of Defense Is 
  Needed On The AV-8B Aircraft Program, February 8, 1980.........   135

Naval Aviation: The V-22 Osprey--Progress and Problems, Report to 
  the Ranking Minority Member, Committee on Armed Services, House 
  of Representatives, October 1990...............................   157

Naval Aviation: Status of V-22 Osprey Full-Scale Development, 
  Statement of Martin M. Ferber, Director, National Security and 
  International Affairs Division, before the Subcommittee on 
  Research and Development and Subcommittee on Procurement and 
  Military Nuclear Systems, Committee on Armed Services, House of 
  Representatives, April 11, 1991................................   168

Navy Aviation: V-22 Development--Schedule Extended, Performance 
  Reduced, and Costs Increased, Report to the Chairman, Committee 
  on Armed Services, House of Representatives, January 1994......   185

Navy Aviation: V-22 Cost and Capability to Meet Requirements Are 
  Yet to Be Determined, Report to Congressional Committees, 
  October 1997...................................................   196

The V-22 Osprey Keeps on Crashing Despite Confidence.............   211

Letter to Donald H. Rumsfeld, Secretary of Defense, regarding 
  Defense Acquisitions: Readiness of the Marine Corps' V-22 
  Aircraft for Full-Rate Production, from Katherine V. Schinasi, 
  Director, Acquisition and Sourcing Management, United States 
  Government Accounting Office, February 20, 2001................   217

Aldridge Discusses Marines' V-22, Army Crusader, by Jim Garamone, 
  American Forces Press Service, May 2, 2002.....................   220

Memorandum for Under Secretary of Defense (Acquisition Technology 
  and Logistics), regarding V-22 Assessment Report, May 15, 2003.   222

Why the V-22 is Still Unsafe, by Carlton Meyer, Editor, G2mil, 12 
  December 2003..................................................   224

Osprey or Albatross? Dangerous Problems Still Haunt Complex V-22, 
  by Everest E. ``Rich'' Riccioni, Defense News, January 26, 2004   248

V-22 Costs Soar, by Carlton Meyer, Editor, G2mil, 2004...........   251

V-22 Osprey Tilt-Rotor Aircraft, CRS Report for Congress, Updated 
  March 13, 2007.................................................   257

The Flawed V-22 Osprey and the Marine Corps, by Everest E. 
  Riccioni, Col. USAF, Ret.......................................   275

The Marine Corps' Strategic Procurement Mistake, Project On 
  Government Oversight, April 18, 2007...........................   290


                   THE DUPONT AEROSPACE DP-2 AIRCRAFT

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:40 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   The duPont Aerospace DP-2 Aircraft

                         tuesday, june 12, 2007
                          9:30 a.m.-12:00 p.m.
                   2318 rayburn house office building

Overview/Purpose

    The Subcommittee on Investigations & Oversight will meet on 
Tuesday, June 12, 2007, to examine the history, technical viability, 
critical assessments, testing mishaps and management of the DP-2 
Vertical/Short Takeoff and Landing (V/STOL) aircraft being developed by 
the duPont Aerospace Company. The DP-2 program, funded exclusively 
through congressional earmarks since 1988, has received more than $63 
million. Yet, multiple technical reviews of the DP-2 concept have 
repeatedly rejected it on its technical merits since 1986, and serious 
concerns continue to arise about the ability of duPont Aerospace to 
effectively and safely manage the program. Three DP-2 prototype 
aircraft have been developed, and the DP-2 has suffered from four 
mishaps in the past four years. The Subcommittee on Space and 
Aeronautics held a hearing on this project in May 2001.
    The purpose of this hearing is to review the technical virtues of 
the DP-2, concerns about the safety of the aircraft, duPont Aerospace's 
management of the program and the company's adherence to safety 
protocols and procedures. This is particularly important given the fact 
that Tony duPont, President of the duPont Aerospace Company, envisions 
the development of a commercial version of the DP-2 aircraft. Finally, 
the Subcommittee will examine what sort of return on investment the 
U.S. Government has received for its two decades of support and more 
than $63 million investment in this program to date.
    During his testimony to the House Committee on Science in May 2001, 
duPont said the commercial airline industry including Boeing, Lockheed 
and Grumman did not invest in his concept of the DP-2 aircraft because 
they were skeptical of his ability to actually achieve success. Six 
years later, it appears the DP-2 program has accomplished very little. 
Yet, duPont continues to receive a steady stream of congressional 
funding. The key question is why Congress should continue to invest in 
this program today?

Background

    Tony duPont conceived of his V/STOL aircraft as a business jet in 
the early 1970s and called it the DP-1. In 1972, he first proposed his 
larger airplane, called the DP-2, to the Defense Department. Both 
aircraft designs relied on the concept of vectored thrust--which would 
permit the aircraft to direct the thrust from its engines both downward 
projecting the aircraft upward and permitting it to hover, as well as 
backward propelling the aircraft forward while in flight. As envisioned 
by duPont, the DP-2--once operational--would be capable of ferrying up 
to 48 fully equipped troops into combat zones, landing on remote oil 
drilling platforms or rooftops in crowded urban areas. Commercial 
versions of the aircraft would transport between 50 and 200 passengers 
to inaccessible resort destinations or directly to the greens of 
prestigious golf courses.
    The U.S. Navy received an unsolicited proposal from Tony duPont for 
the DP-2 in 1986. But the Navy found a litany of technical problems 
with the aircraft and recommended that the ``DuPont DP-2 concept be 
dropped.'' In 1990, the Defense Advanced Research Projects Agency 
(DARPA) conducted a second technical assessment of the DP-2 and 
concluded: ``It is DARPA's assessment that the design cannot be adapted 
from its commercial aircraft application to the military requirement. . 
. . Additionally, concern over the practicality of the basic DP-2 
aircraft was expressed by the technical experts consulted by DARPA,'' 
the report declared. In 1999, the Naval Air Systems Command (NAVAIR) 
conducted a technical oversight trip to the duPont Aerospace facility 
in San Diego. The oversight team, which included one dozen aerospace 
experts, discovered a disturbing series of problems in how the DP-2 
aircraft was being manufactured. The team's reports detailed problems 
in the fabrication and assembly of the aircraft, quality control 
processes and procedures, materials development and safety procedures, 
among other things. The oversight team found, for instance, that no 
ejection seats had been planned or installed for the DP-2, even though 
it was being developed as a military aircraft. The review concluded 
that ``The integrity of the [aircraft] to conduct safe hover or forward 
flight operations is questionable.'' In the end, the team said the 
aircraft's technical faults would ``produce an extremely unsafe 
vehicle, not worthy of flight.''
    Despite those reviews and subsequent problems on the program, 
earmarks for the DP-2 have not ceased. Congress first earmarked funds 
for duPont Aerospace to begin development of the DP-2 program in 1988 
through DARPA. But technical concerns about the aircraft's viability 
and safety performance were so great that DARPA refused to expend $30 
million on the project that Congress had appropriated for it. The 
agency went so far as to have its General Counsel author three separate 
legal opinions in the early and mid-1990s stipulating why DARPA should 
not fund the project. The earmarked funds first began to flow to duPont 
Aerospace in 1993, according to the Defense Department. In 1997, the 
Office of Naval Research (ONR) took over management of the program, 
where it remains today. In FY 2002 and FY 2003, $7.5 million in grants 
were earmarked for the DP-2 program through NASA as well. In April 
2003, a NASA analysis of the DP-2 concept found ``that the DP-2 effort 
is not worthy of continued funding.'' Still, since then NASA has played 
a critical technical oversight role, working with ONR and acting as 
Chair of the ONR DP-2 Airworthiness Review Panel.
    Over the past four years, two separate DP-2 prototypes have 
suffered from four mishaps, and some government officials have 
questioned the competence and capabilities of duPont Aerospace. In 
November 2003, during a controlled hover test at Gillespie Field in San 
Diego, the public airport where the company maintains the DP-2, the 
aircraft had a ``hard landing'' and suffered significant damage. The 
aircraft has only been allowed to attempt to hover while it is tied 
down via tethers to a metal helicopter stand. During this test, Tony 
duPont removed the nose tether of the aircraft, which was a violation 
of the approved testing procedures. The crash resulted in $88,000 in 
material damage and required an estimated 1,150 man-hours to repair, 
according to duPont's own estimate.
    The aircraft suffered a second failure in November 2004 when its 
``nozzle box'' composite structure failed due to engineering 
deficiencies, according to a NASA review. Most disturbing was the fact 
that the DP-2 test pilot was in the cockpit at the time, which again 
violated safety protocols that had been established for the test. 
Fortunately, the pilot, whose helmet struck the ceiling of the cockpit 
as the cabin floor cracked and the aircraft filed with hot exhaust and 
composite dust, was unharmed. He escaped through the right cabin window 
because the main cabin door had been jammed shut. The aircraft suffered 
a second nozzle box failure in April 2006 that was attributed to 
structural design issues. Last August, it suffered from its fourth 
accident in four years when a computer glitch on the navigation 
computer software of the aircraft caused the aircraft to hover too high 
and then slammed back down on the test stand, damaging the wing. The 
DP-2 aircraft is expected to begin a new round of hover tests later 
this month.
    In addition to the serious safety issues that have been called into 
question regarding the management of the DP-2 program, the Subcommittee 
has learned that questions regarding duPont's financial management of 
the program have also emerged. According to a 2004 Department of 
Defense audit of the company, duPont Aerospace attempted to misallocate 
at least some of the Congressional funding it has received. The audit 
found that duPont billed the government nearly $7,000 in unallowable 
costs, including $1,700 for polo-shirts with duPont's logo imprinted on 
them, nearly $2,000 for an annual company picnic and more than $3,000 
for a family vacation on a cruise ship. The questioned costs were below 
the $10,000 ``threshold'' limit set by Federal Acquisition Regulations 
so duPont received a penalty waiver and removed the costs from the 
claimed costs they submitted to the U.S. Government.

Witnesses

    The Subcommittee hearing will be composed of four panels that will 
explore the past, present and current state of the DP-2 aircraft 
concept. The Honorable Duncan Hunter (CA-52) will be the sole witness 
on Panel I. Mr. Hunter is currently the Ranking Member and formerly the 
Chairman of the House Armed Services Committee and has been a long-time 
supporter of the DP-2. Panel II will include individuals involved in 
critical reviews of the DP-2 in 1986, 1990 and 1999. It also includes 
the former duPont Aerospace Manufacturing Engineering Manager who 
worked at the firm in the early 1990s and again from 2002 to 2005. Tony 
duPont will be the exclusive witness for Panel III and will testify via 
video-conference from San Diego. He will be asked to respond to 
criticism of both the technical merits of the DP-2 concept, safety 
concerns with the aircraft and his management of the program. Panel IV 
will include the key individuals currently involved with the 
government's management and oversight of the DP-2 program. They will 
address recent safety issues with the program, including the cause of 
four accidents with the aircraft in the past four years, technical 
hurdles with the performance of the DP-2 and overall management of the 
program by duPont Aerospace.

Panel I:

The Honorable Duncan Hunter (CA-52) is currently the Ranking Member and 
formerly the Chairman of the Armed Services Committee. Mr. Hunter has 
been a long-time supporter of the DP-2.

Panel II:

Mr. John Eney, former Head, Aircraft Conceptual Design Group, Naval Air 
Development Center (NADC) and Naval Air Systems Command (NAVAIR). Mr. 
Eney first reviewed the DP-2 concept in 1986 and later led a team of 
senior Navy aerospace engineers on a site visit to the duPont Aerospace 
facilities in San Diego in 1999 while the first DP-2 prototype was 
partially completed.

Dr. William Scheuren was on a DARPA review team that provided a 
critical evaluation of the technical merits of the DP-2 concept in 
1990. He later became the DARPA DP-2 Program Manager in the mid-1990s 
and is former Commanding Officer of the first Marine Corps Harrier 
Squadron. Dr. Scheuren holds a Ph.D. in Applied Research and has been a 
test pilot on fighter aircraft, multi-engine transports, helicopters, 
seaplanes and V/STOL aircraft, including the X-22, a predecessor to the 
V-22 Osprey tilt-rotor aircraft.

Mr. Mark Deadrick, former Manufacturing Engineering Manager, duPont 
Aerospace Company. Mr. Deadrick first began working for duPont 
Aerospace as a college intern in 1988. He was employed as a full-time 
Mechanical/Aerospace Engineer at duPont from 1992 to 1994 and as 
Manufacturing Engineering Manager from 2002 to 2005, when he was in 
charge of the composite fabrication and assembly of the DP-2 aircraft.

Panel III:

Mr. Anthony duPont, President, duPont Aerospace Company. Mr. duPont's 
proposed aerospace plane and engine design concept was selected as the 
government's baseline design for the National Aerospace Plane (NASP) 
program in 1983. He holds eight patents and is a former co-pilot for 
Pan American World Airways. Mr. duPont founded the duPont Aerospace 
Company in 1969 to pursue the development of VSTOL aircraft using 
vectored thrust. He first proposed the DP-2 aircraft design concept in 
1972.

Panel IV:

Mr. John F. Kinzer, Deputy Director of the Air Warfare and Naval 
Weapons Division at the Office of Naval Research and the DP-2 Program 
Manager. He is a former graduate of the U.S. Navy Fighter Weapons 
School (Topgun) and retired as a Navy Captain in 1999. He has flow over 
35 different types of aircraft and has been involved in oversight of 
the DP-2 program for the past eight years.

Mr. G. Warren Hall, Chairman of ONR's DP-2 Airworthiness Review Panel 
and Assistant Director for Aviation and Chief Test Pilot at NASA Ames 
Research Center. Mr. Hall completed twenty-eight years of Military 
Service retiring as the Commander of a California Air National Guard 
Rescue Group, with the rank of Colonel. He has authored seventy-three 
technical reports and has flown over 65 different aircraft.

Lt. Col. Michael Tremper (USAFR), Defense Contract Management Agency, 
Government Flight Representative to duPont Aerospace Company. Lt. Col. 
Tremper is a pilot for Delta Airlines and has been the Government 
Flight Representative to duPont Aerospace since 1999 providing 
operational oversight of the DP-2 program.

Ms. Marie Greening, Director, Aeronautical Systems Division, Defense 
Contract Management Agency, will accompany Lt. Col. Tremper to the 
hearing.
    Chairman Miller. This hearing will come to order. I 
understand that Mr. Hall is on his way, and when he arrives, we 
will certainly break to allow his opening statement. He is not 
here in the ordinary course, but we want to respect Mr. 
Hunter's time and those of everyone else and go ahead and 
begin.
    Our hearing today is about the amazing staying power of the 
duPont Aerospace DP-2, or rather, the remarkable staying power 
of the project's taxpayer funding. The DP-2's concept is a 
vertical takeoff aircraft, but flight remains an aspiration for 
the DP-2, not an achievement. The DP-2 is still not 
operational, and has never received a positive technical review 
in more than 20 years.
    To put that in perspective, the Wright Brothers first 
achieved powered flight in North Carolina in December 1903. I 
understand that the State of Ohio also had some loose 
association with that project. A little more than a decade 
later, the airplane was an effective weapon in World War I. 
Charles Lindbergh flew the Atlantic in May 1927, less than 24 
years later.
    The government agencies--welcome Mr. Hall--through which 
Congress has provided the funding for the DP-2 have never 
requested the experimental aircraft. The Defense Advanced 
Research Projects Agency, DARPA, refused to spend the funds 
that Congress appropriated for the project for seven years, 
because the Agency's technical judgment that the concept was 
fundamentally impractical. Just three years ago, NASA, which 
was then funding the project, also concluded that the DP-2 was 
``not worthy of continued funding.''
    The concept for the DP-2 Vertical/Short Takeoff and Landing 
Aircraft was first proposed by Tony duPont, President of duPont 
Aerospace Company, 35 years ago. He envisioned using vectored 
thrust in a business-class jet. Vectored thrust permits an 
aircraft to direct the thrust from its engines both downward, 
projecting the airplane upward and allowing it to hover, as 
well as backward, which would propel the aircraft forward while 
in flight. Mr. duPont was unable to attract private sector 
funding for the idea, so he turned to the military.
    In 1986, responding to an unsolicited proposal from Mr. 
duPont, the Navy concluded that, again quoting, ``the duPont 
DP-2 concept should be dropped.'' In 1988, the DP-2 received 
its first $3 million earmark, which was inserted into DARPA's 
budget. In 1990, DARPA questioned, again, the ``practicality of 
the basic DP-2 aircraft.'' In the succeeding years, every 
single review has found overwhelming technical problems with 
DP-2, and some have questioned whether the aircraft will ever 
fly at all. These reviews and others have found the DP-2 
aircraft unsafe, technically unsound, and unwanted by the U.S. 
government, by the Defense Department, or commercial airline 
industry.
    In addition, Government officials have repeatedly 
questioned the ability of the contractor, the duPont Aerospace 
Company, to manage the program effectively and safely. 
Government officials have temporarily shut down the DP-2 
program twice in the past five years because of safety 
concerns, and the program has suffered from four major mishaps 
in the last four years. In one of those mishaps, the pilot was 
lucky to have escaped without injury. The aircraft was at that 
time not hovering but was earthbound.
    It is hard not to admire Tony duPont's persistence and 
unshakeable faith in the promise of the DP-2 project. But after 
two decades of research, development, and testing, the United 
States Government has little to show for its investment. 
Congress appears to have permitted the DP-2 program to become a 
hobby, not a serious research project, and squandered more than 
$63 million of taxpayers' money.
    As one of our witnesses will testify today, the DP-2 is not 
suitable for either military or commercial applications. The 
plane needs a complete redesign and substantial improvements in 
the engineering expertise provided by duPont Aerospace to have 
even a chance of getting to a full test. But the DP-2 is only 
one of several competing concepts for vertical take-off 
aircraft. If we need to start all over, why not spend our money 
on the concepts that the experts, on whose judgments we should 
rely, believe are far more likely to succeed?
    I now recognize the Full Committee Ranking Member, Mr. 
Hall, for his opening statement.
    [The prepared statement of Chairman Miller follows:]

               Prepared Statement of Chairman Brad Miller

    Our hearing today is about the amazing staying power of the duPont 
Aerospace DP-2, or rather the remarkable staying power of the project's 
taxpayer funding. The DP-2's concept is a vertical take-off aircraft, 
but flight remains an aspiration for the DP-2, not an achievement. The 
DP-2 is still not operational, and has never received a positive 
technical review in more than 20 years. To put that in perspective, the 
Wright Brothers first achieved powered flight in North Carolina in 
December, 1903. (The State of Ohio also had some loose association with 
that project.) A little more than a decade later, the airplane was an 
effective weapon in World War I. Charles Lindbergh flew the Atlantic in 
May, 1927, less than 24 years later.
    The government agencies through which Congress has provided the 
funding have never requested the experimental aircraft. The Defense 
Advanced Research Projects Agency (DARPA) refused to spend funds that 
Congress appropriated for the project for seven years based upon the 
agency's technical judgment that the concept was fundamentally 
impractical. Just three years ago, the National Aeronautics and Space 
Administration (NASA), which was funding the program at the time, also 
concluded that the DP-2 was ``not worthy of continued funding.''
    The concept for the DP-2 Vertical/Short Takeoff and Landing (V/
STOL) aircraft was first proposed by Tony duPont, President of the 
duPont Aerospace Company, thirty-five years ago. He envisioned using 
vectored thrust in a business-class jet. Vectored thrust permits an 
aircraft to direct the thrust from its engines both downward--
projecting the plane upward and allowing it to hover, as well as 
backward which would propel the aircraft forward while in flight. He 
was unable to attract private sector funding for the idea, so he turned 
to the military.
    In 1986, responding to an unsolicited proposal from Mr. duPont, the 
Navy concluded that the ``duPont DP-2 concept [should] be dropped.'' In 
1988, the DP-2 received its first $3 million earmark, which was 
inserted into DARPA's budget. In 1990, DARPA questioned the 
``practicality of the basic DP-2 aircraft.'' In the succeeding years, 
every single review has found overwhelming technical problems with the 
DP-2, and some have questioned whether the aircraft would ever fly. 
These reviews and others have found the DP-2 aircraft unsafe, 
technically unsound and unwanted by the U.S. Government, Defense 
Department or commercial airline industry.
    In addition, Government officials have repeatedly questioned the 
ability of the contractor--the duPont Aerospace Company--to manage the 
program effectively and safely. Government officials have temporarily 
shut the DP-2 program down twice in the past five years because of 
safety concerns, and the program has suffered from four mishaps in the 
past four years. In one of those mishaps the pilot was lucky to have 
escaped without serious injury.
    It is hard not to admire Tony duPont's persistence and unshakeable 
faith in the promise of the DP-2 project. But after two decades of 
research, development and testing on the DP-2, the U.S. Government has 
very little to show for its investment. Congress appears to have 
permitted the DP-2 program to become a hobby, not a serious research 
project, and squandered more than $63 million of taxpayers' money. As 
one of our witnesses will testify today, the DP-2 is not suitable for 
either military or commercial applications. The plane needs a complete 
redesign and substantial improvements in the engineering expertise 
provided by duPont Aerospace to even have a chance of getting to a full 
test. But the DP-2 is only one of several competing concepts for 
vertical take-off aircraft. If we need to start all over, why not spend 
our money on the concepts that the experts on whose judgment we should 
rely believe are far more likely to succeed?

    Mr. Hall. Mr. Chairman, I thank you. I don't agree with 
you, but I thank you.
    Here we are today to discuss a research project that is 
funded through the Department of Defense, called DP-2, as you 
have set out. However, your lack of belief in this type of 
experimentation, with no personal intent here to offend you is: 
I had an old lady 84 years old, and that is exactly how old I 
am today, and I thought she was ancient then. When the first 
space shot was made, she said it will never go up, and when it 
did go up, her answer was it will never come down.
    So, have some faith in the experimentation. Sometimes, this 
will push the Osprey people, and I just think that the goal of 
this high-risk, high-reward research is to develop advanced 
vertical and takeoff landing technology that is going to be 
beneficial to our armed forces, and vector to lift capabilities 
are important to our soldiers, and any increase in system 
performance ultimately saves lives, and on the gentleman who 
sits in front of us here to testify, if there is a more 
respected guy in the entire Congress than Duncan Hunter, a more 
red, white, and blue guy, I just don't know who it is. The 
faster you can get in and out of an area, the less time you 
spend on-site, the more capabilities you can bring to bear, the 
safer our troops are going to be. I think we can all agree that 
developing technology that makes our troops safer is a very, 
very important goal, and I am sure you share that desire.
    To put this project in context, the DP-2 program represents 
a fraction of the vertical takeoff and landing budget spent by 
the Department of Defense. The V-22 Osprey has been allocated 
$11.3 billion to date, not including the science and technology 
funds. The DP-2 program, in contrast, has received $63 million, 
not billion, or 0.5 percent of the V-22 budget, and sometimes, 
these projects are joint projects, and they push one another, 
and like in the medical field, you know, all these medical 
people race for a cure, and they can spend millions of dollars 
racing for that cure, but the one that comes in second doesn't 
get anything. The one that gets there first winds up with all 
of it. And sometimes that is the way it is in projects like we 
are talking about here today.
    The project has received bipartisan support. The Armed 
Services Committee and the Appropriations Committee have 
provided funds since 1988, during both Democratic and 
Republican controlled Congresses. The DP-2 project has faced 
many technical challenges, as should be expected for 
revolutionary technology. I look forward to hearing about some 
of these challenges today, as well as the potential benefits of 
the project to our troops on the ground.
    And as this committee is aware, the DP-2 project exists 
because Members of Congress requested this program. Every year, 
the Armed Services Committee receives Member requests dealing 
with the Department of Defense. Some of these requests, such as 
the DP-2 program, offer revolutionary, innovative technologies 
that will save lives if they are successful. Certainly, 
requests for advanced body armor have proved essential to our 
fighting forces. Other requests are not related to saving 
lives, such as the $1.3 million continuing appropriation from 
the defense budget to Palomar Medical Technologies for the 
study of razor burn.
    We are devoting three panels today to this one Member 
requested project. I just ask is this committee also planning 
on spending time debating the merits of some of the lesser 
technologies? And I ask this committee if we shouldn't be 
spending hours of our day discussing the Department of 
Defense's study of technology that will get our troops out of 
harm's way quickly, of the Department of Defense's study of 
other, lesser, minor thrusts.
    Mr. Chairman, I respect you, and I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Thank you, Mr. Chairman. We are here today to discuss a research 
project funded through the Department of Defense called DP-2. The goal 
of this high-risk, high-reward research is to develop advanced vertical 
takeoff and landing technology that will greatly benefit our armed 
forces. Vectored lift capabilities are important to our soldiers, and 
any increase in system performance ultimately saves lives. The faster 
you can get in and out of an area; the less time you spend on-site; and 
the more capabilities you can bring to bear, the safer our troops will 
be. I think that we can all agree that developing technology that makes 
our troops safer is an important goal.
    To put this project in context, the DP-2 program represents a 
fraction of the Vertical Take Off and Landing budget spent by the 
Department of Defense--the V-22 Osprey has been allocated $11.3 billion 
to date, not including the science and technology funds. The DP-2 
program, in contrast, has received $63 million, or .5 percent of the V-
22 budget. The project has received bipartisan support--the Armed 
Services Committee and the Appropriations Committee have provided 
funding since 1988, during both Democratic and Republican-controlled 
Congresses.
    The DP-2 project has faced many technical challenges, as should be 
expected for revolutionary technology. I look forward to hearing about 
some of those challenges today, as well as the potential benefits of 
the project to our troops on the ground.

    Chairman Miller. Thank you, Mr. Hall. I respect you, too. 
Another Member I respect is our distinguished Chairman, Bart 
Gordon, who has joined us. Mr. Gordon, do you have an opening 
statement? Okay. Thank you.
    I ask unanimous consent that all additional opening 
statements, or any additional opening statements submitted by 
Committee Members be included in the record. And without 
objection, it is so ordered.
    And Mr. Hunter, we do want to be respectful of your time, 
but before we begin with the testimony, I would like for the 
Members to see three videos that have all been provided by 
duPont Aerospace to the Committee. The first is a promotional 
video that is actually a computer-generated simulation, 
although it is not identified as such, it is that, of what 
duPont aspires to, what his ambition is with respect to the DP-
2.
    And the second and third videos are of takeoff attempts, or 
of attempts by duPont to hover the DP-2. The first one, the 
first video was taken in 2003, and records a very damaging 
accident. And the second was provided by duPont as an example 
of one of its best hovers. And without objection, the 
transcript of the first video, which does have a voiceover, 
will be placed in the record.
    Mr. Hall. Will the gentleman yield?
    Chairman Miller. I yield.
    Mr. Hall. I duly agree that the hovering is a major thrust 
now, and the difference in the technologies that have been 
performed. That is my opinion. I would just be honored to have 
yours.
    Chairman Miller. I am sorry. Say that again.
    Mr. Hall. The hovering aspect of it is the difference in 
the two, in this and the Osprey. Or one of the major 
differences.
    Chairman Miller. I am not certain of the major differences. 
I know that the Osprey also aspires to be a vertical takeoff. 
It is probably correct that this is an attempt to be more like 
a helicopter.
    Mr. Hall. I am just trying to help you.
    Chairman Miller. Well, thank you. I certainly appreciate 
the Ranking Member's help. If we could now show the videos.
    [Videos]
    Chairman Miller. Thank you. We have been joined by Mr. 
Sensenbrenner, who I understand does not have an opening 
statement, but I would wish to welcome him.
    And now, before our first witness, again, Mr. Hunter, I 
would like to place in the record a book of exhibits, which I 
understand the Minority staff has seen. And it will be referred 
to from time to time throughout the hearing. So, without 
objection, that is so ordered. [See Appendix for exhibits.]
    Our first witness today is the Honorable Duncan Hunter. He 
is currently the Ranking Member, and is formerly the Chair of 
the Armed Services Committee. Mr. Hunter has been a long time 
supporter of the DP-2. Mr. Hunter asked to be a witness today.
    And Mr. Hunter, your written statement will be placed in 
the record. Please proceed.

                                Panel I:

 STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF CALIFORNIA; RANKING MEMBER, COMMITTEE ON 
                         ARMED SERVICES

    Mr. Hunter. Mr. Chairman, thank you, and I wanted to come 
over here representing the Armed Services Committee, and 
explain to you why we funded this program, what it does, what 
the justification is.
    You folks have funded, I think, roughly 10 percent of the 
$63 million, and you dropped out of the funding some time ago, 
but you are holding this hearing today, and so, I thought I 
would come by and tell you what we are doing and why we are 
doing it. And I am reminded in that little short flight you 
just showed of the DP-2, that as you have mentioned, the Wright 
Brothers, I believe their first flight was less than the 
wingspan on a B-1 bomber. So, if you could have shown their 
first flight, back in the early days, I am sure you could have 
evoked a couple of chuckles from loyal staff members on that 
one also.
    Let me tell you what we are doing here, Mr. Chairman. If 
you look at the vehicle on the left, that is a CH-46, last 
built 1971. It goes extremely slow. That is what your Marines 
and your special operators are using in Afghanistan and Iraq 
today. It has had a lot of crashes, but we are all familiar 
with those. It is vulnerable to ground fire. It has got a 
relatively short range, and it has a slow speed, 165 miles an 
hour. We are going to replace it this year, starting the 
replacement in Afghanistan and Iraq, with that plane. That is 
the V-22, and we have spent now $11.3 billion developing that 
aircraft. That aircraft will go, as you can see, a little under 
300 miles an hour. It will have a little over 450 nautical 
miles, in terms of range. It still has, and we can't get into 
classified data, but it is not a small target for enemy 
surface-to-air missiles nor for ground fire.
    Now, it is in our interests to have a transport that allows 
Marines and special operators to move quickly from Point A to 
Point B, whether Point A is a tarmac at a base, or an aircraft 
carrier. And in this day and age of precision munitions and 
extremely sophisticated surveillance equipment on the part of 
our adversaries, we can understand that runways are going to be 
going out of business very quickly in a real shooting war, 
because you can drop precision systems on them with 
submunitions. You can pockmark the runways, and having a 
vehicle which will take off V/STOL is a real advantage to 
American forces and saves lives. Being able to move that 
aircraft quickly through vulnerable areas where surface-to-air 
missiles and ground fire are prevalent is also something that 
saves lives. So, you are moving from the antiquated CH-46 to V-
22, and that V-22, again, goes about 450 miles per hour.
    Now, this research project, and again, Defense Advanced 
Research Projects Agency is the DOD agency that has been 
working this program, along with the Office of Naval Research, 
not Production, but Research, is developing DP-2. Now, let us 
see what it does.
    You move the CH-46, goes 165 miles an hour. V-22 doubles 
that, and the DP-2, if successful, will more than double the V-
22, go twice as fast as V-22, four times as fast as CH-46. 
Whereas you have a 10,000 foot ceiling on CH-46, you have got a 
25,000 foot for V-22. You have got a 45,000 foot for DP-2. Max 
range, you go from 120 nautical miles, very short legs on that 
bird, 450 for V-22, 2,500 for DP-2.
    Now, Mr. Chairman, you pointed out that there have been 
criticisms of this program. Let me give you a good poker hand. 
These are just a few of the criticisms, all of which claim that 
they justify termination of the V-22 program, and if you look 
up at the board there, you will see some of these extremely 
critical statements of V-22, stating that it has lots of 
problems, has overruns, is a--how much time do I have left, Mr. 
Chairman? That looks like----
    Chairman Miller. Don't worry about it. Keep on going.
    Mr. Hunter. Okay. Thank you. Stating that it has lots of 
problems, that it is overrunning costs, that it should be 
canceled. You had several major problems, like the vortex ring 
state, that was discovered after some 19 Marines died at Yuma 
in a catastrophic crash. You have, also, the inability for this 
vehicle to autorotate. Nonetheless, we put the V-22 into 
production because we need it, because it does this: it doubles 
the speed and therefore, the time of vulnerability of the CH-
46; it more than doubles the range of the CH-46; and it means 
we are going to have more Marines and more special operators 
alive after they run their operations than if you were using 
the CH-46.
    Now, a question. You mentioned we spent a lot of money on 
this, on the DP-2, $63 million. We have spent $11.3 billion on 
V-22. That means that for every dollar you spent on V-22, which 
is just now getting fielded, and this is for research, you 
spent less than half a penny, and we funded that out of the 
Armed Services Committee primarily, you guys did 10 percent of 
it, on the DP-2.
    Now, you have mentioned that this has taken a long time, 19 
years. V-22, the vehicle in the middle, took 25 years. Nobody 
complained. And you mentioned the time it took the Wright 
Brothers to get their first flight. Mr. Chairman, let me tell 
you, there is not a bird on the runway today, I am talking B-1, 
B-2, Joint Strike Fighter, F-16, F-15, that we developed in 
four years. You don't develop anything in four years any more.
    And here is a key aspect to DP-2 that is important for this 
country to acquire, and that is the aspect to vertically take 
off without a runway. Now, let me just say, and we have got the 
typical group of folks who will be critics of this program, but 
anybody can be critical of a V/STOL program, because V/STOL is 
very hard to achieve.
    We have one V/STOL aircraft today in the inventory. It is 
called the Harrier. That is what the Marines fly. To date, the 
Harrier has crashed 33 percent of its aircraft. We have had, I 
believe, up through 1998, I believe 44 fatalities with the 
Harrier. With V-22, you mentioned, you said that DP-2 is 
dangerous. The V-22, which is going into production now, will 
be fielded later this next year in Afghanistan and Iraq has 
claimed the lives of 30 Marines. V/STOL is a very, very 
difficult to establish. It is very difficult, and it is very 
expensive, and let me give you the last example of that.
    We are spending billions on the Joint Strike Fighter right 
now. The Joint Strike Fighter has a V/STOL variant, because 
everybody understands being able to operate without a runway is 
an enormous advantage to our Marines and our special operators. 
Now, you showed your picture of this little aircraft not 
getting off the ground, and we have spent $63 million. Let me 
give you one back, Mr. Chairman. We have spent over a billion 
on Joint Strike Fighter, and that V/STOL version hasn't left 
the ground one inch. It hasn't even gone up five feet and 
fallen back down. It has not left the ground. So, the point is 
that V/STOL is extremely difficult to achieve, but it is 
extremely valuable. If you have V/STOL in an aircraft that can 
pick up a special operations team in Afghanistan or Iraq 
without having to have a runway, without having to move them 
down in an exposed way to an area that obviously is targeted by 
the enemy, because runways stand out, big, loud, and clear, 
especially with modern surveillance capability, if you can pick 
them up in a clandestine manner, with a minimum of exposure, 
you are ensuring that a lot more of them are going to come back 
alive than otherwise. That is why having V/STOL capability is 
important. That also means you can operate your V/STOL aircraft 
off Marine LPDs and LHAs. That is the Marine landing ships, 
which presently accommodate helicopters.
    So, we all agree that V/STOL is important. It is hard to 
achieve, and let me show you one last thing, Mr. Chairman, just 
so everybody understands the full measure of what we have got 
here. You now have this in context. We have got the ancient CH-
46. It is being replaced by the more modern V-22, which has a 
myriad of problems, by the experts, by guys like the folks 
sitting behind me, lots of whom say kill it, lots of very 
derogatory things said about the V-22, but it is a lot better 
and a lot faster than CH-46. Let me show you what the 
Department of Defense has done with respect to finding a 
follow-on to the V-22. Flip that chart over.
    There is nothing on that chart, obviously. That is because 
DOD has nothing. They have come up with nothing. Sometimes, DOD 
comes up with nothing. Last year, when we looked at our 
Marines, who were out on patrol in Iraq, we said do they have a 
portable jammer that will allow them to jam roadside bombs or 
bombs that are in villages as they are on patrol, something a 
man can carry in a backpack form. Nothing. The Pentagon had not 
come up with a single system.
    The Armed Services Committee, the same group that was 
working on DP-2, came up with a small, portable jammer about as 
big as a big battery. We produced 10,000 of those under 
Congressional direction in 70 days, and got them into the field 
to protect our people. Now, the idea around here that if the 
Pentagon doesn't come up with something, that if the services 
don't like it, you are not going to build it, is ridiculous.
    You know, Billy Mitchell, if we are talking about aircraft 
history, Billy Mitchell invented the idea that planes could 
sink ships, and we court-martialed him for his impudence, and 
of course, the Navy hated him ever after. I think we are going 
to get him a second star this year, because there is nobody 
left that hates him for that. The point is, the Pentagon 
doesn't come up with every great idea. This year, in the Armed 
Services Committee, we added on, earmarked, if you will, $400 
million for additional force protection for our troops in 
field, including stuff for IEDs, for roadside bombs, for 
incoming mortars. It is our job, under the Constitution, to 
provide for the equipment and the maintenance of the Army, the 
Navy, and of course, by implication, the Air Force. We do that.
    Now, we only have a chance of DP-2 working, and I know 
people are going to come up, and they are going to talk about 
problems they have had with the company. You will have the 
classic disgruntled employee who will tell about his problems 
with the company. That story could be told on every single 
weapons system that is fielded today. And what I am telling you 
is we need to move ahead on a V/STOL technology with a reduced 
cross-section, so you don't have surface-to-air missile 
problems to the degree that you have them with CH-46 and V-22, 
with high speed and long legs. And I think one half a penny on 
the dollar that we have spent for V-22, one half a penny out of 
that dollar, going to a new follow-on technology, is well worth 
it.
    So, Mr. Chairman, thank you for letting me come and talk to 
you a little bit today, and I stand ready for any questions.
    [The prepared statement of Mr. Hunter follows:]

           Prepared Statement of the Honorable Duncan Hunter

    Chairman Miller and Ranking Member Sensenbrenner, thank you for 
giving me this opportunity to share my thoughts regarding the DP-2 
Vectored Thrust Aircraft, a science and technology program funded by 
the Office of Naval Research.
    The DP-2 project represents potential leap-ahead technology to 
support our Marines and Special Forces operators. The project has been 
supported by a number of Members of Congress over the years, and I have 
been a strong supporter from the outset. The project has received 
bipartisan endorsement, as the Armed Services Committee and the House 
Appropriations Committee have provided funding for DP-2 since 1988, 
during both Democratic and Republican-controlled Congresses.
    The project has experienced quite a few technical challenges, but 
should it be successful, it could provide superior capabilities for our 
armed forces in terms of the speed, range, and stealth capability of 
our transport aircraft. Moreover, it is not uncommon for aviation 
technology to require significant resources and time to mature. In 
fact, the V-22 aircraft, which will be deployed in combat for the first 
time this year, is based on the XV-15 tilt-rotor prototype that was 
first flown in 1977. Research and development expenditures for the V-22 
total more than $11.3 billion. The investment in DP-2 represents 
pennies on the dollar to expand the scientific knowledge-base for 
vertical takeoff and landing, or VTOL, aircraft and its continued 
funding will be re-evaluated annually depending on future progress.
    As a Member of the Committee on Armed Services, and particularly as 
the Committee's former Chairman and current Ranking Member, I am 
fortunate to be briefed on a variety of military technologies that may 
result in improved war-fighting capabilities. Likewise, I am privileged 
to talk regularly to the men and women of our armed forces to get a 
better understanding of the true capabilities and limitations of their 
equipment and areas of continued need. One of the key lessons I have 
learned is that not everything our armed forces need is captured as a 
validated requirement by the Department of Defense. Similarly, not 
every good idea to address war-fighting needs comes out of the Pentagon 
or large defense companies. By nature, the personnel who manage 
acquisition programs within the Department of Defense are risk-adverse. 
Their performance is not measured in terms of innovation, but rather in 
terms of delivering capabilities on-cost and on-schedule. The fate of 
large defense companies usually rests in the success, or otherwise, of 
the multi-billion dollar programs with which the companies are 
associated. As a result, I have found that most innovative concepts 
emerge from small companies that operate outside of the defense 
establishment.
    In the late 1980's, as the Cold War began to draw to a close, and 
the face of our enemy began to change, I became concerned about the 
military's ability to insert or extract Marines and Special Operations 
Forces (SOF) in parts of the world without robust infrastructure such 
as runways and air bases. In short, we needed an aircraft that could 
land and take off vertically like a helicopter, but fly with the speed 
of a jet with the capacity of a transport. At the time, we had the 
Harrier, a fighter jet that had done and would continue to do yeoman's 
service for the Marine Corps, but it was a fighter, not a transport. It 
had been upgraded to the AV-8B in the early 1980's after being in 
inventory for decades. But our options in terms of transport aircraft, 
that could hold several combat loaded Marines or SOF, were limited. For 
example, we had the CH-46 Sea Knight, which was aging--even at that 
time. The last CH-46 had gone into production in 1971, and has a 
maximum speed of 165 miles per hour (mph). The V-22 Osprey, a tilt-
rotor aircraft that would go faster and farther with more payload than 
the Sea Knight, was in development, but its future was unclear. Around 
that time, I learned about a small company called duPont Aerospace and 
a concept they had for a VTOL transport aircraft using jet engines. It 
was an unusual and risky approach from a technological perspective, but 
I believed that the concept warranted further development. As a result, 
in 1988 I requested, and the Armed Services and Appropriations 
Committees granted, the first earmark for the program.
    In terms of earmarks, let me say this. Members of Congress and 
particularly Members of the Armed Services Committee take their 
constitutional responsibility to, ``raise and support armies. . .to 
provide and maintain a navy, and to make rules for. . .the land and 
naval forces,'' very seriously. Every year the Armed Services Committee 
receives letters from nearly every Member of this body, which represent 
our Members' efforts to share their ideas for the best ways to fulfill 
this responsibility. The Committee evaluates these requests and our 
Members are given three opportunities to amend and to vote on the 
requests included in our bill--at the Subcommittee level, Full 
Committee level, and on the House Floor. As Chairman, and now Ranking 
Member, of the Armed Services Committee I cede my constitutional 
responsibility to nobody, least of all the Pentagon. While some may 
cast aspersions on earmarks, I guess you could call it earmarking when 
I added more money to the President's budget request for up-armored 
Humvees. I also added money to the budget for portable jammers that our 
soldiers and Marines could wear during dismounted operations. For that 
matter, we've added funds for body armor and have been relentless in 
our pursuit of alternative technologies and the development of testing 
standards. We have saved American lives with these earmarks, and I am 
proud of them.
    Beyond force protection, I have added money for some of these 
innovative, but risky, technologies that I have described previously. 
Although the Pentagon may not have a firm requirement for something and 
may not have requested funds for it, my job is to listen to our war-
fighters, to set a vision, and to help the war-fighter get the best 
tools possible to do his or her job. I am willing to take some risks to 
get there. Consequently, I have funded programs such as the X-Craft, or 
Seafighter, a ship sized to operate at high speeds in shallow waters 
with minimal manning. A lot of people said it couldn't be done, but 
today it is the fastest ship in the Navy and can be operated with a 
crew of only 26.
    The DP-2 program falls into the same category. Its inventor 
estimates that the DP-2 can operate at maximum speeds of 724 mph. If 
successful, it would be the fastest VTOL transport aircraft in the 
world, operating at more than twice the maximum speed of the V-22, 
which can only operate at 316 mph. It is absolutely true that the DP-2 
program has had and continues to have a number of significant technical 
challenges. As a result, it has quite a few detractors. Inevitably, new 
concepts and programs will have such problems and will attract 
naysayers. In fact, the V-22 has been plagued with negative reports 
since its inception. Moreover, the Osprey has had several crashes, 
three of them fatal. I have included, for the record, a number of 
reports from the General Accountability Office, the defense press, and 
outside groups that have questioned the progress and utility of V-22. 
The latest such report from the Congressional Research Service is dated 
March 31, 2007 and details the strong opposition that V-22 still faces, 
despite its planned combat fielding for this year. Nevertheless, the V-
22 has many supporters, and the Marines and SOF are counting on its 
fielding. Given such support, one would be hard pressed to argue that a 
technology that could deliver greater speed and greater stealth 
capabilities has no military utility and is not worth some investment. 
Every moment the presence of those Marines or those commandos is known 
and every moment they are in the air at low altitude, is a moment their 
lives are in danger.
    My own son is a Marine who has served twice in Iraq and is now back 
in Afghanistan. If I can help foster the next generation of technology 
that will carry men and women like him out the line of fire from 
shoulder launched weapons or similar devices, I will do it. To put this 
is some perspective, the investment we have made in DP-2 is less than 
one percent (0.6 percent, to be precise) of the investment we have made 
in V-22 to date. Granted, should the science behind DP-2 prove 
successful, it will require additional investment. But I consider the 
investment prudent from a financial and risk perspective.
    In closing, it is the Armed Services and Appropriations Committees' 
job to consider where to place such investments in military science and 
technology, just as it is our responsibility to recommend cuts to 
programs that are no longer worth pursuing. We will continue to 
exercise our best judgment on the potential for this technology in the 
coming months and years. We look forward to any insights this committee 
may have to share with us.
    Thank you.

                               Discussion

    Chairman Miller. I do have one. Mr. Hunter, you undoubtedly 
know vastly more about experimental military aircraft than I 
do. I respect your service; I respect your expertise, but we 
all have to deal with a great many topics here. There are 
topics before Congress on which I actually know more than any 
other Member, but when Members are in a room discussing those 
issues, I quickly understand, recognize that I am the one-eyed 
man in the valley of the blind, and that there are people who 
do it for a living, for whom it does not get a little piece of 
their brain, but it is what they do, and they have expertise, 
and they have judgment that vastly exceeds my own, and I have 
learned to be humble in their presence, and to ask for their 
counsel, to rely upon their expertise and their judgment.
    Now, I know that all of us can point to transformational 
great inventions that the times' skeptics said would never 
work. The Wright Brothers, Billy Mitchell sinking ships with 
bombs from the air, the Moon landing, and in North Carolina, by 
the way, people who believe the Moon landing is fake and 
professional wrestling is real is a demographic. So, there were 
people who were skeptical at the time, but I have to think for 
every time the experts said something will never work that in 
fact worked, more spectacularly and changed society, there are 
thousands of times that the experts said this is never going to 
work, and in fact, it never worked.
    My question is how do we make judgments when the people 
that I would expect that we would rely upon, whose greater 
expertise, whose judgment would exceed our own, are pretty 
unanimous, and that includes NASA, DARPA, and the private 
aerospace industry, all of whom have looked at this concept and 
said it is not going to work, and it appears that we are pretty 
far into this, and it is not working.
    How do we make our own decisions, disregarding the 
unanimous decisions, unanimous judgments of people whose 
expertise is greater than our own?
    Mr. Hunter. Okay. Well, here is what I think we do. I think 
it is a matter of judgment, and I think you have got two lines 
here. The first line is, if you can put the poster back up, the 
first line is what are we fielding today, what are we going to 
field today that has to, by gosh, get out on the field, so 
those Marines can climb into a vehicle in Iraq and Afghanistan 
this next year that will move twice as fast as the old one, and 
will give them a modicum of safety over what they have had 
before. In this case, that is the V-22. With all of the 
problems I have told you about V-22, we have gone ahead with 
it. You know, Dick Cheney killed V-22 at one time, and 
everybody in the Pentagon backed him up and said we need to 
kill V-22, it is no good.
    Congress moved ahead, you, Mr. Chairman, at least your 
predecessor, and Congress as a whole moved ahead. V-22 is going 
to be carrying Marines twice as fast as the CH-46 this year, 
because Congress did it. So you had a stack of experts a mile 
long in the Pentagon saying that V-22 was no good. Now we are 
moving ahead with our production project. At the same time, you 
have the Defense Advanced Research Projects Agency, which 
reaches out into the future, just like those proverbs you have 
got up there that say ``Where there is no vision, the people 
perish.''
    That is, you go out, and you do lots of initiatives that 
are research initiatives, and a lot of them fail, but a few of 
them break through, and the ones that break through prove of 
great value. I was with Chuck Yeager the other day, and you 
know, he pointed out that just the flying tail that they 
developed on the X-1, just that little piece of the X-1 put us 
into space, and nobody else in the world had it, and that was 
the key to going supersonic, for five years.
    So, you develop things that go over the horizon, that are 
for the future, for the follow-on, while you are putting out 
the ham and eggs production model, that 2007 Chevy is being put 
into the field right now. While you are putting that into the 
field, you are also spending DARPA money, and Office of Naval 
Research money, on something new. And Mr. Chairman, I am 
looking at two statements of your witnesses who are going to be 
here today. Here is one of them right here. Conclusion, by Mark 
Deadrick, who is going to talk to you. He says: ``As a parting 
statement, I feel that the DP-2 program has some technical 
merits.''
    So, this isn't a case where everybody says this is 
absolutely no good. The problem is V/STOL is extremely 
difficult. V/STOL has claimed the lives of a ton of Marines. We 
have crashed a third of the planes that had V/STOL, and the 
Joint Strike Fighter didn't even get as high as that little 
tethered shot that you had of DP-2.
    So, you have got an enormously difficult problem. The only 
way to solve a problem is with research. The last thing you 
will see by the ONR team that went out, and the NASA team that 
was out there seven days ago, or maybe it was about 12 days ago 
now, they said they think that this program has justifications, 
and I am quoting them exactly, it says: ``We state that the 
independent DP-2 review panel concluded that continued hover 
test is warranted.'' One point they made was they thought that 
you need to have more funds if you are really going to have a 
robust testing program.
    So, if you are asking me what is the split, well, the split 
is this, $11.3 billion for the production model that is going 
out the door, and the Marines are going to ride in next year, 
$11.3 billion. One half a penny for each dollar that is spent 
on that for a new technology that goes over the horizon.
    And the last thing I would say to you is this. We ought to 
acknowledge you have got to have something over the horizon. 
You have got to have something with a smaller radar cross-
section than the great big radar cross-section that V-22 has. 
You have got to have something that makes it harder for our 
guys to get hit in the sky.
    So, if DP-2 is not the answer, what has the Pentagon come 
up with, with respect to V/STOL ability to carry lots of troops 
out of rugged conditions? And the answer, Mr. Chairman, that I 
have seen: zero. They have done the same thing they did with 
the portable jammer. They didn't have any portable jammer for 
our Marines. They didn't even have a defective one. They had 
none. The Armed Services Committee came up with a jammer. We 
forced it down their throats. We made them field in 70 days. We 
got 10,000 of them out there. There are Marines alive today 
because Congress took initiative. Congress has taken a lot of 
initiative. Congress forced them to have the AVAB when it was 
going to be cancelled. V-22 was cancelled by the Bush 
Administration, and Congress forced the production of V-22 
because we couldn't live with CH-46 any longer.
    You know, this is our Constitutional obligation. So, that 
is my answer to you, Mr. Chairman. You take a balance. I think 
half a penny on the dollar is a reasonable balance. And our 
intention on the Armed Services Committee is to continue to go 
forward with this program, and get that ground test, that this 
last review about two weeks ago said we should have. I think we 
should have the ground test.
    Chairman Miller. Mr. Hall.
    Mr. Hall. Mr. Chairman, I guess I don't exactly have a 
question, other than I could ask you if you are through, if you 
have more that you would like to impart to us, but I personally 
apologize to you, though Chairman, I may think the most 
important ones on the Committee are here, and Professor Baird 
down here is a great addition, but I am sorry the entire 
Committee couldn't hear your testimony, but they will read it, 
because the Chairman is going to see to that.
    I yield back my time.
    Mr. Hunter. Well, thank you, Mr. Hall. If I could just 
respond to you briefly.
    I don't know if you have seen the X-Craft, but I think you 
should be interested in that, because it has a commercial 
application. We built the X-Craft as a mandate by the Armed 
Services Committee. The Navy hated the X-Craft. They hated the 
idea. They sent us regular reports, just like the ones you have 
got stocked up on DP-2, saying it would never work. We have 
built it. The X-Craft today is in the water, it is the fastest 
ship in the Navy by a huge margin. It is in the water, goes 
about 60 miles an hour. Now, you know, you have heard the Navy 
talk about transformation, and the need to be able to operate 
with small crews. This ship, that goes 60 miles an hour, has a 
crew of 26 sailors. You can run special operations out of it. 
You can run UAVs out of it. It has got its own elevator, like a 
small aircraft carrier. It is an outstanding ship. It is a 
Congressional initiative.
    But once again, Mr. Chairman, all the great ideas don't 
come out of the Pentagon, and sometimes on things like jammers 
for our troops, the Pentagon has no idea, and we have to take 
action. I think we need to develop V/STOL capability to be able 
to combine V/STOL with high speed with stealth to protect 
American troops in what is going to be an increasingly hostile 
environment.
    If the Pentagon thinks they have got a better idea, let 
them come up with a proposal. We will be happy to fund it.
    Chairman Miller. Mr. Baird.
    Mr. Hall. I yield back.
    Chairman Miller. Okay. Mr. Baird. Mr. Baird has no 
questions. Thank you, Mr. Hunter. Okay.
    Mr. Hunter. Thank you, Mr. Chairman.
    Chairman Miller. We could take just a two minute break 
while the other panel takes their seats.
    Thank you. I would now like to welcome our second panel.
    The first witness is Mr. John Eney. Mr. Eney is the former 
head of the Aircraft Concept Design Group of the Naval Air 
Development Center, and the Naval Air Systems Command. Mr. Eney 
was a reviewer of the 1986 report by four other engineers on 
the DP-2 concept. That report concluded that there was no 
redeeming merit, that in the design, that there would, in the 
design that would justify an investment of government funds. He 
also led a Navy oversight team that reviewed the DP-2 program 
in 1999.
    Dr. William Scheuren was on a DARPA review team that 
provided a critical evaluation of the DP-2 concept in 1990. He 
later became DARPA's DP-2 program manager. He is also a former 
commanding officer of the Marine Corps Harrier squadron.
    And there seems to be an empty chair, where we would 
otherwise expect Mr. Martin Deadrick. He was on video. That 
is--okay. He is a former manufacturing engineer, manager for 
duPont Aerospace Company. He began as an intern, fabricating 
models, was a mechanical aerospace engineer from 1992 to 1994, 
and returned as a manufacturing engineering manager from 2002 
to 2005. He was in charge of the Composite Fabrication and 
Assembly. Mr. Deadrick joins us via videoconference from San 
Diego.
    It is the practice of the Investigations and Oversight 
Committee to take all testimony under oath. Do any of you 
object to taking an oath? No?
    All right. Sitting on the next row.
    Mr. Eney. I am sorry. Can you repeat the----
    Chairman Miller. Do you object to taking an oath?
    Dr. Scheuren. No, I do not, sir.
    Chairman Miller. Okay.
    Mr. Eney. No, I do not.
    Chairman Miller. All right. If you would, then, please 
raise your right hand.
    [Witnesses sworn]
    Chairman Miller. If you want to invoke the Deity, we can.
    Mr. Hall. Chairman, I would like for you to ask them to 
take the full oath, winding up with so help me God.
    Chairman Miller. Do any of you object to taking a religious 
oath?
    Mr. Eney. I do not object.
    Chairman Miller. Okay.
    Dr. Scheuren. And I do not object.
    Chairman Miller. Mr. Deadrick.
    Mr. Deadrick. I would, but I will do it anyway, sir.
    Chairman Miller. Okay. Well, you are not required to take a 
religious oath.
    Mr. Hall. No, Mr. Chairman, if he objects, I would rather 
not hear it. If he has any objection to it, if he doesn't want 
to take that, so help me God, then I don't, I neither want him 
to take the oath, nor do I want to listen to him.
    Chairman Miller. We will take Mr. Hall's objection under 
advisement, but Mr. Eney and Dr. Scheuren, who have not 
objected to a religious oath, as requested by Mr. Hall, would 
you stand again?
    [Witnesses sworn]
    Chairman Miller. Okay. Okay. And for all the witnesses, the 
same expectation of truthfulness applies, and the same penalty 
of perjury applies. I certainly hope that this committee never 
refers a case for prosecution, but there is absolutely no 
difference in the legal requirement of an oath taken invoking a 
deity, and an oath taken not invoking a deity.
    Okay. All right. All right, you will also have the right to 
be represented by an attorney. Do any of you have an attorney 
with you?
    Mr. Eney. I do not.
    Dr. Scheuren. I do not.
    Mr. Deadrick. I don't.
    Chairman Miller. Okay. And now, each of you have five 
minutes for your spoken testimony. Your written testimony has 
been included in the record already, and when the three of you 
have completed your testimony, we will begin with questions. 
Each Member will have five minutes to question the panel.
    Mr. Eney, we will start with you.

                               Panel II:

TESTIMONY OF MR. JOHN A. ENEY, FORMER HEAD, AIRCRAFT CONCEPTUAL 
   DESIGN BRANCH, NAVAL AIR DEVELOPMENT CENTER AND NAVAL AIR 
                        SYSTEMS COMMAND

    Mr. Eney. Thank you, Mr. Chairman and Members of the 
Committee. All of my exposure to the duPont Aerospace DP-2 
aircraft project took place during my 35 years of full-time 
career employment with the Department of the Navy, in the 
position of Supervisory Aerospace Engineer specializing in the 
fields of aircraft design, experimental development, and flight 
testing.
    The graduate level coursework I completed at Princeton 
University in 1965 and 1966 for my Master's degree in aerospace 
engineering included a concentration in the theory and design 
of vertical takeoff and landing aircraft, and more 
specifically, in the flight stability and controllability of 
those aircraft when operated by human pilots.
    My initial exposure to the DP-2 occurred in approximately 
1985, when I had just been promoted into the position of Head, 
Aircraft Conceptual Design Branch at the Naval Air Development 
Center, or NADC, in Warminster, Pennsylvania. My group of 
roughly 30 aerospace engineers conducted, among other duties, 
analytical evaluations of both solicited and unsolicited 
technical proposals for development of new aircraft concepts 
with possible application to the missions of the United States 
Navy and the Marine Corps.
    My introduction to the DP-2 was in reading a just completed 
detailed analytical evaluation of the DP-2 concept that some of 
my senior engineers in my group had participated in, along with 
others from the Naval Air Propulsion Center in Trenton, New 
Jersey, just across the Delaware River from NADC. That formal 
analytical evaluation of the duPont DP-2 proposal was ordered 
by and funded by the then Under Secretary of Defense for 
Research and Engineering, in response to high level 
Congressional interest in the duPont proposal.
    I, myself, did not get to play a direct part in that 1986 
proposal evaluation, except as a reviewer. There were 20 
specific technical conclusions at the end of that report, 
stating that the DP-2 design concept was deficient in its 
ability to generate enough jet engine thrust to hover in 
flight, that it lacked the means to control it in hover, if in 
fact, hover was ever achieved, and that the entire DP-2 
conceptual design was far less attractive than any other 
competing proposed designs then being considered for Navy and 
Marine Corps mission applications.
    In short, this 1986 formal technical evaluation of the DP-2 
rejected the concept outright on technical grounds, and found 
no redeeming merit that would justify investment of government 
funding at that time.
    In July of 1996, ten years later, I and my entire 
engineering group were relocated to new facilities at the Naval 
Air Station, Patuxent River, Maryland, as a result of the 
recommendations of the 1991 Base Realignment Advisory 
Commission, or BRAC. In that new location, I was promoted to a 
Division Head, GS-15, and my Advanced Conceptual Design group 
was elevated to a Division, which included counterparts from 
the Crystal City, Virginia headquarters of the Naval Air 
Systems Command that had also been relocated to new facilities 
at Patuxent River.
    In February of 1999, I received formal notification from 
the Navy Admiral and Commander of the Naval Air Systems Command 
that he had just been visited by then Navy Captain John Kinzer, 
to review an ongoing contract between the Office of Naval 
Research and duPont Aerospace. When former F-14 project test 
pilot Captain Kinzer arrived at ONR, his new duty station, and 
was confronted by the DP-2 project in being, he reported the 
situation to the Admiral back at NAVAIR. The entire NAVAIR 
engineering staff was briefed on the DP-2 project by Captain 
Kinzer, and the Admiral commanding NAVAIR recommended that a 
hand-selected team of 11 senior civilian specialists in 
aircraft research, design, test evaluation, or RDT&E, be placed 
under my leadership for the on-site review at duPont Aerospace 
facilities near San Diego, which took place on March 8 and 9 of 
1999.
    Those senior specialists who accompanied me on that two day 
review were from the following specific fields in the NAVAIR 
organization: aircraft design, test and evaluation; propulsion 
system installation and test; airframe structures; airframe 
materials; flight controls; flight dynamics; aircrew escape 
systems; and flight test clearance. The team conducted their 
onsite review at the duPont engineering facilities at La Jolla, 
and the duPont manufacturing hangars at Gillespie Field in El 
Cajon.
    The DP-2 was, at that point in time, less than 50 percent 
assembled. Each member of the evaluation team was allowed to 
closely inspect the partially built DP-2, and interview the 
various engineers and technicians on the project who were 
employed by duPont Aerospace. A rudimentary computerized flight 
simulator, supposedly programmed with the handling 
characteristics of the DP-2, was demonstrated to the team by 
the duPont company test pilot, who had been a Marine pilot 
flying the AV-8 Harrier VTOL jet fighter. This company pilot 
was not a graduate of either the Navy or Air Force Test Pilot 
Schools.
    All team members submitted written detailed assessments of 
their particular aspects of the DP-2 project to me within one 
week of returning to our offices at NAVAIR at Pax River. I then 
submitted a composite written team report as a cover letter, 
with all of their individual reports attached, to the NAVAIR 
Commanding Admiral. The opinions of the entire group were 
unanimous in expressing grave concerns over the design, 
fabrication, and proposed testing of the DP-2. The 
mechanization of the elaborately articulated thrust-vectoring 
system was firmly predicted by the team to destroy itself when 
subjected to the heat and thrust of the twin-jet engine 
exhaust.
    The company-estimated aerodynamics and handling 
characteristics of the DP-2 were inadequately substantiated by 
any routine means such as wind tunnel testing and the 
computation of inertial properties of the completed airplane. 
This meant the company pilot was being ``trained'' to fly a 
totally undefined computerized airframe on the so-called DP-2 
flight simulator.
    In overview, our March 1999 NAVAIR assessment of the 
ongoing DP-2 was as follows. Point number one, the DP-2 design 
that was first rejected by a totally different team of Navy 
engineering specialists back in 1986 had not significantly 
changed in 13 years, in the eyes of we newcomers in 1999.
    The propulsion thrust-vectoring system, consisting of two 
turbofan engines placed closely together at the nose of the 
airplane, plus an array of articulated vanes, was predicted to 
break up structurally when employed to lift the DP-2 in a 
vertical takeoff or landing attempt.
    There was a significant lack of control devices, such as 
attitude control puffer jets on the tail and wingtips, that 
were absolutely necessary to maintain piloted control of the 
DP-2 in low speed forward flight, hover, and in vertical 
takeoff and landing. At that time, the company, the duPont 
Aerospace Company, maintained that such control would be 
provided by the variable vanes in the thrust-vectoring system, 
which we considered a highly suspect concept.
    The lack of adequate hover control flies in the face of the 
company-advertised scheme, shown in the videos this morning, of 
having squads of equipment-laden Special Forces troops running 
the length of the fuselage and rappelling down ropes strung 
from the open tailgate. I didn't see that scene in this 
morning's video, but that is in the published literature 
brochures of the company.
    This testing of the DP-2, if continued, should be performed 
unmanned, through remote control, in a desert test range 
environment, well away from bystanders and valuable structures, 
if you choose to continue testing at all.
    In summary, Mr. Chairman and Members of the Committee, I 
wish to stress that the DP-2 proposal was summarily rejected by 
impartial, experienced engineers and scientists from government 
aeronautical laboratories of not only DOD, but also NASA, 
repeatedly over the past 20 years, yet it was forcibly funded 
and undertaken at the insistence of Congressional advocates, 
with no regard to the judgments of their own government 
laboratory experts.
    The DP-2 is not the first such ill-advised aircraft 
project, and it is not the only one ongoing now. At least one 
other, that I had painful personal experience with, resulted in 
a predicted catastrophe and fatality, all for no resulting 
technical gain.
    In my personal opinion, Mr. Chairman and Members of the 
Committee, as a retired federal employee, I am not speaking for 
the United States Navy in this statement, the DP-2 concept has 
no practical application to the advertised military or civil 
roles touted by the contractor.
    Again in my personal opinion, to continue to fund it would 
be an insult to the aerospace industry at large and to the 
taxpayers.
    Thank you for this opportunity.
    [The prepared statement of Mr. Eney follows:]
                   Prepared Statement of John A. Eney

Abstract

    The DP-2 aircraft development project proposal was evaluated and 
summarily rejected on technical grounds by aircraft design experts from 
the aeronautical laboratories of the Department of Defense as well as 
NASA in the mid 1980s, yet it was funded, and the contract was awarded 
to the duPont Aerospace company at the insistence of congressional 
advocates. A Navy team of senior engineers and scientists performed a 
second evaluation of the partially built DP-2 in 1999, and again, it 
was summarily rejected on technical grounds. The DP-2 design fails to 
embody the means to demonstrate the tactical military advantages 
advertised by the manufacturer, and no technological remedy for its 
failings is evident.

    All of my exposure to the duPont Aerospace DP-2 aircraft project 
took place during my 35 years of full-time career employment with the 
Department of the Navy in the position of Supervisory Aerospace 
Engineer, specializing in the fields of aircraft design, experimental 
development, and flight testing. I first entered that employment having 
two degrees in engineering, as stated in my accompanying resume. The 
graduate level course work I completed at Princeton University in 1965-
66 for my Master's Degree in Aerospace Engineering included a 
concentration in the theory and design of vertical takeoff and landing 
(VTOL) aircraft, and more specifically, in the flight stability and 
controllability of those aircraft when operated by human pilots. My 
Master's thesis relied directly upon in-flight testing of an 
experimental aircraft capable of having varying degrees of stability 
and controllability, sponsored under a Princeton University research 
contract from the Navy.
    My initial exposure to the DP-2 occurred in approximately 1985 when 
I was promoted into the position of Head, Aircraft Conceptual Design 
Branch, Naval Air Development Center (NADC), at Warminster, PA. My 
group of roughly (30) aerospace engineers conducted, among other 
duties, analytical evaluations of both solicited and unsolicited 
technical proposals for development of new aircraft concepts with 
possible application to the missions of the Navy and Marine Corps. 
These proposals came to our attention from sources that ranged from 
major aircraft manufacturing companies to small children interested 
aviation. It was Navy policy that we respond in writing to each 
proposal within thirty days. My introduction to the duPont DP-2 was in 
reading a just-completed detailed analytical evaluation of the DP-2 
concept that some of my engineers had participated in along with others 
from the Naval Air Propulsion Center in Trenton, NJ. That formal 
analytical evaluation of the duPont DP-2 proposal was ordered by, and 
funded by, the Under Secretary of Defense for Research and Engineering, 
in response to high-level Congressional interest in the duPont 
proposal. No other unsolicited proposals that came our way prior to 
that had ever been given such high-level attention. The NADC evaluation 
was reported in writing by (4) senior engineers, one of which was my 
predecessor Branch Head, and another of which was a continuing member 
of my group. I myself did not get to play a direct part in that 
proposal evaluation, except as a reviewer. The 36-page report was 
issued as NADC-86069-60, ``An Assessment of the duPont Aerospace 
Company Model DP-2 V/STOL Aircraft Design,'' in May, 1986. There were 
(20) specific technical conclusions at the end of that report, stating 
that the DP-2 design concept was deficient in its ability to generate 
enough jet engine thrust to hover in flight, that it lacked the means 
to control it in hover (if hover was ever achieved), and that the 
entire DP-2 conceptual design was far less attractive than other 
competing proposed designs then being considered for Navy and Marine 
Corps mission applications. In short, this 1986 formal technical 
evaluation of the DP-2 rejected the concept outright, and found no 
redeeming merit that would justify investment of government funding at 
that time.
    It is important to put this 1986 evaluation in proper perspective. 
Those performing the study were dedicated civil service engineers with 
a wealth of lessons learned over previous decades of experimental V/
STOL aircraft programs performed by NASA as well as by DOD and foreign 
governments. They had no prior awareness of either duPont Aerospace as 
a company, or the DP-2 as a concept that might have prejudiced them. 
They would have found no material gain in rejecting the concept. 
Contrarily, they would have stood to gain future project oversight 
funding for the Navy to proceed with a contract award for the DP-2 
development.
    I had no further involvement with the DP-2 concept between May 1986 
and February 1999. During that interim, there were occasional reports 
in the aviation news media that the DP-2 proposal was bouncing from 
agency to agency in the U.S. Government. Informal dialogue with our 
counterparts in the aircraft design research groups at NASA and the Air 
Force, as well as the Army, revealed that similar negative assessments 
were being reported to their superiors, and ultimately to the 
congressional proponents of the DP-2.
    In July of 1996, I and my entire engineering group were relocated 
to new facilities at the Naval Air Station, Patuxent River, MD, as a 
result of the recommendations of the 1991 Base Realignment Advisory 
Commission (BRAC). In that new location, I was promoted to a Division 
Head (GS-15) and my Advanced Conceptual Design group was elevated to a 
Division which included counterparts from the Crystal City, VA, 
headquarters of the Naval Air Systems Command (NAVAIR).
    In February of 1999, I received formal notification from the Navy 
Admiral and Commander, NAVAIR, that he had just been visited by Navy 
Captain John Kinzer, to review an ongoing contract between the Office 
of Naval Research (ONR) and duPont Aerospace. The DP-2 was being built, 
and had been under construction for some time. The Admiral directed 
that I form and lead a panel of senior NAVAIR engineers from various 
fields of technical specialization, to conduct a two-day on-site review 
of duPont Aerospace facilities near San Diego, CA, and assess the 
ongoing design and construction of the DP-2. In meeting with Capt. 
Kinzer myself, I learned that he was newly assigned to ONR in Ballston, 
VA, to be assistant program manager for the DP-2 contract. The ONR 
Program Manager himself at that time was Dr. Tom Taylor, an SES 
civilian, now deceased. In a later meeting at ONR with Dr. Taylor, I 
was informed as to how the DP-2 contract had come into being without 
the awareness of NAVAIR, who was chartered to manage all aircraft 
design and development conducted by or for the Navy and Marine Corps. I 
would soon come to learn that congressional proponents of the DP-2 had 
earmarked funding for the initial contract and directed the funds to 
the Defense Advanced Research Projects Agency (DARPA) in Rosslyn, VA, 
to award and manage the DP-2 contract. I was told that DARPA had 
refused to accept the funds and rejected the DP-2 concept on technical 
grounds. ONR, in the person of Dr. Taylor, stepped into the fray and 
informed the Congress that if the DP-2-earmarked funds were redirected 
to ONR, he would gladly manage the project with duPont, as desired by 
the proponents on the Hill.
    When former F-14 project test pilot Captain Kinzer arrived at ONR 
and was confronted by the DP-2 project in being, he reported the 
situation to the Admiral at NAVAIR. The entire engineering staff at 
NAVAIR was briefed on the DP-2 project and a hand-selected team of (11) 
senior civilian specialists in aircraft research, design, test and 
evaluation (RDT&E) were placed under my leadership for the on-site 
review at duPont Aerospace facilities near San Diego which took place 
on March 8-9, 1999. Those senior specialists were from the following 
fields in the NAVAIR organization--Aircraft Design, Test & Evaluation, 
Propulsion Installation and Test, Airframe Structures, Materials, 
Flight Controls, Flight Dynamics, Aircrew Escape Systems and Flight 
Test Clearance. The team conducted their on-site review at the duPont 
engineering facilities at La Jolla, and the duPont manufacturing 
hangars at Gillespie Field in El Cajon. The DP-2 was, at that point in 
time, less than 50 percent assembled. Each member of the evaluation 
team was allowed to closely inspect the partially built DP-2, and 
interview the various engineers and technicians on the project who were 
employed by duPont Aerospace. A rudimentary computerized flight 
simulator supposedly programmed with the handling characteristics of 
the DP-2 was demonstrated to the team by the duPont company test pilot 
who had been a Marine pilot flying the AV-8 Harrier VTOL jet fighter. 
This company pilot was not a graduate of either the Navy or Air Force 
Test Pilot Schools.
    All team members submitted written detailed assessments of their 
particular aspects of the DP-2 project to me within a week of returning 
to our offices at NAVAIR, Patuxent River. I submitted a composite 
written team report, with all their individual reports attached, to the 
NAVAIR Admiral. The opinions of the entire group were unanimous in 
expressing grave concerns over the design, fabrication, and proposed 
testing of the DP-2. The mechanization of the elaborately articulated 
thrust-vectoring system was firmly predicted to destroy itself when 
subjected to the heat and thrust of the twin-jet engine exhaust. The 
company-estimated aerodynamics and handling characteristic of the DP-2 
were inadequately substantiated by any routine means such as wind 
tunnel testing and computation of inertial properties of the completed 
airplane. This meant that the company pilot was being ``trained'' to 
fly a totally undefined computerized airframe on the so-called DP-2 
flight simulator. The use of composite material shells for the airframe 
structure was being undertaken without any adequate fixtures to insure 
proper alignment.
    I, myself, was extremely disturbed by the planned testing of the 
DP-2 situated on the public commercial airport, Gillespie Field in El 
Cajon, CA. We were shown a completed elevated steel platform on which 
the DP-2 was to be strapped down for testing of the thrust vectoring 
system. That platform was permanently located on the public airport 
property, less than 30 feet from the chain-link fence on the boundary 
between the airport property and a public thoroughfare including 
sidewalks, offices, and automobile parking in the city of El Cajon. The 
risk to off-airport property and pedestrian traffic was immense and of 
little apparent concern to duPont Aerospace management. Also disturbing 
was the stated intent to fit the DP-2 cockpit with a pilot emergency 
ejection seat taken (by suspect means) from a Navy F-14. That ``free 
gift'' F-14 ejection seat was simply plopped into the DP-2 cockpit area 
with over a foot or more of the seat head box structure protruding well 
above the top of the enclosed cabin structure. This was unexplained by 
the duPont management when challenged.
    In overview, our March 1999 NAVAIR assessment of the ongoing DP-2 
was as follows:

        <bullet>  The DP-2 design that was first rejected by a totally 
        different Navy engineering team back in 1986 had not 
        significantly changed in thirteen years, in the eyes of us 
        newcomers.

        <bullet>  The propulsion thrust-vectoring system, consisting of 
        two turbofan engines placed closely together at the nose of the 
        airplane, plus an array of articulated vanes, was bound to 
        break up structurally when employed to lift the DP-2 into a 
        vertical takeoff or landing.

        <bullet>  There was a significant lack of control devices, such 
        as attitude control ``puffer'' jets on the tail and wingtips, 
        that were absolutely necessary to maintain piloted control of 
        the DP-2 in low forward speed, hover, and in vertical take-off 
        and landing. The company maintains that such control would be 
        provided by the variable vanes in the (highly suspect) thrust 
        vectoring machinery.

        <bullet>  The lack of adequate hover control flies in the face 
        of the company advertised scheme of having squads of equipment-
        laden Special Forces troops running the length of the fuselage 
        and rappelling down ropes strung from the open tailgate.

        <bullet>  The testing of the DP-2, if continued, should be 
        performed unmanned, through remote radio control, in a desert 
        test range environment, well away from bystanders and valuable 
        structures.

    In summary, I wish to stress that the DP-2 proposal was summarily 
rejected by impartial engineers and scientists from government 
aeronautical laboratories of DOD and NASA repeatedly over the past 
twenty years, yet it was forcibly funded and undertaken at the 
insistence of congressional advocates, with no regard to the judgments 
of their own government laboratory experts. The DP-2 is not the first 
such ill-advised aircraft project, and it is not the only one ongoing 
now. At least one other that I had painful personal experience with 
resulted in a predicted catastrophe and fatality, all for no technical 
gain.

                       Biography for John A. Eney

    Mr. Eney was born in Baltimore, MD, June 20, 1942 and received a 
Bachelor of Science in Mechanical Engineering from Catholic University, 
Washington, DC, in 1964, and a Master of Science in Aerospace 
Engineering from Princeton University, Princeton, NJ, in 1966. His 
graduate study at Princeton included courses and in-flight research in 
the flight dynamics and control of aircraft, and his Master's thesis 
research was sponsored by the U.S. Navy under contract to Princeton 
University.
    Mr. Eney worked for the Department of the Navy for 35 years (1966-
2001) as a Supervisory Aerospace Engineer until his retirement in 
October, 2001. From 1986 through 2001 he served as the Head of the 
Aircraft Conceptual Design Group, first at the Naval Air Development 
Center (NADC) in Warminster, PA, and finally at the Naval Air Systems 
Command (NAVAIR), Patuxent River, MD. His staff of 17-30 engineers 
analytically determined the size, weight, configuration, and 
performance of tentative new aircraft for Navy and Marine Corps 
missions. This included computer-aided design of fixed-wing airplanes, 
helicopters, lighter-than-air airships, and hybrid vertical take-off 
and landing (VTOL) aircraft. His work included the preparation and 
development of trade studies, and the specifications for competitive 
procurement of aircraft from the manufacturers in the industry. His 
group was responsible for evaluating all solicited and unsolicited 
proposals for new aircraft designs coming in to the attention of the 
Navy Department. He and his staff also attended on-site reviews of 
independent research and development projects throughout the aircraft 
industry, as well as at other aeronautical laboratories of the U.S. 
Government, including NASA and the Air Force.
    In 1983-1985 Mr. Eney was assigned to the Special Projects group at 
NADC and charged with planning the product improvement program for the 
F/A-18 Hornet fighter airplane and its associated weapons and sensor 
systems. This involved a survey of all operating Navy and Marine 
squadrons flying the F/A-18 to assess needed improvements, and reviews 
of all emerging technologies in industry that applied to advanced 
fighter aircraft. His summary report led to the procurement of the 
subsequent F/A-18C, D, E and F models for the Navy, Marine Corps, and 
foreign governments.
    From 1975-1983, Mr. Eney headed up the Navy's Lighter-Than-Air 
Project Office, exploring alternative hybrid airship design concepts 
for applications to ocean surveillance and short-haul heavy-lift cargo 
transport. He briefed the Senate Committee on Commerce, Science, and 
Transportation on the feasibility of modern airships in 1979.
    Between 1966 and 1975 he served as a Project Engineer in the Flight 
Dynamics Group at NADC conducting analysis and manned flight simulation 
of aircraft controllability and flying qualities in specific flight 
regimes such as air-to-air combat and carrier landing approach. He 
published several papers in the AIAA Journal of Aircraft on these 
studies.
    Mr. Eney has been an invited guest lecturer at Iowa State 
University, the Navy Top Gun Fighter Weapons School, the University of 
Alabama, the Naval Academy, and the U.S. Naval Test Pilot School. He 
has published approximately thirteen technical papers and reports on 
the subject of aircraft design and related technologies. He is also an 
FAA licensed Private Pilot, and an FAA licensed Airframe and Powerplant 
Mechanic.

    Chairman Miller. Thank you. And I know if you are not 
already comfortable enough, having been sworn twice, a legal 
oath and a religious oath, and asked if you had counsel 
present, and having reminded you the penalties of perjury 
apply, I also understand that our picture breaks up when you 
move too much, so if you could try to sit more or less still, 
which is something I had a hard time doing when my mother and 
my elementary school teachers told me to do it, but if you 
could try to keep your hand and your head relatively still, it 
would actually help us with our obviously still imperfect 
technology.
    Dr. William Scheuren, is that--am I pronouncing your name 
correctly, Doctor?
    Dr. Scheuren. Actually, it is pronounced, sir, Scheuren, 
like a scared bird.
    Chairman Miller. Scheuren.
    Dr. Scheuren. And I am indeed one in these hallowed halls.
    Chairman Miller. All right. Thank you, Dr. Scheuren. Dr. 
Scheuren.

STATEMENT OF DR. WILLIAM J. SCHEUREN, FORMER DARPA DP-2 PROGRAM 
   MANAGER AND FORMER HARRIER TEST PILOT; CONSULTING SYSTEMS 
                       RESEARCH ENGINEER

    Dr. Scheuren. Thank you, Mr. Chairman and Members of the 
Committee. My background is an officer of the Marines. I am a 
Naval aviator, and I am an experimental test pilot, who tested 
many V/STOL vehicles over the years.
    Mr. Hunter had a chart that showed the CH-46. I flew it 
operationally. I flew the prototype of the V-22, that is, the 
XV-15.
    Chairman Miller. Dr. Scheuren, if you could speak into the 
mike, please.
    Dr. Scheuren. I am sorry, sir.
    Chairman Miller. And if you could also make a point of 
speaking into the mike, while keeping your head still.
    Dr. Scheuren. I am sorry. I flew the XV-15, and I was 
involved in the early development of the V-22, and of course, 
as you noted in my bio, I was involved in the development and 
was the commanding officer of the first Harrier squadron.
    I am very familiar with V/STOL. I first became acquainted 
with the duPont DP-2 aircraft in 1990, when I was asked to 
serve on a DARPA-inspired blue ribbon panel. I will give you an 
example of the members of the panel, there were many from 
NAVAIR Technologists, there were some from the Air Force. It 
included my test pilot colleague, Mr. Scott Crossfield, and 
speaking and writing a support on survivability, the esteemed 
Dr. Paul Kaminski, who later became the Under Secretary for, I 
don't know what the title was in those days, Research and 
Engineering or Acquisition. In any event, that panel concluded, 
and I won't try to go through and summarize its conclusions, 
but they were much the same as Mr. Eney elaborated on in his 
testimony.
    In 1993, I joined the DARPA staff as a program manager, and 
my main program when I joined DARPA was the Common Affordable 
Lightweight Fighter, now the Joint Strike Fighter. However, I 
was assigned the task of being the program manager for the 
duPont DP-2 efforts, which had been funded by Congress and not 
requested in the DOD budget.
    In 1996, we managed to team Mr. duPont and duPont 
Aerospace, with Lockheed and Pratt & Whitney, to try to take at 
least some aspects of the DP-2, and put them into a design that 
might be operationally useful to the special operations forces 
that Mr. duPont professed to want to serve.
    We actually built a full-scale test rig of the cascade 
vector-thrust system, and put it in a test stand at Pratt & 
Whitney. On the high side of things, the vectored thrust system 
from the DP-2 did turn the thrust, and it did turn it 
satisfactorily from the standpoint of efficiency. 
Unfortunately, the design, which was produced by Mr. duPont, 
was filled with composites that wouldn't withstand the 
temperatures of the V5 commercial engine that we had attached 
to it, and so, Pratt & Whitney had to go to heroic efforts to 
cool the nozzle to keep it from burning up. We succeeded in 
that, but the nozzle design had also been judged by the 
industry experts, would be deficient in strength. When we got 
to full power, it came undone. It disintegrated.
    Shortly thereafter, that ended that testing, and shortly 
thereafter, the program was transferred to ONR, and I lost 
touch with it, and I continued to do my other things at DARPA.
    In conclusion, my summary of the capabilities of the DP-2 
is that, like any concept that wants to fly, with today's 
technology, it could be made to fly. But at what cost, and what 
capability would it provide? Those are the real issues. Is the 
DP-2 the right answer for the soft mission? All the evidence I 
have seen says no, but then, it has been given a lot of money, 
but over 17 years, as Mr. Hunter pointed out, that is not much.
    I agree if it is to go anywhere, I agree with my colleague 
that it needs to be tested not tied to the ground, and not with 
a pilot in it. Let us find out if it can fly if the Congress 
deems that it should.
    Thank you, sir.
    [The prepared statement of Dr. Scheuren follows:]
               Prepared Statement of William J. Scheuren

SUMMARY

    I am a former Officer of Marines, Naval Aviator, and Experimental 
Test Pilot. I retired from the Corps in 1982 and have since worked in 
various aerospace engineering capacities including eight years as a 
Program Manager for the Defense Advanced Research Projects Agency 
(DARPA). One of the numerous projects I managed at DARPA during the 
1990's was the DP-2. The DARPA research efforts on the DP-2 were 
conducted under appropriations earmarked by the Congress specifically 
for duPont Aerospace and the earmarked appropriations were not 
requested in the Department of Defense budget requests.

DETAILED TESTIMONY

    I was first exposed to the DP-2 in the 1990 timeframe when I was 
invited by DARPA to participate in a technical assessment of the DP-2 
concept for a special operations forces V/STOL transport aircraft. At 
that time I was an employee of a small engineering firm and not a civil 
servant. The assessment team consisted of approximately six 
technologists with backgrounds in military aircraft design, flying 
qualities, performance, reliability, and safety--the evaluation areas 
assigned to the assessment team by DARPA. The team came to consensus 
that the DP-2 concept was fatally flawed in all of the stated 
evaluation areas with the possible exception of performance where we 
did not have enough details to make a confident assessment. Of 
particular concern were probable vertical/short takeoff and landing (V/
STOL) flying qualities and the jet exhaust down-wash velocities with 
attendant erosion/debris production when attempting to operate from 
unprepared surfaces. Put more bluntly, we concluded that the DP-2 was 
very unlikely to be able to do the special operations forces mission it 
was purportedly designed to do.
    In 1993 I was invited to join the DARPA staff where the focus of my 
initial program management efforts was the Common Affordable 
Lightweight Fighter--now the Joint Strike Fighter. At this time, and 
throughout the next three or four years we continued to receive 
unrequested appropriations for the DP-2.
    My superiors at DARPA assigned me the DP-2 project and asked me to 
try to find a way to make the DP-2 design, or parts of it, useful to 
the military services. The DP-2 was supposed to be able to perform a 
clandestine special operations forces mission infiltration/exfiltration 
mission. DuPont took examples of SOF needs like transport range, mid-
mission hover, and survivability, and combined them in a concept that 
he thought was a solution. The SOF representatives and we in the R&D 
community didn't agree with him.
    In 1996 duPont teamed with Lockheed to jointly address the SOF 
mission needs. DuPont's role was to design and build a prototype 
cascade thrust vectoring system. The team, which also included Pratt & 
Whitney, built a full scale test article which was tested at the P&W 
West Palm Beach facility with some success. DuPont's vectoring system 
turned the gas turbine engine thrust with acceptable efficiency. 
Unfortunately, duPont's composite material curing process did not 
result in adequate temperature survivability and the structure lacked 
adequate strength. As a result, P&W had to take heroic engineering 
efforts to cool the vectoring nozzle and during a high power test the 
nozzle disintegrated thus ending the test--and ultimately the duPont/
Lockheed/P&W DARPA-sponsored efforts.
    The following year, or sometime during the latter 1990's the Office 
of Naval Research became interested in the DP-2 and asked DARPA to 
transfer the project to them. DARPA agreed and I am told DP-2 R&D 
efforts continue.
    With enough time, money, and application of state-of-the-art 
aerospace technology we can make almost anything fly. The real issues 
are whether or not the ultimate product is worth the investment and 
whether on not the Nation is willing to devote the resources to achieve 
the capability.

                   Biography for William J. Scheuren

    Dr. Scheuren is a consulting aerospace R&D engineer having retired 
five years ago after serving eight years as an aerospace engineer at 
the Tactical Technology Office of the Defense Advanced Research 
Projects Agency (DARPA). Much of his current work is focused on 
collaborating with Dr. Leo Christodoulou of the DARPA Defense Sciences 
Office on DARPA materials and structures projects. As a PM at DARPA he 
was the program manager for DARPA involvement in the Joint Strike 
Fighter (JSF) program, the Unmanned Combat Air Vehicle (now J-UCAS) 
Program, the Active Noise and Vibration Reduction Technology Program, 
the Affordable Multi-Missile Manufacturing Program, and the T800 engine 
dual use program. At the JSF program office he was in charge of all JSF 
R&D activities directed toward aircraft Prognostics and Health 
Management (PHM) He personally conceived much of the JSF PHM 
architecture. During the past fourteen years he has conducted numerous 
systems engineering and analytic projects for DARPA, NASA, and the 
Services. He served 26 years in the Marine Corps where he gained 
extensive experience in research, development, testing, and acquisition 
of military weapon systems. He is a graduate of the Naval Engineering 
Test Pilot School and as a Military experimental and engineering test 
pilot he served as project director and pilot for numerous experimental 
and engineering test projects including: spin testing of the OV-10A 
aircraft, many of the AV-8A Harrier development projects in the UK and 
U.S., Navy preliminary evaluation of the Japanese PS-1 STOL seaplane, 
and STOVL stability and control research with the X-22 variable 
stability aircraft. His research and military operational piloting 
experience includes fighters, multi-engine transports, helicopters, 
seaplanes, gliders, and V/STOL aircraft. His operational career 
included serving as Commanding Officer of the first Marine Corps 
Harrier Squadron where he supervised operational test and evaluation of 
the Harrier. During this period, the squadron flew more than 10,000 
flight hours with no loss of aircraft. He served numerous operational 
tours in fighter and attack squadrons including a Vietnam Combat Tour 
(150 combat missions). Having entered the service as a Naval Aviation 
Cadet, he became a commissioned officer and eventually achieved the 
rank of Colonel. Dr. Scheuren has a Ph.D. in Applied Research from the 
University of Virginia.

    Chairman Miller. Mr. Deadrick, it is my legal opinion that 
your testimony is subject to the legal penalties of perjury, 
but as to the theological question of whether you are free of 
any obligation under the Ten Commandments for bearing false 
witness, it is a topic about which I offer no opinion.
    Mr. Deadrick.

    STATEMENT OF MR. MARK DEADRICK, FORMER DUPONT AEROSPACE 
                            EMPLOYEE

    Mr. Deadrick. I just want to say that I have had very good 
experiences with Mr. duPont. I would still consider him to be 
my friend, had it not been for my departure from the company, 
but--and I agree with Mr. Hunter that I think there is value in 
this type of technology, but I will share my experiences with 
the company. If it helps make a decision on how to go forward, 
sorry for the movement there.
    Good morning, distinguished Members of Congress and guests. 
My name is Mark Deadrick. I am a mechanical engineer, small 
business owner, and former employee of duPont Aerospace 
Company. I have joined the hearing today to describe my 
experiences while working at duPont Aerospace, including 
technical challenges and project management shortcomings.
    Work history with the company. My initial contact with 
duPont was in November or December of 1988. While a third year 
engineering student at the University of California at San 
Diego, I replied to a job posting for a mechanical aerospace 
engineer. I had an interview with duPont President Tony duPont 
and former Vice President A.C. duPont, expressed my interest in 
model-making and radio-controlled aircraft. I was quickly 
offered a job as an intern/model maker. This model shop was 
located at Gillespie Field in El Cajon, it is currently one of 
the buildings that they still have in El Cajon. Along with A.C. 
duPont, I was involved with fabricating a full-scale wooden 
mockup of the proposed DP-2 aircraft. Later, in the summer of 
1989, the facility was moved to Brown Field near the Mexican 
border. I think it was previously a Navy airbase.
    Through the period of 1988 until I graduated from college, 
I predominantly worked on the DP-2 mockup, but from time to 
time worked on other projects, including demonstrator models 
for the National Aerospace Plane, and a 50 percent scale DP-2, 
to be referred to as a DP-1 wing spar. During the period from 
1992 until October of 1994, I worked as a full-time employee 
after I had graduated.
    In 1984, I decided to take a job in the automotive 
industry. I moved, took a job in metro Detroit, Michigan. My 
brother, actually, at the time or some time in 1996, had been 
employed as a fabricator at duPont Aerospace, and I was kept 
abreast of sort of things that were going on at the time, and I 
kept in contact with Tony over this time. And during the time, 
Tony had asked me twice to come back and work on both the full-
size thrust vectoring that Dr. Scheuren just talked about, and 
then, to come back as an engineer on the current half scale 
demonstrator that we have seen the video of.
    In January of 2002, I contacted Tony duPont to see if he 
could hire me back, and he agreed readily to hire me on the 
spot. I ended up starting at the end of February 2002, and was 
initially responsible for fabrication of the current, second-
generation fuselage, which I think you saw in the test 
pictures.
    The fuselage had been previously the responsibility of two 
engineers, who had left the company previously over the last 
couple of months or year, I am not sure when one of them left, 
but the other left soon after I started. The design had been 
completed, for the most part, so the next stage was to work on 
the actual fabrication of the prototype. Tooling had already 
been started, and it was being done at a remote facility that 
duPont was leasing from the Mississippi State University 
Raspett Flight Laboratory. I think it had previously been a 
Honda aircraft development facility. It was actually very nice. 
DuPont Aerospace had employed two technicians to repair the 
tooling and fabricate components, including the fuselage. They 
also did some work on empennage and wing components.
    Over the following two years, I would travel to Mississippi 
at least four to six times per year, until the fuselage was 
completed, and then it was shipped back to San Diego. In 2003, 
I was named Manufacturing Engineering Manager, and was in 
charge of composite fabrication and aircraft assembly. Included 
in my duties were advanced surface CAD modeling of the full 
fuselage, inlet CAD modeling and shrouding, and then all 
composite tooling designs. I would also create operator lay-up 
manuals for composite fabrication, and work on advanced 
manufacturing processes, and organize incoming composite 
material destructive testing.
    In June of 2005, I left the company. I had created my own 
product development company, 3dyn, focusing on composite design 
and manufacturing. I maintain this company today, with 
customers in aircraft, space, automotive, and consumer 
products.
    In regards to the DP-2 program, many technical challenges 
have risen. As is well documented, vertical lift, fixed wing 
aircraft are likely the greatest challenge for aircraft 
designers. In no way is the problem a trivial one.
    The features unique to the DP-2 are focused on the thrust 
vectoring system used for vertical or short takeoff. A full-
sized test unit, which had been designed and built by the mid-
1990s, and had been tested in the fall of 1996, and ended with 
a structural failure of the cascade sidewall attachment to the 
pitch control actuator. This attachment----
    Chairman Miller. Mr. Deadrick, I know you can't---
    Mr. Deadrick.--keeps the cascade, or the structural----
    Chairman Miller. Mr. Deadrick, I know you can't see the 
lights from where you are----
    Mr. Deadrick. I am sorry.
    Chairman Miller.--but if you could begin to wrap up. Your 
entire written statement is in the record. If you could wrap up 
your oral statement.
    Mr. Deadrick. Okay.
    Chairman Miller. It would be helpful. Thank you.
    Mr. Deadrick. All right. We will skip through that.
    With regard to the technical issues, some of the major 
pressures still exist in the thrust vectoring system. The main 
problems end up being the control system, material selection, 
fabrication techniques, and exhaust air temperatures.
    Most of the structural failures have been in the thrust 
vectoring system. It is my opinion that the material that is 
selected for this system is, at least the composite material is 
not suitable for the temperature of the exhaust gas.
    What is specified as an Advanced Composite Group, LTM110, 
which is a cyanate ester carbon fiber prepreg, listed in the 
company literature. It has a glass transition temperature of 
572 degrees Fahrenheit, and it is my opinion that the 
temperature coming off the exhaust of the Pratt & Whitney 535A, 
at least from some documents we have seen of maintenance 
manuals, temperature is on the order of 700 to 800 degrees 
Fahrenheit, which is beyond the glass transition temperature of 
the LTM110.
    Obviously, we will hear responses about some testing, where 
we actually have the major failure of the thrust vectoring 
system, where the cascade was let free, and crashed through the 
bottom of the fuselage, and test pilot Larry Walker was in the 
cockpit at the time.
    Chairman Miller. We are kind of running short. We were late 
when we started.
    Mr. Deadrick. Mr. Chairman.
    Chairman Miller. If you have one last sentence, perhaps, 
for us, Mr. Deadrick.
    Mr. Deadrick. Okay.
    One last sentence, I would say that, I will just go to my 
conclusions.
    I am of the opinion that this is a program that I think has 
technical merit to some degree. I think it has been mismanaged, 
and I think there are engineering issues. And I think company 
morale with the employees has been pretty poor, but I think it 
could be improved, but it will take a substantially larger 
budget than is currently offered.
    I don't think $5 or $6 million a year could ever warrant a 
reasonable aircraft, even if it goes on for 20 years, because I 
think the continuity of employees is a problem. I think it 
basically either needs to be funded to a full amount to create 
an actual really working aircraft that is completely intact, as 
opposed to somewhat cobbled together, as I feel this one was. 
Otherwise, the program should just stop, because I think the 
way it is going now, there really was never going to be a 
flight-worthy aircraft that can be completed in the current 
process.
    [The prepared statement of Mr. Deadrick follows:]

                  Prepared Statement of Mark Deadrick

Introduction:

    Good Morning, distinguished Members of Congress and guests. My name 
is Mark Deadrick; I am a mechanical engineer, small business owner, and 
former employee of duPont Aerospace Co. Inc. (DPA). I have been asked 
to join this hearing today to describe my experiences while working at 
DPA, including technical challenges and project management 
shortcomings.

Work History:

    My initial contact with DPA was in November or December of 1988. 
While a third year Engineering student at the University of California 
at San Diego, I replied to a job posting for a Mechanical/Aerospace 
Engineer. I had an interview with DPA President, Anthony A. ``Tony'' 
duPont and former Vice President Anthony C. ``A.C.'' duPont and 
expressed my interest in model making and radio controlled aircraft. I 
was quickly offered a job as an intern/model maker. The model shop was 
located at Gillespie Field in El Cajon, California. Along with A.C. 
duPont, I was involved with fabricating a full scale wooden mockup of 
the proposed DP-2 Aircraft. Later, in the summer of 1989, the facility 
was moved to Brown Field near the Mexican border.
    Through the period of 1988 until I graduated from college, I 
predominantly worked on the DP-2 mockup, but worked from time to time 
on other projects, including demonstrator models for the National 
Aerospace Plane (NASP), and a 50 percent scale DP-2 (DP-1) wing spar. 
During the period from January 1992 until October 1994, I worked as a 
full-time employee.
    In October of 1994, I took a job in metro Detroit, Michigan to work 
as an engineer in the automotive industry. As my brother Tom Deadrick 
had been employed as a fabricator at DPA since 1996, I had occasional 
contact with the company and had visited at least once or twice. Tony 
had asked me twice in the preceding years to come back to work on both 
the full size thrust vectoring system, and the current half scale 
demonstrator.
    In January of 2002, I contacted Tony duPont to see if he had an 
opening for me, and he agreed to hire me on the spot. I started at the 
end of February, and was initially responsible for the fabrication of 
the current, second-generation fuselage.
    The fuselage had previously been the responsibility of at least two 
engineers who had left the company. The design had been completed for 
the most part, so I took the design into prototype, which would take 
place at a remote facility based out of Mississippi State University's 
Raspett Flight Laboratory. DPA had employed two technicians to prepare 
tooling and fabricate components, including the fuselage, empennage, 
and wing components.
    Over the following two years, I would travel to Mississippi at 
least four to six times a year, until the prototype fuselage was 
completed.
    In 2003 I was named Manufacturing Engineering Manager, and was in 
charge of composite fabrication, and aircraft assembly. Included in my 
duties were advanced surface CAD modeling of the engine inlets and 
shrouding, and all composite tooling designs. I would also create 
operator lay-up manuals for composite fabrication, work on advanced 
manufacturing processes, and organized incoming composite materials 
destructive testing.
    In June of 2005, I left the company, as I had created my own 
product development company, 3dyn, focusing on composites design and 
manufacturing. I maintain this company today, with customers in 
aircraft, space, automotive, and consumer products.

Technical Issues:

    In regards to the DP-2 program, many technical challenges have 
arisen. As is well documented, vertical lift, fixed wing aircraft are 
likely the greatest challenge for aircraft designers. In no way is the 
problem a trivial one.
    The features unique to the DP-2 are focused on the thrust vectoring 
system, used for vertical or short takeoff. A full-scale test unit, 
which had been designed and built in the mid 1990s, had been tested in 
the Fall of 1996, and ended with a structural failure of the cascade 
sidewall attachment to the pitch control actuator. This attachment 
keeps the cascade, or the main structural member of the thrust 
vectoring system, from freely rotating. Without support, the system 
would become unstable, and may come into contact with the cabin floor, 
depending on the thrust level of the engine. I was not involved with 
the design, fabrication, or testing of this system, but I have seen the 
damaged components and recognized the potential failure mode.
    With respect to technical issues that I have witnessed in design, 
fabrication, and test, the major problems still exist in the thrust 
vectoring system. The challenges particularly focus on the mechanical 
control system, materials selection and fabrication techniques, and 
exhaust air temperature.
    Whether needed or not, the mechanical control system consists of 
numerous levers, bell cranks, bearings, push-pull rods and fasteners. 
Even with near zero manufacturing tolerances and infinitesimal flex 
(which were not met) excessive play in the system yields response 
critical hysteresis and free play. Nyquist and Bode plots from the 
bandwidth testing were conducted during the test program and should be 
available for review. Without a refined mechanical control system, both 
automated and pilot controlled hover will be very difficult.
    Numerous structural failures have also hindered the program. Some 
airframe failures have been minor and can be addressed. Other failures, 
particularly in the thrust vectoring system and its integration with 
the airframe, have caused serious downstream damage, and have the 
potential for bodily harm.
    Failures involved with the turning vanes, the composite, airfoil-
shaped, lateral blades that direct exhaust thrust from horizontal to 
vertical downward, have been one of the Achilles heels of the program. 
In my view, buckling failures of the turning vanes, nearly always in 
the center of the exhaust cone, are the result of having been subjected 
to temperatures above the glass transition temperature of the material, 
or the level at which the resin will no longer support a reasonable 
load. The composite material used in the turning vanes, as well as the 
entire thrust vectoring system is LTM110, and cyanate ester/carbon 
fiber prepreg manufactured by the Advanced Composites Group (ACG). 
While sold as a high-temperature material, ACG product literature 
states that it has a maximum glass transition temperature 572 degrees 
Fahrenheit. It is also noted that the material is typically used for 
spacecraft interior equipment, radomes, and high temperature, non-
structural engine parts.
    Data published in the Pratt & Whitney 535A service manual state the 
temperature of the exhaust gas at approximately four feet behind the 
engine are on the order of 700 to 800 degrees Fahrenheit, beyond the 
glass transition temperature of the LTM110 material. I do not know if 
exhaust gas temperature readings were ever recorded as the testing 
engineers were not allowed to instrument the turning vanes with 
thermocouples during my time of employment. I believe this is a major 
issue that should be addressed if it has not been already.
    Various structural failures have occurred over the course of the 
project, some minor, but at least one major, life risking failure. In 
November of 2004, a chained down test, in which the plane is not 
allowed to elevate, was conducted with test pilot Larry Walker in the 
cockpit and at the controls of the engine throttle levers. As I recall, 
Larry was testing either the engine acceleration response, or 
deflection of the thrust vectoring cascade, when a major structural 
failure occurred in the pivot attachment of the two cascades, in which 
a large piece of titanium was ripped free of its composite 
encapsulation, allowing the cascades to rotate beyond the horizontal 
stow position, crashing through the cabin floor, pushing the pilot's 
seat upward and forwards. I recall Larry Walker's helmet striking the 
ceiling of the fuselage. I remembered that just a day or two prior, 
Test Director Howard Northrup was sitting in the fuselage, measuring 
control movements, in the area where the cascades crashed through the 
floor. In my opinion, he would have been seriously injured or possibly 
killed if he was in this position during the failure.
    An investigation into this failure lead to the determination that 
there was a failure in the adhesion of the carbon fiber to the 
titanium. I believe that once again, a material not suited for 
structural use was neither correctly specified, nor correctly 
processed. This area had been repaired numerous times due to 
delamination of the carbon fiber face sheets to the honeycomb core.

Management Issues:

    The management structure at DPA is nearly vertical. Tony duPont is 
the President, his brother Rex duPont is Vice President, and Tony's 
wife Carol duPont (formerly the Vice President) is the Director of 
Administration. Only temporarily during my employment was there a Chief 
Engineer, who left shortly following the major failure of November 
2004, after less than a year in that position.
    Upon my re-hire in 2002, I believe there were 10-12 full time 
engineers on staff, but two left the company within the first two 
months. These positions were backfilled, but over the course of the 
next 2.5 years, the turnover had been such that I had been there longer 
than all but two other engineers. Most departures were to other 
aerospace companies in the area. I think there was close to two times 
turnover, with at least 15-20 Engineers leaving in the three years I 
was with the company. The engineering staff consisted of varying levels 
of experience, with a large portion of newly graduated engineers, who 
typically would work a year or two and move to a larger company. This 
situation would cause great discontinuity in the project, and ever 
decreasing familiarity with the total program.
    Tony duPont's management style was very steadfast. He did not 
readily accept conflicting opinions. This does not mean he might not 
eventually accept them, but this caused much disillusionment among the 
engineering staff. The general rule of thumb was, Tony gets his way.
    There was not a meaningful product development strategy or process. 
Engineers would typically work on individual projects, with little to 
no communication between them. Without a dedicated engineering manager, 
no one would take full development responsibility for the aircraft.

Ethical Issues:

    Following the major failure of the thrust vectoring system, I found 
myself ready to be clear of any future such events. I did not feel that 
repairs to the system were being conducted in a proper manner. The 
materials selected for the thrust vectoring system would continue to 
fail, the process of fabrication was still limited due to insufficient 
equipment, and the fabrication personnel had limited experience.
    As a new, lighter, fuselage would be introduced with the repairs, a 
change to the attachment of the wing would be conducted at the same 
time. During this time, there was a worldwide shortage of carbon fiber 
material. DPA had ordered, but not yet received material to make a 
thick attachment flange on the wing, but the delays would jeopardize 
the time get the plane back to test, with a ceremonial completion date 
of June 6, 2005 (it was now May 2005 and the plane was not close to 
completion). There was material in the storage freezers that had been 
quarantined due to suspect fiber quality. It was Tony duPont's 
directive, against my advice, to use this material to immediately begin 
fabrication of the wing mounting flange. With this decision, I 
concluded my professionalism was not respected, and I set plans to 
leave the company.
    Tony and Carol duPont had been on vacation, and I was determined to 
leave the company before they returned. With poor discretion, I 
announced my intention to leave to a few other employees, and the word 
got to Tony while traveling. Tony called me on my cell phone, mentioned 
he heard I was leaving the company, and asked where I was going. Having 
already lined up a short term consulting gig, I told Tony I was going 
nowhere, that I felt the aircraft was unsafe, and I did not want to 
continue working for the company. His reaction was to tell me to 
immediately leave the company, collect my last paycheck and save the 
company any more damage. Tony then proclaimed that I was responsible 
for many Engineers leaving the company. I returned the compliment that 
he, and he alone was responsible for the engineering department's rapid 
decline. (As a note, during this time at least six engineers had quit 
over a six-month period, including the Chief Engineer.)

Conclusions:

    As a parting statement, I feel that the DP-2 program has some 
technical merits, but a series of poor engineering judgments, 
mismanagement, engineering department morale, limited fabrication 
facilities and fabricator expertise all lead to a marred program. At 
the current fund level, it will be nearly impossible to achieve any 
meaningful results. I feel the program should be either funded to a 
useful amount, the plane developed from scratch, with a new management 
and engineering team, or the program should be canceled at once. At its 
current capacity, duPont Aerospace is not capable of developing a 
sound, safe, and flight worthy aircraft.
    Thank you for giving me the time to express my observations and 
impressions of the program. I rest assured that a proper decision will 
be made as to the future of the DP-2.

                               Discussion

    Chairman Miller. Thank you, Mr. Deadrick.
    I will now recognize each Member of the Committee for five 
minutes of questions, beginning with myself.

                           The Osprey Project

    Dr. Scheuren, Mr. Hunter spoke about the Osprey. Were you 
involved in the Osprey project, and if so, what did you do?
    I think you need to put on, your microphone may not be on. 
Or speak more directly into it. Could you sit in the chair 
marked for Mr. Deadrick, perhaps? Is that one working? And 
technology.
    Dr. Scheuren. Oh, I got it now. And you will have to 
forgive me, Mr. Chairman. These things work, but not all that 
well. Your question was, was I involved in the Osprey program?
    Chairman Miller. Right.
    Dr. Scheuren. And yes, I was, from square one. I flew the 
prototype, which was called the XP-15, and I was involved in 
conceiving the program at the Office of the Secretary of 
Defense.
    Chairman Miller. You heard Mr. Hunter compare the Osprey 
project with the DP-2. How would you compare the two projects?
    Dr. Scheuren. That is a very difficult comparison. In one 
case, we started with a prototype that was flying, the XP-15. 
We knew the concept could work. The challenge was to create an 
operational vehicle. It cost a lot of money. We succeeded.
    In the case of the DP-2, we have never managed to even get 
the ``prototype'' to hover. So, there is just not a comparison 
there, sir.
    Chairman Miller. Well, at the outset of each project, which 
appeared to have greater promise?
    Dr. Scheuren. Oh, definitely the V-22.
    Chairman Miller. Yeah.

                         Problems With the DP-2

    Dr. Scheuren. The Osprey. Yeah, the DP-2, even if we could 
make it operational, it can't operate as designed from 
unprepared surfaces. The downwash velocity is just so great it 
would become an erosive mining device, and the debris would go 
everywhere, including back into the intakes, and I think they 
have had some experience with that already, even in the test 
rig.
    Chairman Miller. Mr. Eney, you heard Mr. Hunter's 
testimony. Do you have a response to what Mr. Hunter had to 
say?
    Mr. Eney. Mr. Chairman, with all due respect to Congressman 
Hunter, I believe he is speaking from a great deal of training 
from the contractor in this case, and from a total lack of 
engineering education and experience in general, and 
specifically, in the area of VTOL aircraft design and 
controllability of those aircraft.
    Chairman Miller. Mr. Eney, you have visited duPont 
Aerospace facilities in 1999 to assess how the DP-2 program was 
going, with a group with expertise in aeronautics.
    Mr. Eney. I am sorry.
    Chairman Miller. With a group of folks with expertise----
    Mr. Eney. Absolutely. Yes, yes. I had, accompanying me were 
11 of the best experienced engineers from all of the 
disciplines within Naval Air Systems Command.

                        DP-2 Program Management

    Chairman Miller. Okay. What, if anything, about the visit 
to the DP-2 program gave you pause about the program itself, 
and how it was being managed?
    Mr. Eney. In short, everything, sir. Now, let me qualify 
that. These individuals had been used to being at large, well-
established, well-funded aircraft companies. They have been 
known to visit small businesses for special projects that had 
already shown promise before they had any government funding. 
But I believe I can speak for every one of them that they were 
somewhat appalled at the austerity of the facilities and the 
amateur approach to the design and fabrication of the DP-2.

                         More on DP-2 Problems

    Chairman Miller. Mr. Eney, I know that we have an artist's 
sketch somewhere, provided by duPont Aerospace, where--there it 
is, just behind you, actually. If you could look at the 
monitor. Oh, you can see it directly in front of you. Okay. 
Again, that is an artist's rendition of how the DP-2 would, the 
hope is how it would work. And it shows soldiers, or Marines, 
rappelling down a rope hanging from the back of the military 
version of the DP-2 aircraft.
    From your knowledge of the DP-2 project, from your 
knowledge of engineering, what from a technical perspective, if 
anything, is wrong with that picture?

                        Vectored Thrust Problems

    Mr. Eney. Primarily, there are two things. As Dr. Scheuren 
has already pointed out, a vectored thrust jet V/STOL, such as 
the Harrier, he called it a mining device over a soft field. If 
you have ever seen a Harrier attempt to land on a soccer field, 
or even in a park, as I have seen tapes of, the airplane goes 
into instrument conditions, because it literally rips the turf 
off the ground. If you superimpose that situation on a desert 
with rocks and sand, it will be worse. The engines will be 
destroyed.
    The cartoons that we have seen this morning in the video, 
and this particular artist's rendering, imply that the jet 
thrust is a benign column coming straight down, creating no 
disturbance in the surrounding area. That is absolutely false, 
and also, this drawing illustrates the lack of appreciation in 
the duPont engineering of this concept, to the trimmability of 
this vehicle. The center of gravity of any VTOL airplane has to 
be over the center of lift. The center of lift in this picture 
is well forward. It is that yellow column depicting the exhaust 
thrust.
    Now, you have got, in this picture, a squad of heavily 
equipment laden SEALs or Marines running the length of the 
fuselage, and hanging off the tailgate of the airplane. There 
is no way, with the current control system employed in the DP-
2, that that airplane could even hold a level attitude, let 
alone hold it while those troops are hanging from the extreme 
aft end of the vehicle.
    And by the time they got to the ground, they would be well 
fried by the exhaust gases, because the vehicle would have to 
point into the wind, and therefore, the heat from that exhaust 
gas would be much wider, and it would be going right into their 
rope. End of my comment.
    Chairman Miller. Okay. I do want to respect the time 
constraints, but in the interests of continuity of the 
question, Dr. Scheuren, you were nodding as Mr. Eney was 
speaking. From your experience as a test pilot, among other 
things, what if anything is wrong with the photograph, or not 
the photograph, but the artist's, the drawing?
    Dr. Scheuren. I agree with Mr. Eney wholeheartedly. To 
begin with, the pilot wouldn't be able to control the airplane. 
It wouldn't matter if he could, because the mission would not 
be successful without live troops on the ground, and finally, 
the debris, to repeat it one more time, because it is ever so 
important, a machine like this has just got too much exhaust 
velocity to operate from other than prepared surfaces, meaning 
concrete, not even tar, concrete, or something even stronger 
than that, like steel matting, that is well tied down.
    Chairman Miller. Thank you. Mr. Hall.

                    Witness Backgrounds and Opinions

    Mr. Hall. Thank you, Mr. Chairman. Dr. Scheuren and Mr. 
Eney, do either one of you know how old that photograph is that 
you are critiquing?
    Mr. Eney. I believe I have seen it over the past, at least 
12 years.
    Mr. Hall. And Dr. Scheuren, do you have any idea how old it 
is?
    Dr. Scheuren. I am sorry, sir. I----
    Mr. Hall. Do you have any idea how old--you have given us a 
lot of testimony about your critiquing of this picture. Do you 
have any idea how old it is?
    Dr. Scheuren. No, I do not.
    Mr. Hall. So, would it make any difference to you if it was 
as old as Mr. Eney has said it is? Would it change your opinion 
any?
    Dr. Scheuren. No, sir.
    Mr. Hall. What if I told you it is 30 years old? Would 
that? Or 20 years old? Would that change it any at all?
    Dr. Scheuren. I suppose, sir, you are saying that it is no 
longer relevant, and that Mr. duPont is aware that this 
particular approach wouldn't work? That would certainly change 
my opinion, because it would imply that he has modified his 
machine to make it more adaptable to the mission at hand.
    Mr. Hall. And if it is 30 years old, you would sure have a 
different opinion, wouldn't you?
    Dr. Scheuren. Yes, sir.
    Mr. Hall. Well, it is 30 years old, and older. And I am 
surprised that you don't know that. Who wrote your testimony 
for you today?
    Dr. Scheuren. Mine, sir? I wrote it.
    Mr. Hall. All right, sir. Then let me ask you some 
questions about it. Mr. Eney, you first reviewed the DP-2 in 
1986. Yes or no?
    Mr. Eney. I personally did not. I was the new supervisor of 
part of the team that had just completed the review, and their 
review took place before I was in that position.
    Mr. Hall. The oath you have taken, do you testify here 
today that you did not first review the DP-2 concept in 1986 at 
any time?
    Mr. Eney. My role was as their new supervisor.
    Mr. Hall. I am not asking you what your role was. I am 
asking you what you did.
    Mr. Eney. I reviewed the report.
    Mr. Hall. All right. You didn't review, then, the DP-2 
concept.
    Mr. Eney. I reviewed it--I reviewed the evaluation of the 
team, part of which were my employees. I did not take part in 
the analytical evaluation of the vehicle myself.
    Mr. Hall. All right.
    Mr. Eney. That had all been done by other engineers.
    Mr. Hall. Who was your employer in 1986?
    Mr. Eney. The Naval Air Development Center in Warminster, 
Pennsylvania, under the Department of the Navy.
    Mr. Hall. And you later led a team of senior Navy aerospace 
engineers in a site visit to the duPont Aerospace facilities in 
San Diego in 1999.
    Mr. Eney. That is correct, yes.
    Mr. Hall. And who were you working for at that time?
    Mr. Eney. The NADC had been combined with the Naval Air 
Systems Command at Patuxent River, and in my position there, I 
was elevated to a GS-15. It became a Division, and my employer 
was official the Naval Air Systems Command of the Department of 
the Navy. The function was the same.
    Mr. Hall. Dr. Scheuren, you were on the DARPA review team 
that provided an evaluation of the technical merits of the DP-2 
concept in 1990.
    Dr. Scheuren. Yes, sir. I was.
    Mr. Hall. And later, you were the Program Manager in the 
mid-1990s, and former commanding officer of the first Marine 
Corps Harrier squadron.
    Dr. Scheuren. That is correct, sir.

                        Harrier Accident Record

    Mr. Hall. All right, then. And I don't have any questions 
for Mr. Deadrick. He chose not to take the oath. Let me ask 
you, if you disagree with almost everything Duncan Hunter 
stated, do either one of you disagree with the fact that the 
Harrier, and Mr. Eney, you worked on it, do you disagree with 
the fact that prior to 1998, 45 Marines had died in 143 non-
combat accidents, more than a third of the fleet had been lost 
to accidents? Do you agree? Do you have that knowledge?
    Dr. Scheuren. I agree that those accidents occurred, sir, 
and I agree that the Harrier has, I guess, for want of a better 
term, a horrific accident record.
    Mr. Hall. And you have that same opinion, do you not, Mr. 
Eney?
    Mr. Eney. Well, my only awareness of the accident record 
was through reading it, and periodicals such as Aviation Week, 
and in the safety reviews of the Navy.
    Mr. Hall. I will agree that neither of you were witnesses 
to those crashes, but you both read of them, and you accept 
them, and you took them into consideration in your testimony.

                          V-22 Accident Record

    Mr. Eney. I did, yes.
    Mr. Hall. And on the V-22 Osprey, that the second crash 
occurred in July of 1990, when seven people were killed. Do you 
remember reading that, both of you?
    Mr. Eney. I certainly do, since that happened very close to 
the city of Philadelphia, where--not the accident in Yuma, but 
the V-22 development was a major topic of the everyday news in 
the Philadelphia area while we were working at Warminster.
    Mr. Hall. It was in the headlines. And you, sir.
    Dr. Scheuren. And I, too, am very familiar with that.
    Mr. Hall. And the crash of the prototype, June 11, 1991, 
three minutes into its maiden flight, you all are aware of 
that, are you not?
    Mr. Eney. I am, and if it is the accident I believe you 
were referring to, that was due to a mis-wiring of the flight 
control system.
    Dr. Scheuren. And I don't know the details, but I am 
familiar with the accident.
    Mr. Hall. On April the 8th of 2000, 19 Marines were killed 
when the V-22 crashed near Marana, Arizona.
    Mr. Eney. That, I only read about, and saw on the 
commercial news broadcasts.
    Mr. Hall. All right. I will quickly go through these. If 
you disagree with any of this, tell me. On December the 11th of 
2000, MV-22 crashed near Jacksonville, killing four people. 
March 2006, an inadvertent takeoff caused wing damage in excess 
of $1 million, and an engine fire in December 2007 caused more 
than $1 million in repair. The Marine Corps grounded all V-22s 
in February of 2007, as a result of a faulty flight control 
computer chip, after expenditure of billions of dollars, and 
not millions.
    That is a correct statement, isn't it?
    Mr. Eney. Yes, sir. I can't argue with that. May I comment, 
sir, for clarification?
    Mr. Hall. Well, I would rather you wouldn't, because my 
time is about up.
    Mr. Eney. Okay.
    Mr. Hall. I have got what looks like a red light out there, 
but I thank the Chairman, with no backup here, and I am here 
alone, up against two of the most brilliant Members of 
Congress, that he is going to give me a little more time. I ask 
an additional five minutes. Could I have it? Two minutes?
    Chairman Miller. Two minutes will be just----
    Mr. Hall. How about three?
    Chairman Miller. Well, we do need to get out of here by 
12:30.
    Mr. Hall. All right.
    Chairman Miller. And we have two more panels to go, and I 
did go over it a little bit. You have now gone over about as 
much as I did.
    Mr. Hall. All right.
    Chairman Miller. So--but we might have time for another 
round of questions.
    Mr. Hall. Can I finish with this question?
    Chairman Miller. You may.

                 Congressional Funding Responsibilities

    Mr. Hall. All right. And a great deal has been made about 
the fact that DOD has never requested funding for the DP-2, and 
that this somehow lessens its credibility. You all took that 
into consideration, didn't you? And DOD has never requested 
funding for the DP-2.
    Mr. Eney. That is my understanding, yes, sir.
    Mr. Hall. And contrary to the belief that good ideas only 
come out of the Pentagon, Congress has been very successful at 
forcing the DOD to innovate and think out of the box.
    For example, and for instance, it was the Congress, not the 
Pentagon, that pushed to arm the Predator and Hunter UAVs. It 
was Congress that pushed the up-armor Humvees, and it was the 
Congress that advocated for counter-rocket and mortar systems. 
Now, my question is this. Should Congress simply cede its 
Constitutional responsibility to raise and support armies and 
provide for a Navy, just because the Pentagon doesn't agree 
with them? Do you think Congress should just walk away and say 
the Pentagon is right? Let them do what they want to, we don't 
have any say over it. Is that your opinion?
    Mr. Eney. I would be happy to answer that, sir. My opinion 
is the role of Congress is to look out for the rights of the 
people and the country, and to protect the country, using the 
best means and the best data available to them. It is not their 
role to take a constituent's proposal, bless it as being gospel 
truth, and preaching it as if they were a salesman for that 
contractor.
    Mr. Hall. Now that the Osprey is deploying operationally in 
the fall, should we now begin to look to follow-on technologies 
for the Osprey?
    Mr. Eney. I am sorry, could you repeat the question, sir?
    Mr. Hall. Now that the Osprey is deploying operationally in 
the fall, should we now begin to look to follow-on 
technologies?
    Mr. Eney. Follow-on technologies, in the way of 
superseding----
    Mr. Hall. Next generation.
    Mr. Eney. I believe that is always the case, sir. DOD is 
always looking down the road.
    Mr. Hall. And you?
    Dr. Scheuren. And I concur with that, too. I think we need 
to look into the future.
    Mr. Hall. And with the knowledge that Congress acts on 
testimony of men and women who obviously know more than we do, 
we call them in just like you are here, and we pass or rule on 
things like that, and we are, we make decisions regarding what 
Congress has to do, and we won't cede our Constitutional 
responsibility, and you don't really think we should, do you, 
either one of you?
    Mr. Eney. I am sorry, sir. You lost me in the question.
    Mr. Hall. Do you agree with Mr. Hunter, with former 
Chairman Hunter, that Congress has a duty, a Constitutional 
duty, to look out for the Army and Navy, and the men and women, 
as we see fit, from the testimony we take from men and women 
just like you that come before us, to make our decisions up 
here? Do you say Congress shouldn't be doing that?
    Mr. Eney. No, sir. Not at all. I think that that is your 
duty. However, as I said a moment ago, you need to use the best 
available data in reaching your conclusions and in taking your 
action.
    Mr. Hall. Any of the data I read to you, that you agreed 
to, both of you, did you take that into consideration? I am 
sure you did.
    Mr. Eney. I am not here to say that the V-22 or any other 
VTOL project was without fault and was without difficulty. I 
just wish to point out key differences.
    Mr. Hall. And Wilbur and Orville had those same problems, 
only in another day and time.
    Mr. Eney. And they didn't have any government contract 
either, sir.
    Mr. Hall. That is right. They had one, their first 
government contract was a handwritten page and a half, and the 
Osprey, oh, that weighed about 20,000 pounds, so what have we 
got into.
    Chairman Miller. We are, we do have time constraints here. 
Mr. duPont needs to testify by video. I understand we lose our 
video window at noon, and we do want to be able to take this 
testimony.
    Mr. Baird.

                        More on Vectored Thrust

    Mr. Baird. Thank you, Mr. Chairman.
    One of the things we cannot do here, we pass a lot of laws, 
but we can't repeal the laws of physics. And one of my 
questions to you gentlemen, it would seem to me, Newtonian 
mechanics, if we are going to lift a vehicle up into the air 
with a jet force coming down, the force of that jet engine 
must, in some way, generate enough velocity and enough energy 
to lift that vehicle straight up into the air. Is that a fair 
portrayal?
    Mr. Eney. Yes.
    Mr. Baird. Now, my guess is, that it is that force that is 
driving this tunneling effect that you gentlemen have referred 
to, that tears up unprepared landing surfaces. Precisely the 
merit of this critter would be if it could land in the desert 
or on a mountaintop, or somewhere, without prepared field, 
right? It doesn't have as much merit if you can just land it on 
a runway. You got the runway.
    Mr. Eney. I agree with that, sir.
    Mr. Baird. So, what is the difference? Educate us. There 
must be a difference between how the propeller-based helicopter 
system, or the propeller-based Osprey, lifts versus a jet 
force, in terms of the physics of it, because that is central 
to the question Mr. Hall is trying, I think, to refute, but 
educate us very briefly, I would like to have a one minute 
summary.
    Mr. Eney. Dr. Scheuren, may I take the lead on this?
    The key term is here is disc loading. You have got to move 
a certain mass of air to overcome the weight of a certain mass 
in the vehicle. A helicopter is an example of an extremely 
light disc loading. That is, it spreads out the air that it is 
moving over a wide area, and it is at low velocity. You will 
still see large helicopters landing in the desert and going IFR 
in dust.
    Mr. Baird. But the diameter of that sand----
    Mr. Eney. Yes. Yes.
    Mr. Baird.--of the non-fixed wing is much greater than that 
of the thrust produced by a great engine.
    Mr. Eney. And the figure of merit that describes that 
mathematically is the disc loading.
    Mr. Baird. Yeah.
    Mr. Eney. It is the weight being lifted over the area of 
the entire disc.
    Mr. Baird. Could Congress, if a lobbyist asked us to pass a 
law repealing the impact of disc loading on aircraft function?
    Mr. Eney. My answer is no.
    Mr. Baird. Even if it were in our best belief that it is in 
the best interests of the troops and the fighting capacity of 
our soldiers.
    Mr. Eney. I think the level of education in this country is 
high enough today so that no one would believe you if you took 
that position and passed such a law.

                    Practical Problems With the V-22

    Mr. Baird. All right. I am not so convinced that that is 
the case, gentlemen. I wish it were.
    This business of people--I am sorry, it is climbing 
technology, rappelling out of the back of an aircraft, versus 
the balance. It seems to be, I have a little two year old, and 
I have the tallest baby of the world. I lift him up. He stands 
up, and it is wonderful fun until he leans forward. And then, 
daddy has got to catch him before we both fall to the ground.
    So, I run these guys to the back, somewhere there is a 
fulcrum effect from the lift force of this jet engine, I am 
assuming. It works somewhat like a fulcrum.
    Mr. Eney. Yes, sir.
    Mr. Baird. Because you are not using aerodynamics here, in 
terms of wing over aircraft, you are just balancing something 
on a force of air. So, it is kind of like a fulcrum. Guys run 
to the back, it tips up. What happens to keep that aircraft 
vertical under those circumstances? Or I mean not vertical, but 
flying.
    Mr. Eney. Yes, yes, I understand. You have hit the nail on 
the head, sir. A more practical vehicle is what we are using 
now, the CH-46. You have got a tandem helicopter that has two 
big forces at either end, and that is a big wrench on the 
vehicle, and it can deal with any problem.
    The other extreme is the Harrier, or something like this 
vehicle, where you have got everything concentrated on one 
point, and if everything isn't all on the CG and staying there 
all the time, the vehicle attitude is going to change. And in 
the analysis done by the Navy in 1986, we computed that, and 
found that for even small deflections in the center of gravity 
of the vehicle, like one Marine moving from the middle to the 
tailgate, the vehicle would then have to take a new position, 
new attitude of 20 degrees nose down to balance itself and stay 
in position. That is the only way you can do it when you have 
got everything concentrated on that one jet thrust. And that is 
part of the breakdown in this concept.
    Mr. Baird. If you were rappelling out of an aerial vehicle, 
which would you rather be subjected to, the exhaust from a jet 
engine, or the wind blast from a propeller?
    Mr. Eney. Me, with no military experience, sir, but a real 
wimp? I would deal with the helicopter before a jet blast.
    Mr. Baird. I think I would, as well.
    Dr. Scheuren. Sir, I have been under both, and there is not 
a comparison. It is definitely--you can deal with a helicopter. 
We do that operationally. We certainly don't put anybody under 
a Harrier. Crispy critter is the answer when you do that.
    Mr. Baird. So, we have got a vehicle here that is designed 
to be able to extract Marines in difficult combat situations, 
but in so doing, fries whatever below it, and if people try to 
climb into it while it is suspended airborne, it tips off the 
critical balance of the vehicle, and thereby endangers its 
ability to fly. And on this, we are spending millions of 
dollars in the name of patriotism?
    This doesn't sound right to me. It doesn't make sense. And 
I bet that if you ask--you know, we have got a can-do 
experience--I just watched the Space Shuttle fly last Friday. 
We have a can-do attitude in this country, and it is marvelous. 
It gets a lot of stuff done. But when that can-do attitude 
conflicts with basic laws of physics, then you have to be 
realistic, and I am afraid we are not being realistic. And you 
can gloss it up, or one witness behind you could gloss it up in 
the name of patriotism, or gee, the Pentagon just doesn't know 
what is right. There is a real difference here, and we can't 
repeal the laws of physics, and we shouldn't try to spend 
millions of dollars doing so, and I appreciate the gentlemen's 
testimony.
    Chairman Miller. Mr. Baird, in 1899, Indiana House 
Representatives did not like the idea of an unknown number, and 
they passed legislation to change pi to three, the number used 
to calculate the circumference of a circle. The Indiana Senate 
did not go along. If it had, we might have some experience on 
how well legislation does in changing the laws of physics.
    Mr. Rohrabacher, we are under great time constraints, but 
if you, I know that you have had a great interest in this 
issue.
    Mr. Rohrabacher. Yes, I have.
    Chairman Miller. And you can have five minutes for 
questions.

                        DP-2 Versus the Harrier

    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    First of all, let me note that a hunk of metal that weighs 
the same as an airplane, the laws of physics suggest that that 
hunk of metal will never get in the air and fly. That is the 
laws of physics. Now, you change that hunk of metal, change the 
hunk of metal so it is shaped like an airplane, then the laws 
of physics that apply to that hunk of metal change. For 
example, one of you just suggested that the aircraft has to, if 
one person in this aircraft changed the seating, that we then 
have to go down 20 percent, nose down 20 percent or something 
like that? Yeah. Well, let me ask you this, in the era of 
computers, do we have computers that actually do that for 
aircraft already? For example, it is not the fighter-bomber 
that we have, the stealth fighter, doesn't it have to make 
those same types of immediate, how do you say, changes in the 
way it is operating, in order to function? In an aero computer, 
that is no problem. You have an automatic change in the way the 
plane works in order to make it work.
    Mr. Eney. Sir, all of the computers in the world need to 
have a physical producer of forces with proper geometry.
    Mr. Rohrabacher. That is right.
    Mr. Eney. Your analogies are invalid, sir.
    Mr. Rohrabacher. I didn't hear--all I heard was a click. 
The thing about, you know, so what? You are trying to tell me 
you can't build the airplane that automatically adjusts with a 
computer system? I know you can. I know several examples of 
that. How about the Harrier jet right now? Right now, you would 
be telling us oh, my gosh, that just won't adjust. Think of 
what--well, I want you to know, Harrier jets operate, I know 
you have discussed this before, what is the bomb load of a 
Harrier jet?
    Dr. Scheuren. Can I answer that, having flown it?
    Mr. Rohrabacher. What is the bomb load of a Harrier jet?
    Dr. Scheuren. The difference, of course----
    Mr. Rohrabacher. No, no, no. What is the bomb load of a 
Harrier jet? That is what I am asking.
    Dr. Scheuren. What is the----
    Mr. Rohrabacher. The bomb load of a Harrier jet. Payload.
    Dr. Scheuren. The payload of it?
    Mr. Rohrabacher. Payload. Yeah, how many pounds.
    Dr. Scheuren. I have flown it with more than 4,000 pounds.
    Mr. Rohrabacher. Okay. More than 4,000 pounds worth of 
payload in a Harrier jet. Is there some reason to assume that 
you can have a Harrier jet that can take off and land like that 
with 4,000 pounds worth of bombs, but you can't take, you can't 
build a similar type aircraft to take off and land carrying 
passengers?
    Dr. Scheuren. The difference is the supporting thrust 
system. If you have a single post supporting----
    Mr. Rohrabacher. No, no, wait a minute. Hold on. I am not 
talking about this specific design. What we have here is a 
research and development model to try to see what exactly this 
post of air that people are talking about will do. Apparently, 
we spent $55 million on this research and development project. 
This is not a final completion. This is like the early stages 
of the Harrier, before we had computers, and people saying it 
can't work, and you know, and it did work. And we have 4,000 
pounds of cargo in that carrier. I don't see the fundamental 
principle of trying to do that with carrying passengers; seems 
to me to be a very reasonable goal.
    Let me ask you this. Have either one of you flown in 
combat?
    Dr. Scheuren. Yes, I did.
    Mr. Rohrabacher. Okay. Have you flown a helicopter in 
combat?
    Dr. Scheuren. No. I have flown----
    Mr. Rohrabacher. Okay. Let me note that I flew, in Vietnam, 
I was not in the military, but I happened to fly in combat 
zones in a helicopter. Now, you tell me which one would you 
rather be in, a helicopter flying over a combat zone to a 
potential drop area, going about how fast, under 200 miles an 
hour, probably 100 miles an hour or less, or would you rather 
fly in a plane, in a jet airplane, going hundreds of miles an 
hour? Which is safer?
    Dr. Scheuren. Speed is life.

                      Military Needs for the DP-2

    Mr. Rohrabacher. That is exactly correct. So, how many 
people lost their lives in the V-22 project? 20. How many 
people lost their lives in this research and development 
project? Zero. All right. Okay. So, we have a situation here 
where we know that if we develop a craft that can go very fast 
over a combat area, that they are less likely to be shot down, 
we know that you can develop lift that goes up and down, carry 
large payloads, because we did it with the Harrier, why 
shouldn't we have a research and development project to see if 
we can develop an aircraft, to see if we can develop a design 
that will make that concept work?
    Why shouldn't we do that? Okay. That is a good answer. I 
have followed this. I do not find this--I think that Tony 
duPont and the people may not have been the best managers of 
this project. Tony duPont is a renowned engineer. Sometimes, if 
you give engineers responsibility to manage, they are not the 
best managers. Sometimes, managers negate the best engineering, 
unfortunately. Tony duPont didn't lose any money on this. He 
has spent a very limited amount of money, one half of one 
percent of what went into the V-22, and we kept spending money 
on the V-22 when the hydraulic systems were killing 20 people, 
and no one could guarantee us that the hydraulic system would 
work.
    Mr. Chairman, I find this inquiry to be very fascinating 
and interesting, but let us put things in perspective here, and 
not just try to find fault, you can take anything and find 
fault with it, but let us try to find the fault and balance it 
out with the positive potential benefits of something like 
this.
    Thank you very much, Mr. Chairman.
    Chairman Miller. Thank you. And if we are to hear from Mr. 
duPont, we do need to end this panel. So, thank you all for 
appearing today. And Mr. Deadrick, thank you, as well.
    Mr. Deadrick. Thank you.
    Chairman Miller. Thank you. Our third panel has one 
witness, Mr. Anthony duPont, President of duPont Aerospace 
Company. Mr. duPont is suffering from a blood clot in his leg, 
and joins us via videoconference from a studio in San Diego.
    Mr. duPont, as I know that you know already from having 
watched the hearing to this point, it is the practice of the 
Investigations and Oversight Committee to take testimony under 
oath. Do you have an objection to that?
    Mr. duPont. No, sir.
    Chairman Miller. Okay. Do you have any preference of 
swearing before God, or simply taking an oath that has the same 
legal----
    Mr. duPont. I will swear before God.
    Chairman Miller. All right. Mr. duPont, if you would raise 
your right hand.
    [Witness sworn]
    Chairman Miller. Thank you, Mr. duPont. You also have the 
right to be represented by an attorney. Do you have an attorney 
with you today?
    Mr. duPont. No.
    Chairman Miller. Mr. duPont, you now have five minutes for 
your oral testimony, your spoken testimony. Your written 
testimony has already been included in the record for the 
hearing. And when you complete your testimony, we will begin 
questions, with each Member having five minutes to ask 
questions.
    Mr. duPont, you may begin.

                               Panel III:

TESTIMONY OF MR. ANTHONY A. DUPONT, PRESIDENT, DUPONT AEROSPACE 
                         COMPANY, INC.

    Mr. duPont. Okay. The purpose of the DP-2 program is to 
introduce Vertical and Short Takeoff and Landing, V/STOL 
capability, into high performance, turbofan-powered fan 
aircraft using vectored thrust. The objective of the government 
investment in the program is to make a sufficient demonstration 
of the technology that the military services would be able to 
make an informed decision to use it. In other words, this is a 
research program, not a development program yet.
    The DP-2 achieves vertical and short field operation by 
incorporating larger engines and vectored thrust attained with 
advanced carbon composite components, and I might add, a 
capability to trim over a wide range of CGs, which has just 
been discussed, into an otherwise conventional turbofan-powered 
transport aircraft.
    In terms of currently operating aircraft, the DP-2 carries 
a larger payload about twice as fast and twice as far as the V-
22, and is a lot less expensive.
    The DP-2 was moved forward with private funding until 1995, 
when DARPA funded a full-scale thrust vectoring system test. 
Completed at Pratt & Whitney in 1996, this test resolved the 
issue of turning losses when the thrust vectors turn 90 degrees 
for liftoff. This is the major issue that was raised in the 
critical Navy review in 1986. As a result of the successful 
test, the remainder of the appropriated DP-2 funding was 
transferred to the Office of Naval Research, ONR, by DARPA, who 
wanted one of the services to continue the program.
    The ONR program manager, Dr. Tom Taylor, wanted to build 
and fly a smaller airplane, because there were no 30,000 pound 
thrust turbofans available from the military, and no follow-on 
appropriation large enough to purchase them was on the horizon. 
A 53 percent DP-2 size was selected to use the available Pratt 
& Whitney Canada experimental 530A turbofans, and capitalize on 
some fuselage tooling available at Mississippi State 
University. Thus, the current DP-1 program was born.
    In addition to the initial engine test vehicle, which had a 
steel wing, three version of the DP-1 have been built. All 
three versions demonstrated vertical liftoff. The last two had 
larger engines installed, and contained an autopilot system 
designed to accomplish autonomous tethered hover. Two Pratt & 
Whitney Canada 535A engines with considerably more thrust were 
purchased under a NASA grant in 2002.
    Four incidents of equipment failure have been encountered 
during testing. The causes were analyzed, and fixes 
incorporated to prevent a recurrence. The latest version, the 
DP-1C, has almost airline type reliability for tethered hover 
testing, the only type of flight testing allowed by ONR.
    The DP-1 can be flown repeatedly every hour, including 
being weighed and refueled between flights. Between July 19 and 
October 5, 2006, 49 flights were completed. Extensive analysis 
was conducted to validate the analytical model of the aircraft 
and the control system. The aircraft was trimmed and ready on 
June 1, 2007, and permission from the program manager to do 
hover tests was granted on Wednesday, June 6. The throttle 
servos have been moved down to the engines to eliminate the 
cable stiction, which is defined as static friction force to be 
overcome before the control moves, which is the reason the 
airplane could not acquire and hold altitude for extended hover 
during the 2006 tests.
    Of the $71.4 million appropriated for the DP-2 by the 
Congress, $55.3 has been received by duPont for work on the DP-
2. This figure includes both the NASA component and the DOD 
component, and the balance of the unexpended funds appropriated 
for Fiscal Year 2007.
    Just a final thought. Runway independence is the critical 
need for future civil transport aircraft. A 3,000 foot takeoff 
and landing distance effectively gives runway independence. 
With 3,000 feet, almost all the smaller airports are available, 
as well as the unused portion of the inactive runways at the 
major airports. The DP-2 helps relieve airport congestion, both 
by handling traffic from smaller airports that will no longer 
need to use the nearest major airport, and by using the unused 
portions of the runways at the major airports.
    The DP-2 can achieve 3,000 foot field length by using 
vectored thrust in a conventional takeoff and landing mode. 
Because its block speed is higher, and its hourly cost is 
similar, the DP-2 offers a 20 percent or more reduction in 
direct operating cost. Block speed advantage is not only the 
most fuel efficient cruising speed, Mach 0.88 versus 0.74, but 
also reduced time to climb, and less time on the ground due to 
being able to use shorter runways.
    The DP-3 is the largest airplane that can be envisioned 
using the DP-2 technology. It is capable of carrying a Stryker 
vehicle. The limit is the engine thrust, and the GE-90 is 
currently the highest thrust engine available. Both the DP-3 
and DP-2 have nearly identical performance in terms of speed 
and range.
    Thank you.
    [The prepared statement of Mr. duPont follows:]
                Prepared Statement of Anthony A. duPont

Program

    The purpose of the DP-2 program is to introduce Vertical and Short 
Take Off and Landing (VSTOL) capability into high performance turbofan 
powered aircraft using vectored thrust. The program was moved forward 
entirely with company funds and outside investment until 1995. At that 
point previously appropriated funds were released by the Defense 
Advanced Research Projects Agency (DARPA) to fund a full scale test of 
the thrust vectoring system. The purpose of the government investment 
in the program is to make a sufficient demonstration of the technology 
that the military services would be able to make an informed decision 
to use it.
    The DP-2 achieves vertical and short field operation by 
incorporating larger engines and vectored thrust into an otherwise 
conventional turbofan powered transport aircraft. The X-14, first flown 
in the 1950's, demonstrated the idea of fixed turbojet engines with a 
movable cascade system to achieve vertical take off and landing. One 
way to view the DP-2 program is to think of it as using the cumulative 
advances in aeronautical technology since the 1950's to provide an 
operational capability similar to conventional airline and military 
aircraft in a vertically rising aircraft similar to the X-14.
    In terms of currently operating aircraft the DP-2 carries a larger 
payload about twice as fast and twice as far as the V-22, and is 
considerably less expensive to procure.

History

    The origins of the DP-2 go back to the late 1960's when I was 
working for the Garrett Corporation and developing the Hypersonic 
Research Engine (HRE) for the X-15 and the ATF-3 turbofan designed to 
replace turbojets then in service on business aircraft. The HRE was 
managed by the National Aeronautics and Space Administration (NASA) 
Langley Research Center, and I spent a lot of time at that facility. 
NASA Langley was also testing two P-1127, early versions of the Harrier 
VSTOL fighter aircraft. I had ample opportunity to study this aircraft 
because both airplanes were often disassembled for maintenance and 
spread all over the hangar floor. My interest was in the potential 
market for the three spool high bypass turbofan technology embodied in 
the ATF-3. The high bypass and high overall pressure ratio promised a 
large increase in combat radius, and the mixed exhaust promised a huge 
reduction infrared signature as well as greatly reduced ground erosion. 
I talked with Jack Reeder, the chief test pilot, about flying the 
aircraft. He said that it was flyable without any stability 
augmentation. In fact most pilots preferred to turn off the stability 
augmentation system. However, he said he would like some artificial 
stability in height. It was easy to get pre-occupied and pick up a rate 
of descent in hover that was hard to stop with the thrust margin 
available. He also wanted altitude stability like a trimmed aircraft 
has in forward flight.
    In the fall of 1968 Garrett was about to sign production contracts 
for the ATF-3 with North American Aviation and Dassault, but was 
unwilling or unable to buy the machine tools on which the cost and 
schedule were predicated. Not being willing to make promises I knew the 
company could not keep, I resigned from the Garrett Corporation. In the 
spring of 1969, I laid out an eight-place business jet with VSTOL 
capability.
    The only small turbofan engines then available were the General 
Electric CF-700, an aft fan version of the well proven J-85 turbojet. 
This engine was in service on the Dassault Falcon 20 and was destined 
to eventually be replaced by the ATF-3. The reliability of turbofans 
was expected to be quite high. The odds of losing an engine on take off 
eventually passed a million to one making the odds of losing both 
engines on a twin engine airplane a trillion to one. Therefore, a twin 
engine VSTOL aircraft would be reliable enough to make commercial 
sense.
    A number of locations for engine placement were studied, and side 
by side in the nose very quickly emerged as the only practical 
possibility. The engines had to be ahead of the airplane's center of 
gravity to permit vectoring the thrust downward for liftoff, and they 
had to be as close to the centerline as possible to enable the roll 
control system to maintain a level altitude if one engine fails.
    The initial control system design was a bleed air ``puffer jet'' 
system like the Harrier. This proved to be unsatisfactory because not 
enough control moment could be generated with the available bleed air, 
and use of bleed air reduced the thrust lift available. A transport 
airplane has much higher inertia than a fighter and requires more 
moment to get the same angular acceleration response. A vane control 
system in the engine exhaust was designed to replace the bleed air 
system and remove these deficiencies.
    While we were trying to arrange financing for this airplane, then 
called the DP-1, the bottom dropped out of the business aircraft market 
in the early 1970's. We had a larger airplane called the DP-2 using the 
General Electric TF-34, then in development by the Navy for the S-3A, 
on the drawing board when the Navy issued a request for proposal for 
VSTOL A, a utility airplane for the Sea Control Ship. No VSTOL A was 
procured, but the DP-2 got a little exposure. When the Navy issued a 
Request for Proposals (RFP) to replace the Grumman C-2A with an 
aircraft that could also be a 30 seat airliner, we were encouraged to 
respond.
    Although the C-2A many years later was replaced by more C-2A's, the 
exposure to the Navy and the airlines generated enough interest to keep 
us working on the DP-2. A wind tunnel model with operating engines and 
a fixed thrust vectoring cascade that was removable for normal flight 
was tested in the eight-foot tunnel at Cal Tech in 1978. In 1982 the 
same model with a retractable cascade and vector control system was 
tested for a month in the 7 X 10 foot tunnel at NASA Ames. In the 
1980's requirements in all the services as well as the Coast Guard and 
Customs Service were identified, but the numbers were too small to 
generate a Department of Defense (DOD) development program. In the late 
1980's the Special Operations Forces became the most persistent 
advocate. Their interest was in an aircraft to meet their long range 
exfiltration requirement, notionally a thousand miles in and a thousand 
miles out at 200 feet above the ground with a vertical landing at the 
mid point. To make a vertical landing instead of a short landing larger 
engines were required.
    The first engine that truly offered vertical capability was the 
Pratt and Whitney JT8D-219, which was rated at 21,700 pounds thrust. 
With this engine the DP-2 could insert and extract a twelve-man team 
weighting approximately 3,600 pounds. Later when funds appropriated for 
the DP-2 were finally released by DARPA in 1995, the International Aero 
Engines V2500 was selected in order to raise the payload capability to 
10,500 pounds. This engine was used in a successful test of the DP-2 
thrust vectoring system at Pratt and Whitney in 1996.
    Following this successful test, which demonstrated a five percent 
thrust loss compared to the 25 percent estimated by a 1986 Navy 
evaluation sponsored by the Special Forces, the balance of the $15 
million appropriation was transferred to the Office of Naval Research 
(ONR) by DARPA, who wanted one of the services to continue the program.
    The ONR program manager, Dr. Tom Taylor, wanted to build and fly a 
smaller airplane because there were no 30,000 pound thrust turbofans 
available from the military, and no follow on appropriation large 
enough to purchase them was on the horizon. A 53 percent DP-2 size was 
selected to use available Pratt and Whitney Canada experimental 530A 
turbofans and capitalize on some fuselage tooling available at 
Mississippi State University. Thus the current DP-1 program was born.
    In addition to the initial engine test vehicle, which had a steel 
wing, three versions of the DP-1 have been built. The DP-1A used leased 
PWC 530A engines rated at 2,887 pounds of thrust. The first lift off 
was achieved on January 16, 2002 with these engines, but in spite of 
many inlet refinements no additional installed thrust was obtainable. 
On October 9, 2002 two Pratt and Whitney Canada (PWC) 535A engines with 
considerably more thrust, over 4,000 pounds, were purchased under a 
NASA grant. The airplane, modified to install these engines, is called 
the DP-1B. The first liftoff of the DP-1B was on January 22, 2003. Many 
other successful liftoffs were accomplished in early 2003. In these 
flights the controls were locked. They were adjusted until the aircraft 
lifted off vertically. On May 10, 1999 Dr. Tom Taylor had sent a letter 
from ONR saying all hover testing would have to be accomplished 
autonomously without a pilot in the cockpit. This decision greatly 
increased the cost of the program and the time to complete. A rough 
estimate is a factor of at least three times the original manned flight 
approach. In the fall of 2003 this aircraft was flown several times 
under autonomous autopilot control. Testing was terminated after a dual 
autopilot failure on November 2, 2003 caused the airplane to hit the 
tethers at an excessive rate of climb. The subsequent gear impact, at a 
very high roll rate, pulled the main landing gears out of the wing.
    The airplane was repaired with stronger landing gear attachments. 
Testing was resumed on April 14, 2004. During a control 
characterization test the nozzle box failed on November 16, 2004. The 
cause of the failure was testing a new NASA cascade vane design in the 
old nozzle box. The cascade pressed on the bottom of the nozzle box, 
breaking the tension link supports and eventually causing the cascade 
actuator to break loose allowing the cascades to rotate aft.
    Rather than repair the DP-1B, a new fuselage was built with many 
other new parts to eliminate the control mounting flexibility that had 
emerged in the DP-1B as a result of the modifications to accept the 
535A engines. New electrical wiring was installed to improve 
reliability, and a new, lighter tail built. The only major components 
retained from the DP-1B were the wing, the PWC 535A engines and the 
nozzle box. The floor of the nozzle box was modified to conform to the 
NASA cascade design and eliminate the cause of the November 2004 
failure. This aircraft was renamed the DP-1C.
    Testing of the DP-1C started on February 8, 2006. A nozzle box 
delamination failure released the cascade actuator on April 25, 2006. 
Rather than repair the nozzle box, the floors and tops were salvaged 
and incorporated into the new coreless configuration. In this nozzle 
box, the cascade actuator support is secured by a one inch diameter 
steel bolt precluding the previous failures.
    Tests resumed on June 9, 2006. The airplane trim tests were 
completed, and the first tethered hover attempt was on July 19th. 49 
flights were completed by October 5th, and by Navy direction operations 
were terminated on October 6th.
    A greatly scaled down level of activity was resumed on December 13, 
2006, again per Navy direction. Some testing in ground effect was 
accomplished in March of 2007. The test results indicated vortices shed 
by the nose wheel cause engine stall before the engines reach full 
thrust. Either engine could be run up to full thrust, but not both 
simultaneously. NASA laser sheet instrumentation was used during these 
tests, and the results indicate vortex ingestion as opposed to hot gas 
ingestion. NASA is supplying fast response pressure instrumentation to 
further investigate this phenomenon.
    Extensive analysis was conducted to validate the analytical model 
of the aircraft and the control system. The aircraft was trimmed and 
ready for renewed hover attempts on June 1, 2007 and is waiting for 
permission from the program manager to do hover tests. The throttle 
servos have been moved down to the engines to eliminate the cable 
stiction, defined as static friction force to be overcome before the 
control moves, which is the reason the airplane could not acquire and 
hold altitude for extended hover during the 2006 tests.

DP-2 Program Viability

    The DP-2 addresses the need for vertical operating aircraft with 
more speed and range than are available from rotary wing technology. A 
successful direct lift aircraft, the AV-8B Harrier, is in the Marine 
Corp inventory, and the F-35B, a successor to the Harrier, is in 
development. The DP-2 applies direct lift with a different type of 
control system to combine vertical and short field operation with the 
payload range capability of conventional airliners and combat 
transports.
    Extensive use of composite structures and smaller wings and tails 
can provide an empty weight fraction similar to current turbofan 
aircraft even with larger engines. The DP-2 is compared to two similar 
sized conventional aircraft in the figure below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One of these aircraft is a top of the line business aircraft and 
the other a widely used 50 seat airliner. Because its block speed is 
higher and its hourly cost is similar, the DP-2 offers 20 percent or 
more reduction in direct operating cost. Block speed advantage is not 
only cruising speed, Mach 0.88 versus 0.74, but also reduced time to 
climb and less time on the ground due to being able to use shorter 
runaways. Use of engines in widespread airline service provides similar 
hourly costs to the smaller engines installed in other aircraft, in 
spite of the larger engine size.
    The military has two notional transportation requirements 
illustrated below. One is Ship To Objective Maneuver, STOM, which is to 
supply a beachhead 140 n. mi. inland from a ship 100 n. mi. offshore. 
How the acquisition cost of DP-2s to accomplish this mission compares 
to existing alternative aircraft is shown in the first figure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The other scenario is to deliver 2,000 tons per day from 2,000 n. 
mi. distance. The comparison of acquisition cost is shown in the table 
below. In both cases a larger aircraft, the DP-3 using GE-90 engines, 
is slightly more economical than the DP-2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The DP-3 is the largest airplane that can be envisioned using DP-2 
technology. It is capable of carrying a Stryker vehicle. The limit is 
the engine thrust, and the GE-90 is currently the highest thrust engine 
available. Both the DP-3 and DP-2 have nearly identical performance in 
terms of speed and range.
    Runway independence is the critical need for future transport 
aircraft. A 3,000 foot takeoff and landing distance effectively gives 
runway independence. With 3,000 feet almost all the smaller airports 
are available as well as the unused portions of the inactive runways at 
the major airports. The DP-2 helps relieve airport congestion both by 
handling traffic from smaller airports that will no longer need to use 
the nearest major airport and by using the unused portions of runways 
at the major airports.
    A 3,000 feet field length can be achieved by vectored thrust in a 
conventional take off and landing mode. Enough thrust is available to 
achieve a 3,000 feet FAA take off distance without vectoring the 
thrust. If the landing approach is made with vectored thrust and 50 
percent maximum thrust setting, the Federal Aviation Administration 
(FAA) landing distance is less than 3,000 feet. In the event of an 
engine failure on landing approach the good engine can be run up to 100 
percent and the landing completed in the same distance as with both 
engines operating. This method of operation does not require the same 
precision control system needed for hover.

Critical Technical Reviews

    At least four critical technical reviews have been conducted during 
the life of the DP-2 program. The first one was a Navy review funded by 
the Special Operations Forces in 1986. The basic numbers on 
aerodynamics and weights were in reasonable agreement with duPont's 
estimates, but a 25 percent thrust loss was estimated for the thrust 
vectoring system which affected the aircraft performance accordingly. 
This estimate was used in spite of data from NASA Ames testing showing 
a four percent loss. The full-scale thrust vectoring test in 1996, 
funded by DARPA, at Pratt and Whitney's Florida facility showed five 
percent loss. As a result of this test, DARPA released the balance of 
funds appropriated in 1991 and re-appropriated in 1993 to ONR to test 
an airplane using this thrust vectoring approach. Other concerns 
expressed about the thrust vectoring system have been resolved by the 
contracted DP-1 development work.
    The second critical review was conducted by a blue ribbon panel of 
experts convened by DARPA in March of 1990. The information used by the 
reviewers was the 1986 Navy review, additional information on the 
review prepared by duPont subsequent to the 1986 review and submitted 
to the Navy and a briefing by duPont. The report included a roughly two 
page summary from each participant. All four of the findings were 
negative, supporting DARPA's decision not to spend the original $3 
million DP-2 appropriation. The first was concern about exhaust erosion 
of unprepared surfaces. The second was control problems following an 
engine failure during vertical take off or landing. The third was 
critical of shutting down one engine to increase the range, and the 
fourth cited the difficulty of re-doing the aircraft to make it into a 
low radar cross section configuration. Most of the experts cited the 
difficulties to be overcome in a potential DOD development program. 
Almost all of these concerns have been overtaken by events as the full-
scale thrust vectoring test and the DP-1 testing has moved forward. 
Scott Crossfield, then on the Science Committee staff, was one of the 
reviewers and was very supportive of moving ahead. Three Special Forces 
officers in attendance, who were strongly supportive of the DP-2 and 
the need for it, were ignored both at the meeting and in the written 
summaries.
    The third critical review was a systems study by Dr. Mark Moore 
from NASA Langley in 2002 when NASA started funding the DP-2. His work, 
although generally sound, contained two errors which made the DP-2 have 
an excessive gross weight. The first was a very high fuel fraction for 
a 2,500 nautical mile stage length. He may have inadvertently used the 
fraction for 5,000 nautical miles. With the correct fuel fraction the 
DP-2 looks O.K. The second error was using vertical take off for a 
5,000 nautical mile stage length. For 5,000 nautical miles the DP-2 
uses a short conventional take off.
    The fourth critical review was by the Naval Air Systems Command 
(NAVAIR) funded by John Kinzer, the ONR program manager for the DP-2. 
This report together with areas where duPont differs from NAVAIR's 
numbers is included in the final contract report for the contract 
terminated in 2006. Two copies of this report have been provided to the 
committee staff. To summarize the major points of contention: NAVAIR 
assessed a four percent bleed penalty at takeoff even though the 
airplane has no systems that use bleed air at takeoff, and some of 
NAVAIR's subsystem weights were very high compared to actual aircraft 
or weight trends. NAVAIR will not accept honeycomb core structure, but 
duPont has developed structure that does the same job without 
honeycomb. An example is the coreless nozzle box panels currently 
installed in the DP-1C airplane.

Testing Mishaps

    Mishap is a word that implies something far more serious than the 
incidents that have occurred during DP-1 testing. In government 
terminology these are characterized as equipment failures.
    The first incident occurred on November 2, 2003. The autopilot 
commanded full thrust, and the aircraft hit the tethers at a high 
upward velocity. The right wing tether came taut before the left 
causing a high rolling velocity, over 100 degrees per second. The right 
gear hit the deck first and then the left at a high velocity breaking 
the main gears out of the wing. The airplane came to rest on its belly 
damaging the nozzle box and thrust vectoring system. The airplane was 
repaired and was ready for test on April 14, 2004. A double failure in 
the autopilot system caused the maximum thrust command. The 
Differential Global Positioning System (DGPS) went into a less accurate 
measurement mode and said the aircraft was a foot below the starting 
position throughout the flight, and the rate feedback which would have 
caused a pull back in response to the high velocity was not working due 
to a hardware failure. Automatic shut downs were incorporated to 
prevent these and other failures from damaging the airplane in 
subsequent tests. When the gears were reinstalled they were 
strengthened as much as possible and the carbon composite blocks that 
support the gear trunnion bearings were redesigned to be more than 
twice as strong.
    The second incident occurred on November 16, 2004. In this case the 
lower door was jammed against the nozzle box bottom breaking the upper 
tension link mounts, which in turn broke the keel allowing the titanium 
part which supports the cascade actuator and its carbon composite 
supports to rotate up into the floor and allow the cascades to move 
aft. The nozzle box was damaged beyond repair, and a second nozzle box 
was modified for future testing. The major modification was 
installation of new contoured nozzle box bottoms which allow the NASA 
designed cascade to move freely. The incident investigation was very 
prolonged and involved the same people who were designing a new 
coreless nozzle box that inherently precludes this type of failure. The 
new nozzle box design work had to be put off until the investigation 
was complete. This was the reason for re-working the second nozzle box 
instead of using the new design.
    The third incident on April 25, 2006 involved a delamination of the 
solid carbon block that retained the titanium actuator support allowing 
the support to rotate upward and the cascade to move aft. The failure 
was a straightforward delamination that may have been caused by the 
jackhammer effect of rapid sinusoidal lateral control inputs used for 
control characterization testing, but the cause is not certain. The 
coreless nozzle box was far enough along that coreless sides and keel 
were mated to tops and bottoms salvaged from the damaged nozzle box. 
Testing was resumed on June 9, 2006.
    The fourth incident was a test on August 8, 2006 in which the test 
was automatically aborted for exceeding the three feet altitude limit 
with an excessive rate of climb, in excess of two feet per second. The 
aircraft hit the left front tether first causing the airplane to land 
left wing down with a large left wing down rolling rate and side 
velocity component. The left gear impact caused a crack in a portion of 
the lower wing skin. The wing was repaired, and the aircraft was back 
on test on August 21, 2006. The cause of the incident was the 
installation of a loaner Inertial Navigation System (INS) unit that had 
a negative vertical velocity bias over 0.6 feet per second causing the 
autopilot to command more thrust than was required. To help preclude 
this type of failure the rate of climb limit for an automatic abort was 
reduced from two feet per second to one foot per second, and the INS 
biases were automatically measured just before lift off and the 
appropriate corrections inserted in the flight control computer.

Funding

    Until 1995 the DP-2 program was funded entirely by the company's 
earnings and about $400,000 of outside investment. Since the DP-2 
development became government funded, all but about $40,000 of all fees 
earned has been re-invested in the project. This investment totals 
about $5 million.
    In addition to the $63.9 million appropriated for the DP-2 by the 
Congress, of which we received $47,991,844, NASA has awarded grants to 
duPont Aerospace in the amount of $7,500,000 to further support the DP-
2 project. DuPont has received $7,326,547 of this grant money and has 
applied it to the purchase of two Pratt and Whitney 535 engines, 
development of the NASA designed cascade vane and additional research 
as mutually deemed beneficial by NASA and duPont Aerospace.

Progress to date

    At the present time the DP-1 research and demonstration aircraft 
has been developed to the point where it has almost airline type 
reliability for hover testing. The DP-1 can be flown repeatedly every 
hour including being weighed and refueled between flights.
    The DP-1C has a slightly lower structural weight fraction, defined 
as wings, fuselage, tail and landing gear divided by gross weight, than 
the KC-135 which has the smallest fraction of any transport aircraft, 
civil or military.
    The surface controls that move the elevators, ailerons and rudder 
have not yet been installed and connected to the stick and rudder 
pedals. The parts have been made, and a duplicate set has been 
installed on the iron bird, a test framework, for check out prior to 
installation in the aircraft. This work is proceeding, but at a slower 
pace because, by Navy direction, it has a lower priority than tethered 
hover or in ground effect testing.
    The iron bird also is used as a flight simulator, and both the DP-1 
and DP-2 can be flown throughout the flight envelope. In 2006 a series 
of tests were flown to see if further wind tunnel testing was required 
for flight safety. The results showed that any stability derivative 
could be varied plus or minus 50 percent, and the aircraft could still 
be flown safely. The expected error in any of these derivatives is much 
less than 50 percent.
    The analytical model of the aircraft, vector control system and 
autopilot servos has been exhaustively reviewed by the NASA 
Airworthiness Review Panel (ARP). The model agrees closely with the 
flight data obtained to date. With the recently measured reduced 
stiction in the throttle system this model predicts hovering flights of 
indefinite duration within the box defined by the tether system, six 
feet wide, six feet long and three feet high. With the stiction 
measured in 2006, the model predicts a tendency to climb out of the box 
as observed in all but one of the 2006 tests that got more than a few 
inches off the deck. To put the tethered hover task in perspective, the 
specification ADS-33E for the most maneuverable classes of helicopters 
is to hover in a six foot wide, six foot long and four foot high box 
for 30 seconds starting from a trimmed hover. The DP-1 has to acquire 
the desired altitude and trim itself with a foot less altitude to 
maneuver in.

                    Biography for Anthony A. duPont

    Mr. Anthony A. duPont brings to duPont Aerospace Company and to the 
DP-2 project 40 years of successful experience in aviation design and 
development. His career started as a pilot for Pan American World 
Airways. He joined Douglas Aircraft at the beginning of the manned 
space flight program, where his first major assignment was the design 
of the Saturn Rocket upper stage to man-carrying standards. Later, as 
Chief of Aerospace Advanced Design in the Aircraft Division, he was 
responsible for Douglas' aerospace plane program and the design of high 
speed commercial transport aircraft.
    Mr. duPont became Director of Product Planning of the Garrett 
Corporation in 1963. In this capability he was responsible for assuring 
that Garrett's line of aircraft systems were responsive to the aircraft 
industry's needs, and he planned the company's successful 
diversification program into jet engines and commercial products. As 
Manager of Advanced Propulsion Engines he managed the initial jet 
engine activity, from which has developed an annual business of roughly 
$500 million. He was responsible for the development of the NASA 
Hypersonic Research Engine and the ATF-3 turbofan engine for business 
and Coast Guard surveillance aircraft.
    Mr. duPont founded the duPont Aerospace Company, Inc., in 1969 to 
pursue the development of deflected thrust applied to corporate, 
military, and airline aircraft. In the early 1970s, duPont Aerospace 
performed under NASA contracts on the injector ramjet and an aspect of 
the Space Shuttle. More recently the company has developed the 
Government Baseline Design for the National Aerospace Plane program, 
and accomplished the aircraft engineering for quiet nacelles for the 
DC-8 aircraft which meet current FAA noise standards. The expenses of 
corporate development have been underwritten by Mr. duPont's earnings 
as a business and energy consultant for firms such as Teledyne, Booz, 
Allen and Hamilton, Airco Cryogenics, R. Dixon Speas, MTI, and Pacific 
Lighting. His assignments have been diverse and have included serving 
as Chief Engineer at Rotoflow, the world's leading manufacturer of 
radial turbine and compressor installations used by gas processing 
industries. Mr. duPont has eight issued patents including the design of 
the ATF 3 aircraft engine, which was produced for the Falcon 200, and 
the design of the DP-2.

                               Discussion

    Chairman Miller. Thank you, Mr. duPont. I will now 
recognize myself for five minutes of questioning.

                              DP-2 Funding

    Mr. duPont, I know that you testified before the Science 
Committee in 2001, in a hearing about this project. Has the 
Armed Services Committee ever had a hearing on the DP-2 
project?
    Mr. duPont. No.
    Chairman Miller. Okay. In your testimony before, again, the 
Science Committee in 2001, you said that you had spoken with 
Boeing, Lockheed, and Grumman, and other aerospace companies 
about investing in the project, in the DP-2, and that none of 
them were willing to invest. Is that correct?
    Mr. duPont. No, it is not.
    Chairman Miller. Okay.
    Mr. duPont. I had talked to those companies about machining 
parts of the airplane, when it was still an aluminum airplane 
design, and we weren't so much interested in them investing in 
the project as participating in it, and we would get outside 
investment, and customer progress payments to pay for the 
construction of the airplane.
    Chairman Miller. Were they--did you ask them about 
investing in the concept, developing the concept of the DP-2 or 
the vectored thrust?
    Mr. duPont. No.
    Chairman Miller. Okay. You said that until 1995, you had 
private funding. What was the source of the private funding?
    Mr. duPont. The private funding was whatever we could earn 
from other activities, and a little bit of outside investment.
    Chairman Miller. There has been $63 million of taxpayer 
investment. How much was the private funding?
    Mr. duPont. Approximately $5 million.

                           Why Fund the DP-2?

    Chairman Miller. Mr. duPont, I have got many prepared 
questions that are very harsh and accusatory, and I have no 
interest in asking those. I really do admire your faith in this 
project, but my question is much the same as what I asked of 
Mr. Hunter.
    We in Congress are not experts in this field, nor are we 
experts in many of the fields that we must make judgments 
about. And we must rely upon the expertise and judgments of 
people who really do it for a living; they devote their lives 
to becoming experts in certain areas. In this case, it appears 
that all of the people that you would expect Congress to rely 
upon believe that this concept is deeply flawed, DARPA, NASA. 
How do we make our own judgment contrary to that of DARPA and 
NASA, to proceed with funding a project that has yet to work?
    Mr. duPont. I will give you a couple examples, sir. The 
first one was that group that Mr. Eney talked about, said that 
the thrust losses were going to be 25 percent going through the 
cascade system. When the test results were in from the Pratt & 
Whitney test in 1996, the exhaust losses were five percent. 
Now, that 25 percent estimate was in spite of data that we had 
attained in a joint program with NASA Ames, where the losses 
were measured at four percent on a small wind-tunnel model.
    So, I think, sir, you have to look at the facts. I am sure 
these guys were sincere, and they did careful analysis and all 
that, but their conclusion was wrong.
    And the other discussion, another example is this prolonged 
discussion about being able to trim the airplane while people 
fast rope out the back of it and the environment when they hit 
the ground. This vertical thrust vectoring system is unique, in 
the sense that you can move the cascade and the control box in 
a way that you can keep the airplane level beyond the normal 
aerodynamic CG limits. So, you can trim the airplane level 
while people are moving to the back and going down the rope.
    And a few years ago, we had a demonstration of fast roping, 
using the elevated test stand, and the environment is still 
where people are coming down on the fast rope, when they hit 
the ground, there is a flow, it is about knee high, that is 
about 40 knots and 130 degrees Fahrenheit. So, I say it is like 
wading in a trout stream. It is not this harsh crispy critter 
thing that Bill Scheuren is talking about, and that is because 
this engine has a mixed exhaust, and the average temperature is 
400 degrees Fahrenheit, whereas the rear jets of the Harrier 
are like 1,300 Fahrenheit.
    So, I think it is just, as time has gone by, and more 
evidence has become available, I think these same experts would 
probably reach different conclusions.
    Chairman Miller. I have more questions, but in the 
interests of time, Mr. Rohrabacher.

                        Value of Vectored Thrust

    Mr. Rohrabacher. Thank you very much.
    So, Tony, what we have here, basically, is a research 
project, which people are trying to evaluate as if it is the 
purchase of a weapons system. Let us make that really clear. We 
spend a lot of money on research projects to find out basic 
truths that let us understand that the laws of physics are not 
being violated here, because we have now looked at some basic 
ideas.
    Do you think that, now that you have had your experience, 
do you think that a research project into vectored thrust, 
which is what this really is all about, do you think that that 
is still a viable concept?
    Mr. duPont. Well, I think that----
    Mr. Rohrabacher. Let me put it this way. Is the DP-2 going 
to fly? Is it going to go up and actually do this, or is this a 
failure so far, in terms of developing technology?
    Mr. duPont. No, it is ready to fly almost right now. We are 
restricted from piloted operation by the Navy rules. We don't 
have enough money to have two or three spare airplanes, which 
is what would be required for----
    Mr. Rohrabacher. Okay.
    Mr. duPont.--an unmanned flight test program. The history 
of almost every unmanned program is they have lost at least one 
airplane.
    Mr. Rohrabacher. All right.
    Mr. duPont. And so we are----
    Mr. Rohrabacher. Well, we know that the V-22, Tony, that 
they lost more than one craft, and that we lost over 20 lives 
in the V-22 research project, which I might add, spent roughly, 
your research project has roughly one, less than one half of 
one percent of the research that went into the V-22 has gone 
into trying to look at the vectored thrust concept that you 
have here.
    Let me note that I followed this project all along, and by 
the way, again, let me state for the record, I have no problems 
with defending this as a viable research project, to see if 
vectored thrust was, indeed, viable as a way of having vertical 
landing and vertical takeoff. But let us note this, Tony. Your 
sale of this project wasn't just based on hovering. It was also 
based on short takeoffs and landings, as well. Is that correct? 
Because that was the commercial potential. That is where you 
had a lot of commercial potential.
    Mr. duPont. Yeah, that is exactly right. The commercial 
potential can be almost 100 percent reached without ever 
hovering. And the proper way, the most expeditious way to 
demonstrate this technology, and get the bugs out of it, is to 
take off as a conventional airplane, go up to a safe altitude, 
where you can recover the airplane no matter what goes wrong 
with it, and slow down a little bit using vectored thrust, then 
come in and land at that speed, and take off at that speed for 
the next flight, slow down a little bit.

                     Vertical Take Off and Landing

    Mr. Rohrabacher. Okay. Well, Tony, for the record, I have 
only got a few minutes here, that is why I am cutting you off. 
For the record, when this program was being described to those 
who supported it, including myself and Duncan Hunter, the 
military concept of the plane, which was to take off and land 
on aircraft carriers, which was essentially what it was being 
proposed for, was one of the two major promotional angles that 
you had, in terms of defending this as a research project. The 
other was short takeoffs and short landings that would 
revolutionize America's small airports, and permit us to have a 
change in aviation in the United States of America. I think 
that was worth some research and development dollars.
    Tony, during this time period, there was a problem with the 
hydraulic system in the V-22. Was there any other project that 
you know of, beside your own, that was then looking into 
vertical landing and takeoff? Was there anything else other 
than you and the V-22?
    Mr. duPont. This is the only one I know about.
    Mr. Rohrabacher. It is the only one I know about, and 
perhaps, at a time when the V-22, when we were told that there 
was no way to fix the hydraulic system in the V-22, perhaps it 
was a good idea, maybe, to do some direct research into 
vectored thrust? I mean, that sounds like a good fundamental 
research concept to me, to see if it will possibly work.
    Again, I want to commend the Chairman here, because we have 
noted that it is very easy to be accusatory, and I think that 
this was very well-deserved here. People need to be able to ask 
you questions, and to kibitz with experts, to find out whether 
or not projects like this are worthy of the research grants 
that Congress provides, and I will note that there are research 
grants provided not just in the Defense Department, but NASA 
and everywhere, that are earmarked, and have been earmarked for 
decades. This is one of them. I have no problem in saying that 
this was, at that time, very worthy of a research grant to see 
if vectored thrust could actually succeed, and that we could 
have short takeoff and landings, as well as perhaps vertical 
takeoff and hover.
    So, thank you very much, Tony, and I have used up my time.

                       Current State of the DP-2

    Chairman Miller. Mr. Baird.
    Mr. Baird. Thank you, Mr. Chairman, and I thank the 
witness. Just for the record, I would like to requote former 
Chairman Hunter's remarks about the vertical takeoff capacity. 
He writes, in his own testimony: ``In short, we need an 
aircraft that could land and take off vertically like a 
helicopter, but fly with the speed of a jet, with capacity of 
transport.'' At least according to Mr. Hunter, it does not look 
like the prime envisioning of this aircraft was just short 
takeoff and landing. He wanted a vertical craft.
    Mr. duPont, all the witnesses took an oath to tell the 
whole truth, and Mr. Hall added the words so help me God, I 
believe. In your testimony, you write the following: ``In terms 
of currently operating aircraft, the DP-2 carries a larger 
payload about twice as fast and twice as far as the V-22, and 
is considerably less expensive to procure. Is that the truth?
    Mr. duPont. Yes.
    Mr. Baird. We have an aircraft today that has demonstrated 
the capacity to carry a larger payload twice as fast, and we 
know from experiential evidence that it is considerably less 
expensive to procure. I mean, could I get in this thing? I can 
get in, I may not want to get in an Osprey, but I could. Could 
I get in, you write in such a way, and I am not trying to just 
parse language here, you write in a way that sounds like we 
have proven this concept, and have a vehicle available.
    Mr. duPont. I think we have proven the elements of the 
concept. Of course, we don't have a production airplane, but we 
didn't have $11 billion either.
    Mr. Baird. So, there is not actually a currently operating 
aircraft, that has demonstrated the ability to fly twice as 
fast.
    Mr. duPont. No, that depends on wind tunnel data and all 
that kind of stuff, that actually, in the original Navy thing, 
that Mr. Eney talked about, they pretty well agreed with our 
aerodynamics and our weights, and they are----
    Mr. Baird. Well, let me ask this.
    Mr. duPont.--thrust vectoring system.
    Mr. Baird. This city has had some unfortunate experience 
with an individual parsing the meaning of the word is. If we 
were to write, and is considerably less expensive to procure, 
what is the meaning of is in this sentence?
    Mr. duPont. The meaning of is, is its projected cost is a 
lot less than a V-22.
    Mr. Baird. So, the whole truth would be whose projected 
cost is, not that is considerably less expensive.
    Mr. duPont. Yes. You are correct, sir.

                          DP-2 Thrust Problems

    Mr. Baird. You heard Mr. duPont's testimony about the issue 
of this, I inquired about this tunneling effect of a jet engine 
pointed straight down. When I was a kid, I used to build 
rockets, and boy, if you could hold one of those things on the 
ground, you would blow a hell of a hole in the dirt with just 
an Estes rocket, and it wasn't trying to lift a cargo load with 
a bunch of people. What about that issue?
    How do you solve that? I mean, we are talking an aircraft 
filled with Marines and equipment and all of that. How do you 
solve that issue, that the Harrier, apparently, as our 
experienced test pilot and actual command pilot, has asserted? 
If it is flying, hovering vertically over an unprepared field, 
it burrows a hole, and flies a bunch of junk into the air, and 
sucks it back into the intake, and ruins the jets, so you can't 
take back off. How do you solve that with this craft?
    Mr. duPont. I don't know what credibility you want to put 
on this, but DARPA published a curve, in connection with that 
1990 or some earlier review, that said that with the mixed 
exhaust that the DP-2 engine has, the airplane can hover over 
sod and asphalt.
    Mr. Baird. With what consequences?
    Mr. duPont. None.
    Mr. Baird. Really? Because it just seems to me the key 
element.
    Mr. duPont. The difference is the mixed exhaust temperature 
of 400 degrees is, and of course, it mixes with the outside 
air, and is cooler now when it hits the ground, it doesn't like 
vaporize the sod, like----
    Mr. Baird. No, I think it is just a question of force. I 
mean, for every action, there is an equal and opposite 
reaction. What is this craft projected to weigh fully loaded?
    Mr. duPont. It is, fully loaded and hovering, maybe a 
little over 50,000 pounds.
    Mr. Baird. So, somewhere, you have got to--and what is the 
radius of the exhaust thrust projecting down into the ground? 
Well, the radius times three, versus----
    Mr. duPont. Well, let us say it is a rectangle 180 inches 
by 40 inches.
    Mr. Baird. Well, 100 inches by 40 inches, I could do that 
here, and how much pounds does that rectangle have to lift up? 
You just said and I forgot. I am sorry.
    Mr. duPont. 50,000, over 50,000 pounds.
    Mr. Baird. So, I am going to lift 50,000 pounds with a 
rectangle about the size of my desk here, 100 inches by 40 
inches, and that is not going to cause some burrowing effect, 
regardless of the temperature?
    Mr. duPont. No, the wind effect is much less important than 
the temperature effect.
    Mr. Baird. But you have still got to lift. I mean, let me 
ask it this way. Would you put a 50,000 pound object, 
stationary object, let alone a forced object, stationary 
object, on a square block of 40 inches by 100 inches, on a dirt 
or sand field, and expect it to not fairly significantly impact 
that field? It seems like a lot of weight.
    Mr. duPont. It is going to have considerable pressure, but 
so does your foot.
    Mr. Baird. Well, actually, I think it is an apt analogy. My 
foot is about 12 inches long by about four inches wide, and it 
holds 200 pounds, so that is roughly 12 square inches. Yours is 
about 4,000 square inches to hold 50,000 pounds. I just 
question this burrowing thing, and I think you would have to 
really look into that. Again, if it is a short takeoff and 
landing, that may be another thing, and that may well be worth 
looking at, but I think the whole truth, if Mr. Hunter is 
arguing, on one hand, in his testimony, that we need a vertical 
takeoff landing thing, like a helicopter, that powers by jets, 
the whole truth is that has significant problems with it, as I 
think our experts have suggested, and that may be why some 
other aircraft manufacturers have not advocated for it.
    I thank the gentleman for his time, and I admire, and I am 
a great fan of space exploration, and air flight, and admire 
people with new ideas, but not all of them work, and at some 
point, you just have to say the physics doesn't pencil out, and 
therefore, we shouldn't pump the money in.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Baird. Sure, because I have no time left.
    Mr. Rohrabacher. Would you be supportive of research into 
areas that are not a for-sure payoff, and going to for-sure 
come out with a result? Are things like vectoring thrust worthy 
of research?
    Mr. Baird. Of course it is worthy of research, but I think 
the fundamental question is if mathematically, I can say that 
this amount of thrust is generating this amount of force, in 
order to sustain this weight at this velocity, it is going to 
have some consequences over X, Y, or Z surface.
    Mr. Rohrabacher. Is it worth researching that?
    Mr. Baird. It is worth researching, but it is not worth----
    Mr. Rohrabacher. Okay. That is----
    Mr. Baird.--misrepresenting the capability, and it is not 
worth selling the taxpayer on something that it can't perform.
    Chairman Miller. We are about to lose our window for this 
video. Again, Mr. duPont, thank you very much for appearing, 
and we do have one more panel. We do need to be out of this 
room. Well, there is another, this room has other uses at 1:00, 
and we need to be out before that.
    So, thank you, Mr. duPont, very much.
    And if the next panel could take, we have one more panel, 
if they could take their seats.
    Thank you. Our fourth panel represents various federal 
agencies that have been involved with the DP-2. Our first 
witness in this panel, Mr. John Kinzer, is the current DP-2 
program manager and Deputy Director of the Air Warfare and 
Naval Weapons Division of the Office of Naval Research. He is a 
graduate of the U.S. Navy Flight Weapons School and a retired 
Navy Captain. He has flown more than 35 different types of 
aircraft.
    Second is Lieutenant Colonel Michael Tremper. Col. Tremper 
is a pilot for Delta Airlines, and has been the Defense 
Contract Management Agency's government flight representative, 
providing operational oversight of the DP-2 program since 1999.
    Colonel Warren Hall is the Assistant Director for Aviation 
and chief test pilot at NASA's Ames Research Center. He is also 
Chairman of the Office of Naval Research's DP-2 Airworthiness 
Review Panel. He has authored 73 technical reports and flown 
more than 65 different aircraft.
    Ms. Marie Greening is Executive Director, Aeronautical 
Systems Division, Defense Contract Management Agency. She is 
accompanying Lieutenant Colonel Tremper, and will make some 
brief remarks.
    Gentlemen and Ms. Greening, again, you know that we take 
oaths. Do any of you have any objection to taking an oath? All 
right. Do any of you have any strong preference on what kind of 
oath you will take?
    Will you take the standard oath? If you would please raise 
your right hand.
    [Witnesses sworn]
    Chairman Miller. Thank you.
    You also have the right to be represented by an attorney. 
Do any of you have an attorney with you? All right. You will 
each have five minutes. Your written testimony will be included 
in the record. You will have five minutes for oral testimony, 
and when all of you have completed your oral testimony, we will 
begin with questions, and each Member, again, will have five 
minutes.
    Mr. Kinzer.

                               Panel IV:

 TESTIMONY OF MR. JOHN F. KINZER, PROGRAM OFFICER, AIR WARFARE 
             AND WEAPONS, OFFICE OF NAVAL RESEARCH

    Mr. Kinzer. Thank you, Mr. Chairman. I have been the 
program manager of the DP-2 program since May 2003. I am a 
retired Navy Captain with a master's degree in aeronautical 
systems, operational experience in the F-4 and F-14, 680 
carrier landings, and I am a Test Pilot School and Top Gun 
graduate. I have been a program manager at ONR and DARPA for 
the last ten years.
    duPont Aerospace Company has been under contract to ONR to 
demonstrate the capabilities of the DP-2 concept since January 
1998. To do this, they have designed and fabricated a one-half 
scale demonstrator aircraft designated the DP-1. Last fall, the 
program conducted its most concentrated testing since its 
start. Unfortunately, the program did not succeed yet in 
achieving extended hover and also experienced engine operating 
problems in ground effect.
    After an extensive review this spring, the program has just 
re-entered the test phase, which will continue through the end 
of the current contract in December of this year. Right now, 
there are no plans to continue the program beyond the current 
contract.
    Thank you for the opportunity to appear. I will now answer 
any questions.
    [The prepared statement of Mr. Kinzer follows:]
                  Prepared Statement of John F. Kinzer
Mr. Chairman and Members of the Subcommittee:

    I would like to thank the House Science and Technology Subcommittee 
on Investigations and Oversight for providing me with the opportunity 
to testify here today.
    The DP-2 project objective is to develop the technology for a 
vertical take-off transport aircraft that can be used in both military 
and civilian roles. The design concept of the DP-2 aircraft, as 
proposed by the duPont Aerospace Company (DAC), is a transport aircraft 
asserted to be capable of carrying 52 passengers with a range of 
approximately 5,000 miles and a top speed of approximately 545 knots. 
The possible uses of the aircraft include sea-based logistics support, 
search and rescue, as well as special operations for the military. In 
the commercial world the proposed aircraft could potentially provide 
high speed, long-range passenger service to airports with short runways 
or small landing areas.
    The DP-2 concept was originally laid out by DAC in 1972. It was 
formally studied in various forms by the Department of Defense (Air 
Force, Navy, and Advanced Research Projects Agency) at least four times 
between 1984 and 1991. Congress also authorized and/or appropriated 
funds for DP-2 demonstration in Fiscal Years 1988, 1991, 1993, and 
1997. Most of these events centered around the suitability of the 
concept to meet the need for a long range special operations forces air 
exfiltration system. In 1996, DAC did conduct a funded full scale 
demonstration of its thrust vectoring system for the Defense Advanced 
Research Projects Agency.
    Assessments of the DP-2 concept have highlighted several 
significant risks which could potentially require major design changes. 
These include engine failure during vertical takeoff, adverse induced 
flow in ground effect (suckdown), and hot gas ingestion. Other risks 
which could compromise utility include jet blast effects, radar 
signature, limited range/payload, composite material use in the exhaust 
hot section, control instability and cross coupling, low directional 
control power, and noise.
    The current project was initiated in the Office of Naval Research 
in Fiscal Year 1997 with the goal of demonstrating the vertical take 
off system proposed by the duPont Aerospace Company. The development 
plan was first to fabricate two half scale composite demonstrator 
aircraft, with a substantial composite manufacturing subcontract to 
Raspet Laboratory of Mississippi State University. These aircraft, 
designated DP-1, would be used to perform unmanned ground tests to 
demonstrate the thrust vectoring characteristics of the DP-2 aircraft. 
Technical issues to be addressed included suitability of composite 
structure in the exhaust hot section, vertical takeoff performance, 
hover performance and handling, and suckdown and hot gas ingestion in 
ground effect. Test facilities were fabricated and installed at the 
contractor's facility in El Cajon, CA. Following vertical take-off and 
landing and hover tests, the DP-1 aircraft could be used to explore 
conventional flight, with emphasis on transition to and from vertical 
flight. The demonstrator aircraft have been designed for unmanned, 
automated flight control. This allows for an aggressive development and 
test approach without risk to a pilot.
    Progress on the program has been very slow. This can be attributed 
to contractor inexperience, novelty of the design, insufficient funding 
to pursue parallel approaches to reduce risk, and working to short-term 
goals as a result of year-to-year funding. Several significant setbacks 
have been encountered which required component redesign and 
demonstrator aircraft repair. In 2005 it was decided to assemble the 
best components available into a third generation configuration, 
designated DP-1C.
    Recently some progress has been made in out-of-ground effect hover 
tests. Forty-nine hover attempts were conducted from July 19 to October 
5, 2006. None of these attempts resulted in controlled hover for more 
than a few seconds. Data from these tests were analyzed and 
modifications to thrust control and tether configuration have been 
implemented. Hover testing is scheduled to resume later this month. Due 
to the restrictive nature of tethered hover testing, there may not be 
sufficient freedom of maneuver in the existing test facility to achieve 
extended hover. However, given the progress made in conduct of test 
operations, and the design improvements, longer hover durations are 
expected.
    Tests have also been conducted with the aircraft on the ground to 
assess ground effects. These tests have resulted in engine stalls at 
relatively low power, indicating possible hot gas ingestion, pressure 
fluctuations at the inlet due to nose landing gear vortex shedding, or 
inlet cross coupling. Instrumentation and test plans have been 
developed to further investigate this phenomenon later this summer. At 
this time it seems unlikely that full thrust engine operations in 
ground effect are achievable with the current design. Additional data 
will help to identify design changes, if necessary.
    A test fixture for measuring forces and moments generated by the 
thrust vectoring system at all retraction angles and all control 
combinations at up to full thrust has been designed and purchased. 
Installation at the El Cajon facility has begun and is planned for 
completion this summer. These data will provide valuable inputs for the 
manned flight simulator to begin evaluation of handling qualities in 
transition maneuvers between conventional and vertical flight.
    Current program funding provides for development and test 
operations through December 31, 2007. This will allow for conduct of 
the test operations described above. If further funding becomes 
available, testing and design development will continue to focus on 
hover performance and handling and operations in ground effect. These 
can be continued until vertical takeoff and landing can be achieved 
from the ground, and the hover envelope can be expanded to explore wind 
and maneuver limitations. Flight operations beyond low altitude hover 
cannot be undertaken until risk reduction activities, such as wind 
tunnel and/or model testing have been conducted. In addition, the 
aircraft would have to be redesigned to provide sufficient capability 
and reliability to satisfy range safety requirements for the test site. 
This level of complexity would require a substantial increase in 
engineering experience , and a substantially increased level of 
funding.
    Suitability of the DP-2 concept for either military or commercial 
applications has not yet been demonstrated. Data gathered to date do 
not allow for technical conclusions to be drawn, or for the previous 
assessments to be refuted or confirmed.

                      Biography for John F. Kinzer

    John F. Kinzer is a native of Gainesville, Florida, and a 1973 
graduate of the University of Florida, where he earned a Bachelor of 
Science degree in Engineering Science. He was commissioned as an Ensign 
in the Navy in May 1973 through the Aviation Reserve Officer Candidate 
(AVROC) program, was designated a Naval Aviator in May 1975. While in 
flight training, he earned a Master of Science degree in Aeronautical 
Systems at the University of West Florida.
    Navy operational assignments include Operations Officer in Fighter 
Squadron 41, flying the F-14A Tomcat, and Quality Assurance Division 
Officer and Landing Signal Officer in Fighter Squadron 161, flying the 
F-4J Phantom II. He accumulated 680 carrier arrested landings during 
deployed operations. Shore assignments include Tactics Phase Leader and 
Landing Signal Officer at Fighter Squadron 121. While at VF-121, he 
graduated from the U.S. Navy Fighter Weapons School (Topgun). Following 
graduation from the U.S. Naval Test Pilot School in 1981, he served as 
F-4S Project Officer at the Naval Air Test Center Strike Aircraft Test 
Directorate prior to returning to USNTPS as Senior Systems Instructor. 
His flying experience includes over 3,200 flight hours in over 35 
different aircraft types.
    Designated an Aerospace Engineering Duty Officer in September 1989, 
John served in the Naval Air Systems Command at the F-14 Class Desk, 
and with Program Executive Officer, Air ASW, Assault, and Special 
Missions Aircraft, as the T45 Training System Deputy Program Manager 
for Systems Integration. He completed the Program Manager's Course at 
the Defense Systems Management College (DSMC) in June 1990. He was 
assigned as Co-Director of the A-12 Evaluation Team for two years, and 
finally as Deputy Head of the Weapons, Marine Corps and Special 
Programs Department at the Office of Naval Research. He retired as a 
Captain in September 1999.
    John was the Aircraft Technology Program Officer at the Office of 
Naval Research until 2004, then was detailed to DARPA for two years as 
the X-47 Program Manager in the Joint Unmanned Combat Air Systems (J-
UCAS) program. Since returning to ONR in 2006, he has been assigned as 
the Deputy Director of the Air Warfare and Naval Weapons Division. This 
Division has responsibility for the Electromagnetic Railgun Program, 
Future Naval Capabilities, and other demonstration programs.
    Military decorations include the Legion of Merit, two Meritorious 
Service Medals, Navy Commendation Medal, Navy Achievement Medal, Navy 
Unit Commendation, Meritorious Unit Commendation, Battle ``E'' Award 
with two stars, the Sea Service Ribbon with two stars, and several 
others. Civilian decoration is the Defense Meritorious Civilian Service 
Award.
    John is married to the former Virginia Grimes of Amarillo, Texas, 
and has three children; Nicole, Catherine, and John.

    Chairman Miller. Thank you. Mr. Kinzer, you are gloriously 
within your time.
    Mr. Hall. I am not sure your mike is on. You need to press 
the green button until it illuminates.

  STATEMENT OF COLONEL G. WARREN HALL (RET.), NASA AMES CHIEF 
TEST PILOT AND CHAIRMAN OF THE DP-2 AIRWORTHINESS REVIEW PANEL; 
     ASSISTANT DIRECTOR FOR AVIATION, AMES RESEARCH CENTER

    Colonel Hall. Here we go. Mr. Chairman, Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to discuss my technical knowledge of the duPont 
Aerospace Company's DP-2 aircraft program. Since I have 
submitted a detailed statement for the record, I will keep my 
introductory remarks short.
    My testimony today is based on my technical background as 
the Chairman of the NASA Ames Research Center's Airworthiness 
and Flight Safety Review Board, which evaluated the DP-2 
aircraft while funded by two Congressional earmarks to NASA in 
Fiscal Year 2002 and Fiscal Year 2003. Separate from that 
funding directed by Congress, NASA has never included funding 
for the DP-2 in the agency's budget requests.
    As Chairman of the NASA's Airworthiness and Flight Safety 
Review Board, I assembled a team of highly qualified experts to 
review the DP-2 program. Under NASA's procedures, an 
airworthiness flight safety review has the authority to allow a 
project to proceed, or require further documentation or 
demonstrations to satisfy any airworthiness and flight safety 
concerns of the Board. The NASA Board met in July 2003.
    When NASA's earmarks concluded at the end of Fiscal Year 
2003, the Navy began overseeing the flight requirements for the 
DP-2 program, given that the Navy was continuing to receive 
Congressional funding for the program. At the Navy's request, I 
and several other members of NASA's Airworthiness Review Board 
were asked to continue serving as technical experts to the 
Navy, which was now solely in charge of the DP-2 program. I was 
asked to remain and serve as their Chairman.
    My technical expertise was and is paid for by the Navy via 
reimbursable work agreement, which means that the Navy has paid 
NASA for my travel related to any activities as a technical 
advisor on this program. NASA also has provided the Navy with 
other technical expertise, and loaned equipment on a short term 
basis related to the DP-2 program.
    Mr. Chairman, that concludes my introductory remarks. I 
will be happy to answer any questions.
    [The prepared statement of Colonel Hall follows:]

                  Prepared Statement of G. Warren Hall
 
   Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss my technical 
knowledge of the duPont Aerospace Company's DP-2 aircraft program.
    My testimony today is based on my background as the Chairman of the 
NASA Ames Research Center's Airworthiness and Flight Safety Review 
Board (AFSRB), which evaluated the DP-2 aircraft while funded by two 
Congressional earmarks to NASA; one in FY 2002 for $3 million, and the 
other in FY 2003 for $4.5 million. Separate from the funding directed 
by Congress, NASA has never included funding for the DP-2 in the 
Agency's budget requests. For the Subcommittee's information, I have 
appended to my testimony a copy of NASA's July 2003 report from the 
AFSRB, which I chaired.
    I continue to serve as a member of the Navy's Airworthiness Review 
Panel, which is currently overseeing the flight requirements for the 
DP-2 program. My technical expertise was, and is, paid for by the Navy 
via a reimbursable work agreement, which means that the Navy has paid 
NASA for my travel related to my activities as a technical advisor 
since FY 2004. NASA also has provided the Navy with other technical 
expertise and loaned equipment on a short-term basis related to the DP-
2 program via the same reimbursable work agreement.
    In the invitation to testify, you asked that I address five issues. 
The remainder of my testimony addresses these five issues as outlined 
below.

1.  Please provide an overview of your role with the DP-2 program as 
Chairman of the DP-2 Airworthiness Review Panel and when and why the 
panel was created.

    NASA became involved with the duPont DP-2 aircraft in FY 2002 when 
Congress earmarked $3 million to NASA, for the ``purchase of two 
upgraded jet engines requiring configuration changes to the DP-2 
Vectored thrust testbed aircraft.'' NASA has well-defined requirements 
that must be met for NASA-related aircraft projects. One of these is 
that all aircraft used to conduct flight operations with NASA personnel 
or NASA equipment on board must meet NASA approved airworthiness and 
operational safety standards. This policy requires that an AFSRB 
oversee aircraft operations, with the board having final approval 
authority for all flight operations. NASA is one of the few agencies 
with the authority to certify aircraft.
    The funding directed by Congress was managed by NASA's Glenn 
Research Center (GRC), making GRC responsible to meet the NASA 
requirements for the AFSRB approval for the duPont DP-2 aircraft. Given 
that the aircraft was located on the West Coast and given that NASA 
believes that work should be located wherever there is technical 
expertise, GRC requested that NASA's Ames Research Center (ARC) accept 
responsibility for evaluation of the DP-2 by ARC's standing AFSRB 
because ARC has technical expertise in vertical lift aircraft and is 
located in Mountain View, California.
    In FY 2003, Congress again earmarked funding to NASA of $4.5 
million for the ``DP-2 Vectored Thrust Program.''
    In 2003, I was Chair of the NASA Ames' AFSRB. As Chair, I have the 
authority to identify experts to serve as board members to accomplish a 
comprehensive flight safety review. A highly qualified team was 
assembled for the DP-2 review. The AFSRB has the authority to allow a 
project to proceed or require further documentation or demonstrations 
to satisfy any airworthiness and flight safety concerns of the Board. 
The NASA AFSRB review occurred at the duPont facility on July 29-31, 
2003. Teleconference calls were more frequent, but they were not 
considered a part of the formal AFSRB review process.
    NASA did not receive further direction from Congress regarding the 
DP-2 aircraft following the FY 2003 earmark. Consequently, the NASA 
requirement to provide airworthiness authority over the DP-2 was no 
longer required. Once the Navy was solely financially responsible for 
the DP-2 program, the Navy's Airworthiness Review Panel, through the 
Office of Naval Research (ONR) had, and continues to have, the 
responsibility for the final flight approval either through the Naval 
Air Systems Command or through the Federal Aviation Administration.
    However, the Office of Naval Research and duPont believed the NASA 
AFSRB was doing a good job and thus asked some of the AFSRB members, 
myself included, to continue serving as technical experts to the DP-2 
program given that the Navy was continuing to receive Congressional 
earmarks for the program. In February 2004, the Navy and NASA entered 
into a Space Act Agreement, which included a provision for the Navy to 
reimburse NASA for my travel spent as a technical expert on the DP-2 
program. NASA also has provided the Navy with other technical expertise 
and loaned equipment on a short-term basis related to the DP-2 program 
via the same reimbursable work agreement.
    In short, my current role on the Navy's DP-2 Airworthiness Review 
Panel is as a test pilot/flight controls/safety representative and as 
its Chairman.

2.  As Chairman of the DP-2 Airworthiness Review Panel, please describe 
the key technical and safety factors inhibiting the successful flight 
of DP-2.

    Below are some observations as a technical expert in this field:

        <bullet>  The complex flight control system is the biggest 
        technical problem. The flight control system in the DP-2 is 
        mechanically simple, but dynamically complex. Unlike most 
        airplanes the DP-2 has what is known as a ``non-minimum phase 
        zero'' response to a control input. This means the aircraft 
        starts in the wrong direction for almost a full second before 
        it goes in the direction requested. While not an Achilles heel, 
        the flight control system requires very high frequency inputs 
        to reduce this delay to a flyable time. The control system 
        responses are also highly coupled, in that a control input in 
        one axis creates an attendant movement in another axis.

        <bullet>  It is not obvious that the current composite 
        materials will withstand the high temperature environment 
        required to provide aircraft lift and control.

        <bullet>  The required expertise to accomplish the task does 
        not currently exist at duPont Aerospace.

3.  Please describe the key management factors that you believe are 
attributable to the duPont Aerospace Company that have hindered the 
success of the DP-2 program.

    While the DP-2 vertical-lift aircraft may be an interesting concept 
worth exploring, I do not believe the duPont company has the necessary 
technical expertise required for this project. While a flight control 
simulation model now exists, it has yet to be proven that it represents 
the real airplane. DuPont's insistence in trying to fly the airplane 
within the current restrictions of the tethered area has resulted in 
several hard landings. NASA's AFSRB and the follow-on Navy Review Panel 
have consistently requested that duPont increase the usable flight test 
area by a significant amount. Many of the recommendations of the AFSRB 
were ignored. For example, the Board was very specific that the only 
time a pilot would be in the aircraft was to start the engines and 
accomplish checkout at idle. The pilot clearly exceeded the idle limits 
during the incident on November 16, 2004, when a structural failure 
occurred.

4.  Please briefly describe each specific mishap or accident with the 
DP-2 aircraft and the technical and management factors that contributed 
to each event.

    My expertise as the AFSRB Chairman is of a technical nature, and 
therefore I am best qualified to comment on the technical issues 
related to the following mishaps and accidents:

        1.  November 2, 2003--The DP-2 airplane experienced a hard 
        landing resulting in damage to the left and right main landing 
        gear attach points and the thrust vectoring mechanisms beneath 
        the fuselage. Additional damage to both wing tips and the left 
        tether attachment point was sustained. It was concluded that 
        the loss of the dGPS carrier signal, combined with the 
        simultaneous reading of zero for the height rate signal caused 
        the accident. The AFSRB concurred with this finding.

        2.  November 16, 2004--An internal structural failure resulted 
        in damage to the nozzle box, keel, cascade mechanism, thrust 
        vectoring controls, cabin floor, cabin door latch mechanism, 
        pilot's seat floor mounting brackets, and a computer cooling 
        fan blade. One or both lower doors were jammed against the 
        nozzle box floor preventing full motion of the cascades 
        resulting in keel failure. The most probable cause was 
        debonding in the area of the carbon insert encapsulating the 
        ``Dog Bone.'' While not related to the structural failure, the 
        pilot exceeded the AFSRB's instructions that engine rpm shall 
        not exceed idle RPM when a pilot is in the cockpit. The AFSRB 
        concurs with this finding.

        3.  April 25, 2006--The DP-2 experienced a failure in a carbon 
        composite insert and a titanium piece which holds the cascade 
        pivot and cascade actuator. The failure resulted in damage to 
        the nozzle box keel, left nozzle box sidewall, control rod for 
        thrust vectoring controls, cabin floor, the cabin door and 
        frame and the number two engine inlet. The AFSRB concurred with 
        this finding.

        4.  August 8, 2006--The DP-2 experienced a hard landing 
        resulting in damage to the wing skin near the landing gear 
        attachment. The most probable cause was an unknown altitude 
        rate bias in a loaner Inertial Navigation System causing excess 
        rate of climb. The AFSRB concurred with this finding.

5.  Since the DP-2 Airworthiness Review Panel was established in 2003, 
what has the duPont Aerospace Company accomplished on the DP-2 program?

    Based on my continued advisory role, I can summarize some of the 
program's accomplishments as follows:

        <bullet>  The structural components have been improved;

        <bullet>  The hot gas ingestion problem has been recognized and 
        tests performed to help reduce its deleterious effect in hover; 
        and,

        <bullet>  An improved flight controls simulation model now 
        exists. However, the short hover times have precluded 
        confirmation that the model matches the real airplane.

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear before you today. I would be happy to answer your 
questions.

Attachment

                    DP-1 Airworthiness Review Panel
                            July 29-31, 2003

                              Panel Report

    This report presents a summary of the Airworthiness Review Panel 
(ARP) findings following the meeting at the duPont Aerospace Company 
(DAC) on July 29-31, 2003. The report is presented in two sections. The 
first section contains the principal findings regarding testing of the 
DP-1 aircraft and the second section contains suggestions/
recommendations that DAC may wish to incorporate into their program 
plan.

I.  Principal Findings: Flight Safety Action items and Approval for 
test

1. DAC is authorized to conduct tethered unmanned autopilot controlled 
hover, OGE and IGE. The GFR (Major Temper) must still sign and approve 
the day-to-day flight release documents and the tests should be 
conducted in accordance with the Test Plan for Tethered Hover dated 2 
July 03, with Change 1.

2. The current level of design and testing of the DP-1 aircraft is not 
mature enough to allow manned flight--tethered or untethered. Another 
panel review must be accomplished prior to tethered manned operation.

3. In preparation for the next test block approval (manned tethered 
hover, OGE, and IGE), DAC must address each of the following action 
items and present the results to the ARP at the next review meeting. 
This review should concentrate on the DP-1 vehicle only.

        a.  A strong configuration management program is required and 
        very close attention must be paid to how a configuration change 
        might affect the characteristics of the original configuration. 
        It has always been a good philosophy to test what you fly and 
        fly what you test. With the limited amount of testing proposed, 
        it is vital that the implications of any change, especially as 
        it might affect safety, be fully evaluated. As part of this 
        program, identify DP-1 aircraft and engine configurations for 
        different tests (already accomplished and in the future).

        b.  Present data obtained from the autopilot controlled 
        unmanned tethered hover tests. Establish through these tests 
        and information that the DP-1 aircraft can be safely and 
        reliably controlled in hover with the autopilot installed and 
        operating.

        c.  Implement a viable Safety and Quality Assurance Program 
        that includes Test Hazard Analysis and Failure Modes and 
        Effects Analysis (FMEA).

        d.  Establish normal and emergency procedures to be followed 
        during the manned tethered hover testing.

        e.  Develop a means to ensure that the air quality in the 
        aircraft is acceptable for extended occupancy under test 
        conditions.

        f.  Convincing evidence must be presented to the panel on the 
        measured forces and moments that will be available to control 
        the aircraft with the cascade locked at 90<SUP>+</SUP> and the 
        control box moving. The lack of hard information in this area 
        leads the panel to question the validity of the flight 
        simulator.

            There is also a need to further verify the validity of the 
        fixed based simulator by comparison with flight test data from 
        tethered hover, autopilot installed and operating. The need is 
        to demonstrate that the aircraft can be safely and reliably 
        controlled by the pilot in hover through the use of pilot-in-
        the-loop simulations with and without the autopilot operating. 
        Present the results of test practice in the piloted simulation, 
        updated to reflect the results of testing to date. A valid 
        flight simulator is required for pilot training and flight test 
        preparation. It is imperative that any configuration changes 
        that influence the handling qualities be documented and 
        included in the simulation. This is a major safety of flight 
        action item.

            [It will be desirable to hear a report from Ron Gerdes if 
        he has an opportunity to fly and assess the simulator before 
        the next ARP meeting.]

        g.  Provide information and results on the methods used to 
        determine the thrust loss through the cascade plus control box. 
        An independent measurement(s) [other than the current flow 
        analysis] could give greater confidence in the thrust loss 
        values. It is suggested that DAC consider the suggestions 
        presented in Section II, item 8, of this report.

        h.  Complete for review an updated stability analysis of the 
        aircraft and control system, and control analysis including the 
        most up-to-date actual control system characteristics. [Suggest 
        using Geneva's six degrees of freedom simulation.] Include 
        stability analysis of altitude control, as well as lateral 
        position/attitude control. Include cases with a man-in-the-loop 
        model. Show time histories of simulated control scenarios. 
        Include Monte Carlo analysis to show the cumulative potential 
        effect of all tolerances and uncertainties.

            It may be difficult to develop a control scheme that will 
        handle the long non-minimum phase response to a control input. 
        Observations of the pilot flying the simulator without the 
        autopilot were indicative of an acceleration controller, a 
        difficult control system to fly because of the requirement for 
        continuous attention to control. The excellent stability of the 
        autopilot mode, however, indicates there was an acceptable 
        method of handling the non=minimum phase response but it was 
        never revealed what it was. Past experience with fly-by-wire 
        systems indicates that a simple response lag of 0.1 to 0.2 
        seconds often resulted in limit cycles or unstable responses.

        i.  Update the test plan, limits document, and training plan.

        j.  Provide substantiation (analyses, tests, similarity, etc.) 
        of the structural limits of the landing gear and its 
        attachments when subjected to a high sink, sideslip, or one 
        wheel landing, that could occur during hover testing.

        k.  Present a structural substantiation and service history to 
        date for the items in the jet exhaust (especially vanes, 
        pushrods and attachments). Emphasis should be placed on the 
        expected service life of these components.

        l.  Identify flight critical items and insure that any that are 
        replaced and/or modified are reviewed for time at power 
        settings to determine safest configuration for manned tethered 
        flight. Only fly an approved configuration with particular 
        attention to the operating times of components especially those 
        subjected to high temperatures. A criterion for critical parts 
        should be established and adhered to. As part of this action 
        item, identify required inspections of cascade box, vanes and 
        control box and vanes prior to manned tethered flight. The 
        panel believes there should be an ``endurance'' test of the 
        power train, including cascades and control vanes. Toward this 
        end DAC should specify the time and power for this endurance 
        test for ARP approval.

        m.  Present a further review (including analyses and simulation 
        results) of emergency procedures that will be used in the event 
        of an engine failure while in the tethered hover mode (IGE or 
        OGE).

        n.  The control system configuration must be carefully managed. 
        If the system to be used in tethered hover testing does not 
        have all surfaces, artificial feel packages, conventional 
        flight trim system hardware, etc. installed, then this must be 
        consistently replicated in all analyses and simulations since 
        these items may influence the response of the control system in 
        the hover mode. Prior to free flight all these devices must be 
        in the aircraft, and if this is different from the tether test 
        configuration the tests must be repeated.

4. The current level of engineering substantiation and program planning 
and control fall well short of what will be necessary to conduct safe 
and productive free flight (both thrust-borne and conventional) tests. 
The risk mitigation provided by the tethers allows tethered testing to 
proceed for the time being. However, prior to free flight tests 
substantial progress must be made. The following are areas that require 
action.

        a.  Testing and analyses to substantiate airworthiness in all 
        functional areas (structures, aero, propulsion, flight 
        controls, subsystems, flutter, avionics, etc.) is needed.

        b.  A further review of aircraft systems will be required 
        including FMEAs (for the planned flight conditions) and the 
        results of any systems tests--specifically identifying single 
        point failures and their risk mitigation.

        c.  Additional reviews will also be required in the following 
        areas:

                <bullet>  Aircraft maintenance program

                <bullet>  Aircraft software validation and verification 
                plan

                <bullet>  Flight test program history and reliability

        d.  Quality control plan developed and fully implemented.

        e.  All aircraft components individually reviewed for 
        airworthiness; compiled in a database with airworthiness 
        rationale (environment established and suitability by qual 
        test, similarity, etc.) All parts exposed to an endurance test 
        in the jet exhaust should be inspected prior to manned flight. 
        (see also item 3l).

        f.  Complete test documentation (detailed test plan, test 
        hazards analysis, training plan, normal and emergency ops, 
        limits document)

        g.  From a structural integrity perspective, the following will 
        be needed. Low speed (< 200 ktas)--detailed review to include:

                <bullet>  external flight and landing loads

                <bullet>  composite material qualification data

                <bullet>  stress analyses of airframe and flight 
                control system

                <bullet>  test data from coupons, elements and 
                subcomponents

                <bullet>  proof load test plan and results

                <bullet>  aeroelastic substantiation (flutter, 
                divergence, aileron reversal)--include consideration of 
                balance weights in the control surfaces

                <bullet>  an aircraft structure Failure Modes and 
                Effects Analysis including hazard analyses

            High speed (>200 ktas)--A repeat of items in the above 
        list, except a more stringent requirement. Loads analyses 
        should include aeroelastic and compressibility effects. 
        Rational flutter analysis and a ground vibration test will be 
        recommended. A variable frequency inflight excitation system, 
        with appropriate frequency range will be recommended for 
        envelope expansion above 200 ktas. A telemetry system with 
        appropriate sensors will be recommended.

        h.  A Failure Modes Analysis of the software should be 
        accomplished to identify any unsafe failure modes. Critical 
        paths should be identified and shown to be reliable and-
        controllable. This is especially important since the autopilot 
        system is single string. It should be demonstrated that the 
        autopilot design is adequate and reliable prior to piloted 
        flight.

        i.  More information will be needed on pilot emergency escape 
        systems and procedures. Serious consideration should be given 
        to the addition of an ejection seat system. And a good field-
        of-view is highly desirable during the ``build-down to V/STOL 
        (powered lift) flight conditions at altitude.

        j.  More analysis and substantiation data is need on the fuel 
        management system and CG control. Automated fuel transfer is 
        required to reduce pilot workload and assure proper CG location 
        as fuel is being consumed, especially during V/STOL operations. 
        A center of gravity vs. fuel consumption diagram should be 
        provided.

        k.  It doesn't appear that the DP-1/DP-2 configuration has a 
        VTO OEI capability, and the engine failure ``dead zone'' 
        analysis seems overoptimistic. Calculate actual dead zone 
        dimensions for takeoff, landing and hover cases using updated 
        data. Include control effects: loss of directional control, and 
        need to roll away from dead engine to maintain control.

            The vertical take off procedure is to first lift to a 10-
        ft. hover followed by a transition to forward flight with 
        thrust vector (cascade) movement. In the event of an engine 
        failure, the procedure is to nose down a little and vector-out. 
        A two to 10 second thrust decay is assumed in the calculation. 
        At 10-ft., the aircraft is probably still in ground effect, 
        which would reduce single engine performance. A mechanical 
        failure would be more instantaneous and nosing over in 
        combination with `vector out' would probably cause the aircraft 
        to fall to the ground. This is OK on a long runway, but 
        hazardous when operating from a pad for instance.

        l.  An accurate and sensitive air data system is needed during 
        V/STOL flight test for a number of important reasons: 1) for 
        pilot reference, especially during the build-down to powered 
        lift flight, 2) for flight test data documentation and 
        analysis, 3) for control room flight test monitoring, and 4) 
        for autopilot and SCAS air data input requirements. Details on 
        the proposed system will be needed.

        m.  There will probably be other ``unknown Handling Qualities 
        Issues'' that must be addressed. The following is a short 
        listing of other issues that could impact handling qualities

                 Tether-induced moments

                 Ground effect induced forces and moments

                 Control actuator bandwidths--dynamic response

                 Autopilot and/or SCAS failure control transients

                 Control servo or boost failure controllability

        n.  A stall in one engine may interact with the inlet of the 
        other engine. When one engine goes out, it leaves pressure 
        surges in various places that could potentially interrupt the 
        operation of the nearby second engine. Likewise, the failing 
        engine could also leave vacuum like conditions in various 
        places that could influence the behavior of the second nearby 
        engine. DAC needs to address this, probably by running test 
        stand tests, and perhaps by analysis.

        o.  Demonstrate that the CMa inversion around 12<SUP>+</SUP> to 
        20<SUP>+</SUP> angle of attack is not a serious concern with 
        respect to very low speed flight. As reported by DAC at the 
        meeting, this inversion was observed on other F-8 super-
        critical wing data and seems to be very Reynolds number 
        sensitive. So much so that for the full scale Reynolds number 
        corresponding to conventional flight of the DP-1 aircraft it 
        appears that the inversion is almost wiped out. But as the 
        aircraft is slowed down (as it transitions to hover with lower 
        and lower Reynolds numbers) there is a possible pitch up.

            Note that panel member Ron Gerdes flew one (the last) 
        evaluation flight in the Vought F-8 SCW aircraft which included 
        approaches to stall and other slow flight evaluations. The 
        longitudinal flight control system of the basic F-8A was 
        modified (command augmentation system or CAS) with an apparent 
        rate command + attitude hold system to `stiffen the pitch 
        axis.'

        p.  Hot gas ingestion and suckdown have been major issues on 
        practically every VTOL plane to date. It was very troublesome 
        on Harrier and JSF, although the thrust levels on these two 
        types of planes were much higher than DP-1. In ground effect 
        testing must be designed to address this:

                (1)  Test Airplane DP-1 must sit on its landing gear 
                which in turn sits on the ground.

                (2)  The ``FLAT'' ground must extend out for hundreds 
                of feet in all directions.

                (3)  Ground surface under, and near the plane, should 
                be solid.

                (4)  Accurate force and moment measurements must be 
                taken as described in paragraph 3.e. above.

                (5)  Optical and IR measurements should be taken to 
                more thoroughly characterize the hot gas flows. (NOTE: 
                NASA GRC has volunteered to help with these 
                measurements.)

II.  Suggestions, Additional Recommendations and Comments

    The following are suggestions that may prove helpful in managing 
the program or conducting tests.

1. Suggest the use of DP-1A to represent the aircraft as it existed 
with P&W 530 engines, DP-1B same as 1A with 535A engines, DP-1C new 
fuselage, MOD wing attachments and 535A engines, etc.

2. Identify DP-1 Master Test Plan with aircraft configuration (DP-1A, 
DP-1B, etc.) and put major milestone accomplishments into phases.

3. In addition to the Master Test Plan mentioned above, an overall 
integrated program plan is needed that shows all testing, including 
building block tests (e.g., wing proof test) and configuration changes 
(e.g., fuselage change, cascade change).

4. All data presented should include standard legend: configuration, 
date, test conditions.

5. Aircraft instrumentation appears to be very limited. Analysis to 
substantiate test progression, envelope expansion and performance 
prediction will be severely hampered if test data are incomplete.

6. Measurements of the mechanical distortions of the cascade and 
control box while the engines are running would help in further 
sensitivity studies using the Genevas's six degree of freedom 
simulation that is set up with the automatic flight control system. At 
the present time we are guessing at what these mechanical distortions 
may be and it would appear that a few measurements could lead to many 
beneficial runs on the simulator--thus saving run time on the test 
stand. At the very least it would be very desirable to instrument the 
control surface positions while the engines are operating.

7. Wind tunnel measurements of the gas flow in the cascades would be 
useful. As the cascade is retracted from 90 degrees the flow entering 
the cascade will be at some off design angle. The possible flow 
separation and blockage effects for these off design positions could be 
determined from a well designed set of wind tunnel tests. The side 
walls could be made of transparent material for optical visualization 
of the flow. This would be helpful in determining the cascade 
effectiveness at these partially retracted positions; and these 
measurements could also include tests with the control box installed to 
help determine the exit flow angles.

8. Perform wind tunnel tests of the flow mixer under realistic flow 
conditions to determine effectiveness of the mixer design and 
temperature uniformity and levels of the flow upstream of the cascade. 
The tests can be done on a scaled down model however the Mach number 
ratio and temperature ratio must match those for the real engine.

9. DAC should consider measuring engine N1 (plus P&W cycle deck), fuel 
flow, and aircraft weight to obtain an accurate measure of the vertical 
thrust coefficient. A bigger payoff would be obtained by installing 
load cells on solid piers that are mounted down through the test stand 
into the hard ground below. Force measurements on those load cells 
should provide accurate thrust measurements and those values could, in 
turn, be used to calculate the control moments acting on the aircraft.

10. Before low speed taxi tests are begun, and prior to being moved to 
the flight test facility, the DP-1 aircraft could be disassembled, 
fitted with the improved fuselage, and have all of the new flight test 
instrumentation and wiring installed.

11. The basic objective of demonstrating VSTOL performance, stability 
and control from hover through transition to and from conventional 
flight could be accomplished without the degree of envelope expansion 
contemplated for the conventional flight test program, i.e., Mach 0.95, 
VCAS 355 kts, altitude 50,000 ft. In order to approve the DP-1 for 
these tests, considerably more substantiation, involving analysis and 
test, will probably be required.

12. It might be noted that the use of a steel grid platform only 
slightly larger than the aircraft overall length and wingspan, located 
approximately 10 feet above the ground may not be a valid 
representation of true out of ground effect operation.

13. It was not obvious that the wind tunnel data was applicable to the 
DP-1 configuration. Additional wind tunnel data would be very useful.

14. Any person who has to be near the engine inlet at above idle power 
must be tethered.

15. The final decision with respect to flight risk assessment by DAC 
should rest with the Test Pilot, Larry Walker.

16. The overall programmatic/demonstration approach outlined by DAC 
appears reasonable, namely:

                1.  Tethered hover out of ground effect, no pilot on 
                board

                2.  Tethered hover in ground effect, no pilot on board

                3.  Tethered hover in and out of ground effect, pilot 
                on board with autopilot and pilot only

                4.  Low speed taxi tests

                5.  Free flight hover tests from lift off to 20 foot 
                altitude

                6.  High speed taxi tests

                7.  Conventional flight tests, envelope expansion

                8.  Transitions from conventional flight to jet-borne 
                flight

                9.  Vertical takeoffs and landings

                      Biography for G. Warren Hall
    After graduating from the University of Virginia in 1960, with an 
undergraduate degree in Aeronautical Engineering, Mr. G. Warren Hall 
became a Naval Aviator logging more than 300 carrier landings in the 
F3B Demon and F4B Phantom II aircraft.
    Mr. Hall began his flight test career in 1965 as an Engineering 
Test Pilot with Cornell Aeronautical Laboratory of Cornell University 
where he logged over 100 hours in the Bell X-22A V/STOL aircraft. While 
at Cornell, he completed a Master's Degree in Aerospace Engineering. He 
also has a MBA from the State University of New York at Buffalo, New 
York.
    Mr. Hall joined NASA's Ames Research Center in 1977 as a Research 
Test Pilot. He has flown over 65 different types of aircraft including 
the X-14B, XV-15 and the unique Rotor Systems Research Aircraft. He is 
a Fellow in the Society of Experimental Test Pilots. At NASA he has 
served as the Director of the Flight Research and Airborne Science 
Directorate and the Safety, Environmental and Mission Assurance 
Directorate. He is currently the Assistant Director for Aviation at 
Ames. He was awarded a NASA Exceptional Service medal in 1994 and a 
NASA Outstanding Leadership medal in 2000.
    He completed 28 years of military service before retiring as the 
Commander of the California Air National Guard's 129th Rescue and 
Recovery Group at Moffett Field, California with the rank of Colonel. 
He was awarded the Air Force Legion of Merit in 1989.
    Professionally, he has authored 28 technical reports and 45 
technical papers or journal articles.
    In December 2003, the San Francisco Chapter of the American 
Institute of Aeronautics and Astronautics designated Mr. Hall as a 
``Living Legend of Aerospace.'' In November 2004, Mr. Hall was inducted 
into the Virginia Aviation Hall of Fame.

    Chairman Miller. Also gloriously within the time allowed. 
Lieutenant Colonel Tremper.
    Lieutentant Colonel Tremper. Sir, I would like Ms. Greening 
first.
    Chairman Miller. Okay.

     STATEMENT OF MS. MARIE GREENING, EXECUTIVE DIRECTOR, 
  AERONAUTICAL SYSTEMS DIVISION, DEFENSE CONTRACT MANAGEMENT 
                             AGENCY

    Ms. Greening. Yes. Sir, I am the Director of the 
Aeronautical Systems Division at Defense Contract Management 
Agency. DCMA is the Department of Defense component that works 
directly with defense suppliers to help ensure that DOD, 
federal, and allied government supplies and services are 
delivered on time at projected costs, meeting all performance 
requirements.
    One of DCMA's roles is to serve as the in-plant 
representative for military, Federal, and allied government 
buying agencies, both during the initial stages of acquisition 
cycle, and throughout the life of the resulting contracts. The 
assurance of safe ground and flight operations at these defense 
plants is included in DCMA's mission area.
    With me today is Lieutenant Colonel Michael J. Tremper, 
United States Air Force Reserve. Lieutenant Colonel Tremper is 
presently assigned to the 4th Air Force Headquarters Plans and 
Programs Staff at March Air Reserve Base in Moreno Valley, 
California. From 1999 through 2006, Lieutenant Colonel Tremper 
was assigned to the DCMA District West Flight Operations in 
Carson, California, and DCMA Palmdale, California, where he 
served as the government flight representative, or GFR, for 
several programs being procured by various agencies, including 
the Missile Defense Agency, the Defense Advanced Research 
Projects Agency, the Office of Naval Research, and the National 
Aeronautics and Space Administration.
    Lieutenant Colonel Tremper served as the GFR for programs 
ranging from unmanned aerial vehicles to manned airborne sensor 
platforms. Included in these programs was the duPont DP-2. 
Currently, in response to critical manning levels, Lieutenant 
Colonel Tremper maintains concurrent responsibilities as the 
GFR for DCMA Palmdale, California, as well as performing his 
duties at the 4th Air Force Headquarters Staff.
    As the GFR, his primary responsibility is to ensure 
compliance with the tri-service contractor flight and ground 
operations instructions. In addition to his military duties, he 
is a Boeing 767 international pilot for Delta Airlines, and I 
present to the Subcommittee Lieutenant Colonel Michael Tremper, 
United States Air Force Reserve.

                      Biography for Marie Greening

    Ms. Marie Greening is a native of Johnstown, Pennsylvania, a 
graduate of the Pennsylvania State University with a Bachelor of 
Science degree in Chemical Engineering and holds a Master's of 
Engineering degree from the North Carolina State University.
    She began her career in government service in at the Naval Aviation 
Depot, Cherry Point, North Carolina, providing engineering support to 
production line and component overhaul activities for six aircraft 
types and developing advanced composite repair schemes for military 
aircraft. She subsequently transferred to the Naval Air Systems Command 
(NAVAIR) Headquarters in and began a ten-year association with the F/A-
18 aircraft program. She first reported as the configuration manager 
and depot programs coordinator, responsible for the fielding of new 
system support and the scheduling and management of aircraft and 
component overhaul. Her next assignment was as the lead structural 
engineer for the F/A-18 aircraft, responsible for the structural 
integrity of the air vehicle system. She was next appointed as the 
Product Support Team Leader for International Programs. In this 
capacity she was integral to the sale of Hornets to the governments of 
Switzerland and Finland, the restoration of aircraft support 
capabilities by the government of Kuwait in the post-Desert Storm time 
frame, and the support of F/A-18s procured by the governments of 
Canada, Australia, and Spain. She was then promoted as the Product 
Support Team Leader for all F/A-18 aircraft and her responsibilities 
included logistics program management for 850 fielded USN/USMC 
aircraft, program development for the E/F variant and international 
program support. Marie was then selected as the Principal Deputy for 
Aviation Support Equipment at the NAVAIR and in 1999 was subsequently 
appointed as the Program Manager. Her responsibilities included leading 
a 400-person team to procure three hundred million dollars of support 
equipment acquisitions per year and sustaining Naval Aviation's support 
equipment inventory valued in excess of six billion dollars.
    In 2002 she was appointed to the Senior Executive Service as the 
Defense Contract Management Agency's Deputy Executive Director, 
Contract Management Operation where she was a principal advisor to the 
DCMA director in the development and deployment of Agency policy and 
processes used to manage 350,000 defense contracts, valued at $850 
billion, and a worldwide supplier base of over 20,000 vendors. In 2003 
she returned to NAVAIR as the Product Support Department Head. In this 
capacity she was the Chief Logistician for all aircraft acquisition 
platforms and was responsible for the sustainability of airframe, 
avionic and engine commodities. In 2005 she was appointed as the Deputy 
Program Manager of the $1.6 billion Navy Marine Corps Intranet Program, 
the largest intranet in the world serving over 650,000 U.S. and Japan-
based users. In 2006 she was appointed as Program Manager of both the 
Navy-Marine Corps Intranet and the One-Net Program, the Navy's 
overseas-based network. In this capacity she was responsible for all 
world-wide shore-based naval networks.
    Ms. Greening is a graduate of the Naval Air System Command's Senior 
Executive Management Development Program, the Defense Systems 
Management College's Advanced and Executive Program Managers' Courses, 
and the Federal Executive Institute's ``Leadership for a Democratic 
Society'' curriculum. She is the recipient of numerous performance 
awards, including the Civilian Meritorious and Superior Service Awards, 
has authored papers on advanced composite repair, and holds a single 
engine land private pilot license.

  STATEMENT OF LIEUTENANT COLONEL MICHAEL F. TREMPER, DEFENSE 
 CONTRACT MANAGEMENT AGENCY RESIDENT PILOT AT DUPONT AEROSPACE 
                            COMPANY

    Lieutenant Colonel Tremper. Mr. Chairman and Members of the 
Committee, good afternoon. I would like to thank you for 
providing me an opportunity to testify here today.
    As GFR, my primary role, as Ms. Greening was testifying, is 
to provide operational oversight of Contractor Flight 
Operations. The GFR leads a three member Aviation Program Team, 
or APT, consisting of the GFR, a maintenance manager, and a 
safety specialist. The APT conducts periodic inspections of the 
contractor facilities and flight operations.
    The results of these inspections are utilized to assist in 
risk assessment and mitigation of the program. The contractor 
is required to conduct its flight operations according to very 
specific contractual requirements contained in the DCMA Joint 
Instruction 8210.1, and it is the role of the APT to evaluate 
the contractor's level of compliance with these requirements. 
As part of the requirements, the contractor is obligated to 
submit the Contractor Flight and Ground Operation Procedures. 
The GFR is the approval authority for these procedures and for 
flight authorizations, including aircraft having government 
assumption of risk.
    The duPont Aerospace program is categorized by DCMA as a 
non-resident program, meaning that the level of flight activity 
does not warrant a full-time, on-site APT. I have been assigned 
to this program for approximately eight years and have 
conducted numerous inspections of duPont Aerospace. The first 
inspection was conducted on January 27 and 28 of 2003. As a 
result of this inspection, the contractor received a ``high'' 
risk assessment rating. The program was found to be 
contractually noncompliant in virtually all evaluated areas of 
the operation, and resulted in the temporary withdrawal of GFR 
approval for procedures and aircraft testing.
    duPont Aerospace immediately expended considerable effort 
to address all items of noncompliance identified by the APT. A 
followup assessment was conducted by the APT, and determined 
that the program had met minimum levels of compliance required, 
and the GFR approval procedures for aircraft testing. 
Subsequent inspections identified a considerable upward trend 
in program compliance with the contractual requirements.
    During the development of the DP-2 program, there have been 
four mishaps involving the test aircraft. The first mishap 
occurred on 2 November, 2003, and resulted in significant 
damage to the aircraft. Notification was made to the Naval Air 
Systems Command Safety Center. Based on the contractor's damage 
and cost estimate and lack of injury to personnel, the mishap 
was placed at the Class C mishap classification level. The 
Safety Center authorized the contractor to conduct its own 
mishap investigation, and to submit the report.
    The test aircraft again experienced mishaps on 16 November, 
2004, April 25, 2006, and August 8, 2006. DuPont Aerospace 
again conducted the mishap investigations, and produced final 
reports for these mishaps. These reports were submitted to the 
GFR and to the duPont Airworthiness Review Panel.
    The aircraft mishap on 8 August, 2006, was reported to NASA 
and the ONR ARP representatives. However, no notification was 
made to the GFR. I subsequently informed the contractor that 
this was not in accordance with approved mishap reporting 
procedures. At that time, I again temporarily removed 
government approval for contractor procedures and test 
authorizations until a thorough accounting of the mishap and 
clarification of mishap reporting procedures were provided.
    The contractor conducted a mishap investigation and 
submitted the mishap report for review to the ARP and the GFR. 
After a thorough review of the test program was conducted by 
the duPont ARP, the GFR approval for procedures and aircraft 
testing was reinstated.
    The DP-2 aircraft testing is currently being conducted at 
the duPont Aerospace facility located at Gillespie Field in El 
Cajon, California. GFR authorization has been granted for the 
continuation of both in-ground effect testing and out-of-ground 
effect testing tethered hover operations at the field.
    As the DP-2 Research and Development program advances, the 
duPont APT will continue to perform its contractual oversight 
responsibilities, and provide risk assessment and mitigation of 
this contractor's flight test operation.
    This concludes by prepared remarks, and I will be happy to 
answer any questions you may have.
    [The prepared statement of Lieutenant Colonel Tremper 
follows:]
      Prepared Statement of Lieutenant Colonel Michael J. Tremper
Mr. Chairman and Members of the Subcommittee:

    I would like to thank the Subcommittee for providing me the 
opportunity to testify here today.
    I am a member of the Air Force Reserves, presently assigned to the 
4th Air Force Headquarters Plans and Programs Staff at March Air 
Reserve Base, California. In addition to my military duties, I am a B-
767 International Pilot for Delta Airlines based in Atlanta, Georgia.
    In response to critical manning levels, I maintain concurrent 
responsibilities as a Government Flight Representative (GFR) for the 
Defense Contract Management Agency (DCMA). I have served as a GFR at 
DCMA for approximately eight years, and have provided oversight for 
several programs, ranging from Unmanned Aerial Vehicles (UAV) to manned 
airborne sensor platforms. The programs were managed by various 
agencies, including the Missile Defense Agency, the Defense Advanced 
Research Projects Agency (DARPA), the Office of Naval Research (ONR), 
and the National Aeronautics and Space Administration (NASA).
    As GFR, my primary role is to provide operational oversight of 
Contractor Flight Operations. The GFR leads a three-member Aviation 
Program Team (APT) consisting of the GFR, a maintenance manager, and 
safety specialist. The APT conducts periodic inspections of contractor 
facilities and flight operations. The results of these inspections are 
utilized to assist in risk assessment and mitigation of the Program. 
The contractor is required to conduct its flight operations according 
to very specific contractual requirements contained in the DCMA Joint 
Instruction 8210.1, and it is the role of the APT to evaluate the 
contractor's level of compliance with these requirements. As part of 
the requirements, the contractor is obligated to submit the 
``Contractor Flight and Ground Operations Procedures.'' The GFR is the 
approval authority for these procedures and for flight authorization 
involving aircraft having government assumption of risk.
    The duPont Aerospace program is categorized by DCMA as a ``Non-
Resident'' program, meaning that the level of flight activity does not 
warrant a full-time, on-site APT. I have been assigned to this program 
for approximately eight years and have conducted numerous inspections 
of duPont Aerospace. The first inspection was conducted on January 27 
and 28, 2003. As a result of this inspection, the contractor received a 
``high'' risk assessment rating. The program was found to be 
contractually non-compliant in virtually all evaluated aspects of the 
operation, and resulted in the temporary withdrawal of GFR approval for 
procedures and aircraft testing. DuPont Aerospace immediately expended 
considerable effort to address all items of noncompliance identified by 
the APT. A follow-up assessment was conducted by the APT, and 
determined that the program had met the minimum levels of compliance 
required, and the GFR approval for procedures and aircraft testing was 
reinstated. Subsequent inspections identified a considerable upward 
trend in program compliance with contractual requirements.
    During the development of the DP-2 program, there have been four 
mishaps involving the test aircraft. The first mishap occurred on 
November 2, 2003, and resulted in significant damage to the aircraft. 
Notification was made to the Naval Air Systems Command (NAVAIR) Safety 
Center. Based on the contractor's damage cost estimate and lack of 
injury to personnel, the mishap was placed at the Class C 
classification level. The Safety Center authorized the contractor to 
conduct its own mishap investigation and to submit the mishap report. 
The test aircraft again experienced mishaps on November 16, 2004, April 
25, 2006, and August 8, 2006. DuPont Aerospace again conducted the 
mishap investigation and produced final reports for these mishaps. 
These reports were submitted to the GFR and the duPont Aerospace 
Airworthiness Review Panel (ARP).
    The aircraft mishap on August 8, 2006, was reported to NASA and ONR 
ARP representatives, however, no notification was made to the GFR. I 
subsequently informed the contractor that this was not in accordance 
with the approved mishap reporting procedures. At that time, I again 
temporarily removed government approval of contractor procedures and 
test authorizations until a thorough accounting of the mishap and 
clarification of mishap reporting procedures were provided. The 
contractor conducted a mishap investigation and submitted a mishap 
report for review to the ARP and GFR. After a thorough review of the 
test program was conducted by the duPont ARP, the GFR approval for 
Procedures and aircraft testing was reinstated.
    The DP-2 aircraft testing is currently being conducted at the 
duPont Aerospace facility located at Gellespie Field in El Cajon, 
California. GFR authorization has been granted for the continuation of 
both in-ground effect (IGE) and out-of-ground effect (OGE) tethered 
hover test operations. As the DP-2 Research and Development program 
advances, the duPont Aviation Program Team will continue to perform its 
contractual oversight responsibility and provide risk assessment and 
mitigation of this contractor's flight test operation.
    This concludes my prepared remarks. I will be happy to answer 
questions you may have.

                    Biography for Michael J. Tremper

    Lieutenant Colonel Michael J. Tremper, USAFR, is currently assigned 
as an inspector for the 4th Air Force, Plans and Program Staff at March 
Air Reserve Base, California. As a residual duty, he also serves as a 
Government Flight Representative for the Defense Contract Management 
Agency, having worked on programs ranging from Unmanned Aerial Vehicles 
(UAV) to manned airborne sensor platforms.
    In his civilian employment, he is a B-767 International Pilot for 
Delta Airlines, and is based in Atlanta, Georgia.
    Lt. Col. Tremper is a 1985 graduate of the University of California 
at Long Beach, with a Bachelor's degree in public administration. He 
served eight years of active duty in the United States Air Force, 
flying KC 135 aircraft at Dyess AFB, Texas. He is a recipient of the 
Defense Meritorious Service Medal and Air Medal-Desert Storm.

                               Discussion

    Chairman Miller. Thank you, Colonel Tremper.
    Mr. Kinzer.
    Mr. Kinzer. Sir.

                          DP-2 Specifications

    Chairman Miller. You heard Mr. duPont's assessment of the 
DP-2's capabilities, the range, the cruise, the payload, the 
capabilities generally. From your own experience and 
observation, was his description accurate?
    Mr. Kinzer. I think we disagree on that, sir. Our estimate 
is that the range and payload would be considerably less than 
what Mr. duPont would project.
    Chairman Miller. When you say considerably less, do you 
have an idea of about how much it might be?
    Mr. Kinzer. I can't say we have an authoritative study on 
that. We have done preliminary analyses. There are a lot of 
unknowns. As in any research program, the projections of 
aircraft weight, the efficiencies of various propulsion 
components, all of those things are subject to some debate, I 
guess, is the best way to put it.
    So, I don't know that I would want to stand by any 
particular number, but it is certainly not anywhere approaching 
what he is projecting.

                       State of the DP-2 Project

    Chairman Miller. Okay. I understand that for the next 
fiscal year, the next budget year, there is a recommendation of 
a $6 million appropriation, again, an earmark, I believe, to 
come back to hovering later, and trying to fly. And you have 
told our staff, I understand, that there was no way that that 
could be done safely. Is that correct, and why is that?
    Mr. Kinzer. Sir, I am not sure exactly what you said. There 
is no way what could be done safely?
    Chairman Miller. The forward, conventional forward flight.
    Mr. Kinzer. Conventional flight. Yes, sir. That is my 
assessment as the program manager, is that given the level of 
engineering that the company currently has, that we can't 
really proceed beyond the low altitude hover phase, the current 
approach to the program, the level of funding and the----
    Chairman Miller. And then, Colonel Tremper, in 2003, you 
spoke of the inspection of the duPont Aerospace Company, and 
your report is entered, well, I would like to enter it into the 
record as Exhibit 3. It may have been in the book of documents 
already entered. It is in the book of documents.
    You wrote: ``The inspection findings indicate the 
contractor was noncompliant throughout all areas of its 
operation.'' Could you tell us what you found?
    Colonel Tremper. Yes, sir. As I said previously, we have to 
ensure compliance with the tri-service regulation that define 
all aspects of their operation, very similar to the 
responsibilities of the FAA, except the FAA does not have 
jurisdiction, because the government has an assumption of risk. 
Included into this are all aspects of their ground operation, 
from refueling, towing, training, currency requirements, and 
aircraft fire protection. So, we have very specific checklists 
that we have to run. Each individual takes their 
responsibilities seriously. The safety specialist makes sure 
the contractor is in compliance with national fire codes, the 
ground specialist makes sure that the contractor is following 
established procedures.
    We try to take the military requirements, if they are 
already there, for towing, jacking, things like that. But every 
checklist that we had, we ran through. They were essentially 
noncompliant. No training records, no checklists for towing. 
One of the things we do is give them scenarios, emergency 
procedures. They didn't have any kind of adequate answers that 
we would accept, as far as response for mishaps.
    And so, we assign a numerical value. I don't have that with 
me right now, but it was pretty much off the chart. Like I 
said, they were noncompliant in essentially everything we 
evaluated them in. I debriefed the entire duPont staff with my 
team. We let them know, you know, the full magnitude, the full 
scope of where they failed.
    To their credit, they did expend a considerable effort 
after that. They pretty much had to, because I had withdrawn my 
approval for their operation until they were in compliance. I 
am not sure if I answered fully your question.

                         DP-2 FAA Certification

    Chairman Miller. Okay. Well, you said that they were not 
subject to FAA certification.
    Colonel Tremper. Right.
    Chairman Miller. Are you familiar with the requirements for 
FAA certification?
    Colonel Tremper. No, sir.
    Chairman Miller. You are not?
    Colonel Tremper. No, sir. It has nothing to do with our 
program.
    Chairman Miller. So, you are not familiar with what the FAA 
requires?
    Lieutenant Colonel Tremper. No, sir.
    Chairman Miller. Okay. So, you don't have any idea of 
whether this plane could be, or this----
    Lieutenant Colonel Tremper. As far as, you mean 
experimental certification with the FAA?
    Chairman Miller. Could be certified by the FAA.
    Lieutenant Colonel Tremper. I know they are out there, but 
they have no applicability to this program, under the flight 
risk clause.

                          DP-2 Accident Record

    Chairman Miller. Okay. And then, I think my final question, 
Mr. Hall. The DP-2 has been compared a lot today to the Osprey, 
but it appears that the DP-2 is still in its, the early stages 
of its infancy. Perhaps it is still in utero. Are four 
accidents to this point, only in attempts to hover, is that a 
reasonable good safety record, in your estimation?
    Colonel Hall. That is not a good record. That is a bad 
record.
    Chairman Miller. Okay. Mr. Rohrabacher.

                     Management of the DP-2 Project

    Mr. Rohrabacher. Thank you very much. And again, I would 
like to compliment the Chairman on holding a hearing into 
something, and asking questions that are very reasonable to be 
asked of any program that is financed by the taxpayers. And 
this is the way we are going to be able to find out the truth, 
and to make our own decisions here.
    Will you all agree that engineers generally are poor 
managers? Any disagreement with that? I mean, am I just sort of 
living on a different planet, where engineers also are great, 
you know, businessmen as well? Well, I think you agree with me 
on that, and I, Tony duPont let us know for the record, was 
involved with the National Aerospace Plane, and was in the 
aerospace community, a respected engineer. And although a lot 
of people disagree with him on certain ideas, he is a maverick, 
and whenever we come to the point where we don't let mavericks 
and freethinkers have a chance to prove their theories, we are 
putting a great limitation on what our potential is for the 
future.
    And I would say in retrospect, even after hearing all the 
things today, that the idea of a research project in order to 
determine the viability of a vectored thrust concept that might 
be utilized in short landing and takeoff, and also, might be 
utilized in a hovering type of capability, that that was a very 
good use of taxpayer dollars.
    I sponsored an earmark for Tony for two years, when the 
bill went to NASA, and quite frankly, I would do it again, even 
after hearing all of this testimony. I did withdraw my support 
for earmarks for Tony, when he did not reach the deadline that 
I thought was an appropriate deadline.
    You want to give an engineer an opportunity, you want to 
give free-thinkers and people who have great ideas an 
opportunity to do something, but you don't give them unlimited 
time and unlimited money, in terms of length of time. So, I 
withdrew at that time, saying Tony, you missed your deadline.
    Let me ask this. I guess currently, you testified, to 
answer your question, that in 2003, the duPont operation did 
not meet the requirements that had been set down, but I have a 
report here that in 2004, correct me if I am wrong, that you 
found that ``findings indicate that the contractor has brought 
forth considerable effort toward full implementation of 
standards'' and the type of things that he wasn't doing the 
year before. Is that right?
    Lieutenant Colonel Tremper. Yes, sir. That is correct.
    Mr. Rohrabacher. Okay. So, they were lax at a certain time, 
and they took the moves and made the effort to correct those 
areas where they were lax. Is that----
    Lieutenant Colonel Tremper. Yes, sir.
    Mr. Rohrabacher. All right. And is it right for Congress to 
point out at one point, they were lax? Yes, it is. But it is 
just as important to point out that after calling it to their 
attention, they did make the moves to try to come into 
compliance.

                    Vectored Thrust Research Funding

    Do any of you believe that research into vectored thrust 
should not have had any exploratory and research money put into 
examining the concept of vectored thrust? Is that your 
testimony today?
    Lieutenant Colonel Tremper. I think that we would agree 
with that.
    Mr. Rohrabacher. So, you would agree that we should not 
have spent any money.
    Lieutenant Colonel Tremper. No, no, no.
    Mr. Rohrabacher. Okay.
    Lieutenant Colonel Tremper. That we should spend money.
    Mr. Rohrabacher. Okay. So, let the record note that the 
witnesses agree that the concept of vectored thrust did, as a 
concept, deserve to be looked at and researched, and let us 
also note that this is a research project, and in no way is it, 
should be held accountable to even the development phase, where 
they actually have working prototypes, and then they try to 
even correct the situation from there.
    Is, let me say this--should this project, should the DP-2 
now be permitted to fly in order to prove Tony's theories? Are 
we--would that not be a reasonable, would that be a reasonable 
request right now, that from us, as the taxpayers, that Tony 
duPont's ten year research project, $55 million, is a lot of 
time and effort, that he be permitted at this point to prove or 
disprove whether or not it will hover or take off in a short 
landing, short takeoff? Should we permit him to fly, or to try 
to fly that aircraft? We have got the project manager here. You 
guys are overseeing the project. Are we going to keep Tony, are 
we not going to give this man a chance to prove his ideas will 
or won't work?
    Mr. Kinzer. Sir, I will take a stab at that.
    Mr. Rohrabacher. Okay.
    Mr. Kinzer. We do have another six months on the current 
contract, during which time he has funding and has the time to 
demonstrate hover. The aircraft is on the test stand right now, 
and it has just passed a review, and it does have the 
potential, we think, to demonstrate extended hover within the 
current contract.
    Mr. Rohrabacher. And if he does prove that it hovers, that 
it simply hovers, this would be a major breakthrough, would it 
not?
    Mr. Kinzer. It would definitely give us a substantial 
amount of data with which to do further analysis.
    Mr. Rohrabacher. Right, and so, the data that we would 
receive, if this indeed hovers, would well be worth the $55 
million investment into this direct research that the 
government has put forward. Is that right? Would you agree with 
that? If we actually succeed in hovering this craft, and are 
able to get the data from that, data or data, whatever it is, 
from that experiment, that this would be well be worth our 
while, would it not, especially if it leads to the development 
in the future of hovering aircraft based on that type of 
technology? Is that correct?
    Mr. Kinzer. Yes, sir.

                                Closing

    Mr. Rohrabacher. Yes. So, Mr. Chairman, I think that we 
should reconvene this hearing in San Diego, when Tony is ready 
to prove to us that he has something that will work, and I will 
be there, and I hope you will be, too, Mr. Chairman.
    Thank you very much.
    Chairman Miller. Thank you for that generous offer, Mr. 
Rohrabacher. We do need to wrap up. We are out of time. Mr. 
Rohrabacher, you did refer and read from a document that you 
said was a 2004 evaluation, and no one on our staff knows what 
that is. Could you make that part of the record?
    Mr. Rohrabacher. Yes.
    Chairman Miller. You got it from us? Okay. If we could just 
see what it is, so we can make sure that we do have a copy of 
it.
    Mr. Rohrabacher. All right.
    Chairman Miller. Thank you, Mr. Rohrabacher, and thank you 
to all the witnesses. And I am in agreement with much of what 
Mr. Rohrabacher says. I think that we do need to be funding 
research. We need to be proceeding on many fronts in many 
areas. Certainly, research funding, research in military 
technologies, research in aeronautics and space technologies. 
And the easiest studies that the Federal Government funds to 
belittle are probably those of NIH, which are not within this 
committee's jurisdiction, many of which can be made to sound 
silly very easily, and there are a great many of them. And they 
are pure research. They are just research to find out, to 
satisfy some scientist's or some doctor's curiosity without any 
clear idea of what it will produce, or whether there will be 
any practical application, and there are hundreds of such 
projects, some of which have led to remarkable medical 
breakthroughs.
    However, those are all decided by a panel of disinterested 
scientists, medical researchers, doctors in academic settings. 
We rely upon disinterested expert opinion, expert judgment, on 
what are the worthy avenues of research. What holds promise for 
us.
    This hearing really is about accountability. We do expect 
those that we provide federal grants for research to be 
accountable for the money we provide them. And it is about 
accountability of Congress, too. We have to be held accountable 
for the decisions that we make.
    I agree with Mr. Rohrabacher that an initial decision to 
see if this funding, if this concept could be made to work. It 
is one that I do not fault, even though it was, at the time, 
one that the experts viewed skeptically. But 20 years later, 
with every disinterested expert, not Mr. duPont himself, but 
those that we rely upon, DARPA, NASA, having concluded that 
this project is just fraught with problems, and enough problems 
that they simply will not yield to a solution, should we 
continue to fund this, or is there an accountability by 
Congress and of Congress and of Mr. duPont, that really would 
argue that Congress should not continue to impose our judgment, 
or to put forward our judgment against that of those with 
greater knowledge and greater expertise, on whose judgment we 
should rely.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, first of all, 
congratulations, and again, I have total agreement with you as 
Chairman of this subcommittee, for hearings like this, to get, 
to ask very specific questions of experts, to have a back and 
forth on issues like this.
    I happen to have with me a model of the DP-2, and that I 
would like to present to the Chairman. And----
    Chairman Miller. And this is a value of less than $50.
    Mr. Rohrabacher. Yes, considerably less than $50, and this 
is supposedly what was going to be the commercial model of this 
craft. I think it was a dream worth pursuing, and a dream that 
still may come true. I think we need to let Tony prove or 
disprove his theory of vectored thrust, and if he does, and if 
it proves out to be correct, we some day may see this flying, 
and would have a dramatic impact on aviation in America. Or 
maybe it won't, because maybe the theory isn't accurate.
    It was worthy of research to look into that idea, and here 
you go, Mr. Chairman, and maybe when it flies, we can, or if it 
does fly, we can all celebrate, and if it doesn't, we can say, 
at least I can say I think it was worthwhile looking into this 
project.
    So thank you very much.
    Chairman Miller. Thank you, Mr. Rohrabacher, and we have 
completed our business. We are adjourned. Thank you again very 
much.
    [Whereupon, at 12:28 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Anthony A. duPont, President, duPont Aerospace Company, 
        Inc.

Questions submitted by Chairman Brad Miller

PRATT & WHITNEY TEST

Q1.  In your testimony you discuss the 1996 Pratt & Whitney test of the 
duPont thrust vectoring system and claim: ``As a result of the 
successful test, the remainder of the appropriated DP-2 funding was 
transferred to the Office of Naval Research, ONR, by DARPA, who wanted 
one of the services to continue the program.''

    During the 1996 Pratt & Whitney test, although the duPont Aerospace 
thrust vectoring system was able to turn the gas turbine engine the 
duPont structure disintegrated on the test stand due to problems with 
its structural integrity. Considering that, please explain why you 
describe this as a successful test?

A1. The Lockheed management and the DARPA program manager declared it a 
success. A principal reason for doing the test was to determine the 
losses in 90 degree hover thrust. The measured losses were five percent 
as opposed to the Navy estimate of 25 percent.

Q2.  Were you aware--at the time (from 1988 when you received your 
first earmark for the DP-2 up until the mid-1990s) that DARPA was 
refusing to fund the DP-2 because of technical concerns they had with 
the DP-2 aircraft?

A2. No. The DARPA Director stated on several occasions that he did not 
know whether the DP-2 was a good idea or a bad idea, but he was 
determined to resist any earmark he could, and he needed the $3 million 
to cover other expenses. Later DARPA tried to justify this position by 
citing the Navy study and raising as many technical quibbles as they 
could, but it usually boiled down to the 25 percent thrust loss 
estimated by the Navy. Thus the priority on the full scale thrust 
vectoring system test when DARPA finally decided to spend some of the 
appropriated DP-2 funds.

Q3.  What evidence do you have that after refusing to fund the DP-2 for 
several years, that DARPA actually wanted one of the military services 
to fund the DP-2 aircraft?

A3. DARPA wanted a military service to spend the remaining $12 million 
left in the $15 million DP-2 appropriation instead of managing the 
program themselves. They were not asking the service to fund it instead 
of using the appropriated funds.

INVESTING IN THE DP-2

Q4.  In your testimony before, again, the Science Committee in 2001, 
you said that you had spoken with Boeing, Lockheed, and Grumman, and 
other aerospace companies about investing in the project, in the DP-2, 
and that none of them were willing to invest. Is that correct?

A4. No, it is not. I had talked to those companies about making parts 
of the airplane, when it was still an aluminum airplane design, and we 
weren't so much interested in them investing in the project as 
participating in it, and we would get outside investment and customer 
progress payments to pay for the construction of the airplane.

Q5.  Did you ask them about investing in the concept, developing the 
concept of the DP-2 or the vectored thrust?

A5. No.

Q6.  Below are excerpts of your testimony to the House Science 
Committee on May 9, 2001:

         REP. DAVE WELDON: I just want to follow on, Mr. DuPont, with 
        the, sort of the direction Mr. Lampson was going in. You laid 
        out in your testimony some dollar figures on what it would cost 
        to develop an airplane. I know there are some Boeing 
        representatives sitting out there in the audience. Why doesn't 
        industry just come along and fund you if this is really--
        because it sounds great. It sounds like a dream come true, 
        actually. We've got all these concerns in this committee and in 
        the Transportation Committee about our overcrowded airline 
        infrastructure. And to have the capability to bring a system 
        like this on board, could solve a heck of a lot of problems. 
        And to shorten the time duration to get from place to place 
        certainly appeals to everybody, particularly U.S. Congressmen.

         But why doesn't industry just pile on and fund this? I mean, 
        if I were the Chairman of Boeing or Airbus, I would be looking 
        very closely at your little company and what you're doing. I 
        mean, what's the problem here?

         DUPONT: Well, I think the problem is the uncertainty whether 
        it would work or not. I can remember an interview with the Vice 
        President of American Airlines. He says, ``Tommy [sic] [Tony], 
        don't tell me why the airplane's good. I'll tell you why it's 
        good.'' And he did. And then he says, ``Now you tell me it's 
        real.'' And I had a hard time answering that question. A lot 
        better shape today because of the ONR project. But I think it 
        was--and we've talked to Boeing, and we talked to Lockheed, and 
        we talked to Grumman, and we talked to, in one way or another, 
        almost everybody in industry years ago about doing exactly what 
        you said--Why don't you invest in this great idea and get rich? 
        And nobody was willing to do it. And I think it was primarily 
        because of skepticism that you could actually accomplish it.''

    Please explain the contradiction in your testimony before the House 
Science Committee in 2001 in which you clearly testified that you spoke 
to Boeing, Lockheed, Grumman and other aerospace firms about 
``investing'' in the DP-2 aircraft and your testimony to the House 
Science and Technology Committee on June 12, 2007 in which you, say you 
never asked these companies too invest in the DP-2 aircraft.

A6. In the 1970's the DP-2 was an aluminum airframe design, and the 
discussions with the airframe companies concerned building parts such 
as the wing, fuselage and tail on the basis that Boeing was then having 
Northrop build 747 fuselage components. We were asking them to complete 
the detail design, build the tooling and manufacture the part. This 
would require investment on their part which they could recover in the 
price of the parts. Nobody was willing to start making this investment 
up front without a production program in place. Some companies were, 
however, interested in participating once a viable number of orders had 
been booked.

Q7.  Have you ever approached any commercial aerospace company seeking 
investment in, participation with, or any ether financial relationship 
regarding the research, development or testing of the DP-2?

A7. No.

Q8.  Have any commercial aerospace companies ever offered to invest in 
the research, development or testing of the DP-2 aircraft?

A8. A few companies have expressed interest, but no definitive 
discussions have taken place.

Q9.  If they have please, provide specific details about when this 
occurred, what they wanted to invest in and how much money they offered 
to or actually invested?

A9. In view of the answer to the previous question there are no details 
to provide.

1990 DARPA DP-2 TECHNICAL ASSESSMENT

Q10.  In your testimony, you said ``I don't know what credibility you 
want to put on this, but DARPA published a curve, in connection with 
that 1990 or some earlier review, that said that with the mixed exhaust 
that the DP-2 engine has, the airplane can hover over sod and 
asphalt.''

10a. With what consequences?

A10. None.

Q10b.  Is the attached graph the DARPA curve you were referring to?

A10b. Yes. The attached DARPA graph/curve from the agency's 1990 
``Technology Assessment'' of the DP-2 aircraft concept actually shows 
that the DP-2 would erode both sod and asphalt. The DARPA report itself 
was severely critical of the DP-2 concept and design and concluded, in 
fact, that the aircraft's attempt to land on sod, asphalt or other 
unprepared surfaces would create dust storms, impeding visibility, 
endangering ground personnel and possibly damaging the aircraft's 
engines. It also criticized duPont Aerospace for not providing any 
technical data on this critical issue in your proposal.

Q10c.  Please explain how the DARPA report and the enclosed ``curve'' 
or graph squares with your testimony?

A10c. The DARPA report plotted an incorrect temperature. The engine 
then proposed for the DP-2 was the Pratt & Whitney JT8D-219 which 
incorporates an exhaust gas mixer and has a mixed exhaust temperature 
at maximum thrust of about 500 degrees Fahrenheit. The International 
Aero Engines V2500, which was selected during the DARPA contract in 
1995, has a mixed exhaust temperature slightly less than 400 degrees 
Fahrenheit. Either of those temperatures puts the DP-2 below the limit 
for sod or asphalt.

Q11.  What technical analysis has duPont Aerospace done to demonstrate 
the ground effects of the DP-2 in a hover mode over unprepared 
surfaces?

A11. CFD (Computerized Flow Dynamics) has been used to characterize the 
environment underneath the aircraft and during air drop.
                   Answers to Post-Hearing Questions
Responses by John F. Kinzer, Program Officer, Air Warfare and Weapons, 
        Office of Naval Research

Questions submitted by Chairman Brad Miller

Q1.  Do you believe that with the DP-2's mixed exhaust system that it 
would be capable of safely hovering over sod or asphalt?

A1. No. The proposed engines for the DP-2 are International Aero 
Engines (IAE) V2500, rated at 33,000 lbs thrust each. These engines are 
currently utilized in several Airbus and Boeing commercial airliners. 
At high power, these commercial aircraft have large hazard zones aft of 
the aircraft, which illustrate the high level of energy present in the 
exhaust, which is focused towards the ground for the DP-2. The exhaust 
environment produced at high power will be a jet velocity in excess of 
650 ft/sec, at a mixed flow temperature of in excess of 300<SUP>+</SUP> 
F. The pressure produced by the aircraft is over twice the acceptable 
limit for sod operations, as defined by NASA TND-56. Damage to both the 
noted surfaces would be expected. Currently all DP-1 test operations 
are conducted over concrete or steel pads, for this reason.

Q2.  Mr. Tony duPont has characterized the 1996 Pratt & Whitney test of 
the duPont thrust vectoring system as a ``success.'' Do you agree with 
that characterization of the test?

A2. No. The test was partially successful, in that it demonstrated 
roughly 95 percent turning efficiency by the cascades through a 90 
degree angle. However, the test was also a partial failure in that the 
cascade system failed catastrophically after only a limited amount of 
data was obtained.

Q3.  Do you believe that all concerns regarding the DP-2's thrust 
vectoring system have been resolved as a result of development work on 
the DP-1 aircraft?

A3. No. On the contrary, no significant concerns have yet been 
resolved.

Q4.  Do you believe it would be safe to permit the most recent version 
of the DP-2 aircraft (the DP-IC) to attempt to engage in conventional 
forward flight today?

A4. No. The risk would be extremely high. None of the aircraft systems 
or functional areas have been certified safe for flight, and several 
failures have occurred in tests to date that would have been 
catastrophic in conventional flight.

Q5.  What is the Navy's estimate of the DP-2's Maximum Speed?

A5. There has been no independent estimate made of maximum speed.

Q6.  What is the Navy's estimate of the DP-2's Cruise Speed?

A6. A conceptual design level estimate of cruise speed is approximately 
275 knots at sea level standard day conditions--increasing to a maximum 
of 500 knots at 50,000 ft standard day conditions.

Q7.  What is the Navy's estimate of the DP-2's Maximum Range with a 
Full Payload?

A7. With a 7,700 lb payload, and a vertical takeoff, a conceptual 
design level performance estimate indicates a maximum radius of 
approximately 180 nautical miles (nm), which would correspond to a 
range of approximately 360 nm. This range would be reduced if ambient 
temperatures exceed about 86<SUP>+</SUP> F. Above this temperature, the 
vertical takeoff performance begins to reduce.

Q8.  What is the Navy's estimate of the DP-2's Payload capacity in 
tons?

A8. For a vertical takeoff, a conceptual design level analysis 
indicates a maximum fuel plus payload level of about 11,000 lbs, or 5.5 
tons.

Questions submitted by Representative Dana Rohrabacher

Q1.  Is the concept as envisioned by duPont Aerospace technically 
feasible? What are the most serious challenges? Could another company 
with more experience address those challenges more adequately?

A1. This program was initiated by Congress in FY 1988, funded by a 
series of congressional plus-ups and earmarks originating in the House 
Science and Technology Committee and the House Armed Services 
Committee, and involved multiple federal agencies including the 
National Aeronautics and Space Administration (NASA), the Defense 
Advanced Projects Agency (DARPA), and the Navy. During that time, the 
Navy has meticulously followed the direction of both the House Armed 
Services and Science and Technology Committees in managing the DP-2 
program.
    Although the technology can probably be made to hover and fly 
conventionally, a significant redesign of the configuration is required 
to achieve this goal. When the required design changes are made, it is 
unlikely that the resulting performance capability could effectively 
compete with existing or planned systems and technologies for the 
commercial or military applications envisioned.
    The most serious challenges are:

        <bullet>  Major--could require fundamental design change

                --  Propulsion system and integrated flight and 
                propulsion control

                        <bullet>  Selection of appropriate materials/
                        design to provide a robust cascade vanes and 
                        control box system capable of sustained 
                        operations in the propulsion system flowpath.

                        <bullet>  Demonstration of the cascade vanes 
                        and control box to provide adequate control 
                        power (in all axes) during both vertical mode 
                        flight and transition to and from wing borne 
                        flight.

                        <bullet>  Development of a flight control 
                        system with acceptable pilot workload to allow 
                        safe operations in a wide range of ambient 
                        conditions, day and night, in operational 
                        environments of interest, with the wide range 
                        of pilot skill levels typical for fleet pilots.

                --  Performance and handling qualities in the event of 
                engine failure

                        <bullet>  Engine failure during Vertical 
                        Takeoff (VTO) or vertical landing operations 
                        could be catastrophic.

                        <bullet>  Directional control on engine failure 
                        will require a backup reaction control system, 
                        further depleting thrust on remaining engine 
                        and/or adding to empty weight.

                --  Suckdown

                        <bullet>  Location and configuration of lift 
                        jet (effectively single post) will likely 
                        result in significant suckdown/lift loss at 
                        liftoff, during short takeoff operations, and 
                        during inbound transitions to hover and 
                        outbound transitions to wing borne flight.

                        <bullet>  No anticipated benefits from induced 
                        favorable flow over lifting surfaces.

                --  Hot gas ingestion

                        <bullet>  The inlet configuration is inherently 
                        susceptible to engine stalls due to Hot Gas 
                        Ingestion. It is also prone to foreign object 
                        damage during operations in austere sites, as 
                        well as perhaps ground vortex generation. This 
                        will likely require a relocation of the inlets, 
                        or potentially the use of auxiliary inlet 
                        doors. This would add weight and complexity.

        <bullet>  Significant--could seriously compromise operational 
        utility

                --  Jet blast effects

                        <bullet>  Will preclude operations from 
                        unprepared surfaces.

                        <bullet>  Limits utility in operations that 
                        require personnel/equipment exposure below 
                        aircraft.

                --  Radar signature

                        <bullet>  Configuration not suitable for low 
                        frequency signature reduction.

                        <bullet>  Large inlets, exhaust configuration 
                        likely to limit signature reduction potential.

                        <bullet>  Thermal signature highest in most 
                        exposed area.

                --  Limited range/payload

                        <bullet>  Navy conceptual design levels 
                        estimate of less than 200 nmi radius, not 
                        including redesign driven by major issues.

                --  Composite Structure

                        <bullet>  Composites in hot section not likely 
                        to meet durability requirements.

                        <bullet>  Overall composite fabrication 
                        approach (including honeycomb use) not likely 
                        to meet Naval marine environment durability 
                        requirements.

                        <bullet>  Replacing honeycomb core composites 
                        with a suitable composite approach, or metal as 
                        appropriate, will increase weight and reduce 
                        performance.

                --  Control instability/cross coupling

                        <bullet>  Pitch and roll control have ``non-
                        minimum phase zero'' reversal effects that will 
                        require a highly augmented flight control 
                        system for piloted control, and limit ability 
                        to precisely control hover.

                        <bullet>  Pitch and yaw control are coupled; 
                        Pitch/Roll/Yaw control all couple with thrust 
                        control.

                --  Center of gravity limits

                        <bullet>  The control system needs to 
                        accommodate the typically wide range of center 
                        of gravity locations typical for transport type 
                        aircraft.

                --  Directional control

                        <bullet>  Yaw control power appears inadequate 
                        in current configuration to control inlet 
                        induced (ram drag) instability with any 
                        appreciable crosswind/sideslip.

                --  Noise

                        <bullet>  High velocity exhaust flow will be 
                        noisy.

    Due to a lack of experience, duPont Aerospace can only accomplish a 
small portion of the required development and testing. A project of 
this complexity requires significantly more engineering and management 
expertise than is currently possessed by duPont Aerospace.

Q2.  What would it take to make the DP-2 program succeed? How much more 
money would it cost to complete? How long of a schedule? What type of 
program management is needed? What type of oversight is needed?

A2. The concept as envisioned by duPont Aerospace cannot succeed, 
because resolution of the technical issues will compromise performance 
to the point where it will not be able to effectively compete for any 
mission with existing or planned systems and technologies. It is 
possible that the thrust vectoring system technology could be 
reconfigured for other applications, for instance a sea based unmanned 
aerial vehicle. The program plan for this would have to be developed 
and would require significant management changes.
    It is difficult to answer questions on estimated program cost and 
schedule, given the remaining technical issues to address. If further 
resources are committed examining the DP-2 concept, a fundamental 
redirection towards small-scale testing is suggested--which is likely 
outside the experience base and technical capabilities of duPont 
Aerospace. The current technical path of the DP-1 demonstrator is 
expensive, unproductive, and unlikely to result in successful 
maturation of the concept.

Q3.  If the DP-2 program was to overcome the serious technical issues 
it now faces, does the concept have a viable application? Who could 
that application serve? What level of improvement would the DP-2 have 
over existing capabilities?

A3. Possibly yes. The DP-2 concept itself, as described above, is not 
viable, and is not competitive with existing capabilities. However, the 
thrust vectoring technology it contains is potentially applicable to 
unmanned aerial vehicle missions involving sea-based surveillance, sea-
based support of distributed operations, and V-22 escort. This thrust 
vectoring technology is one method of achieving high speed VTOL flight, 
but others methods do exist, and all would need to be considered during 
exploration of concepts to meet these mission needs. The applications 
described above could serve the Navy and/or Marine Corps.
          
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
